<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        REAUTHORIZATION OF THE 
                       MAGNUSON-STEVENS FISHERY 
                    CONSERVATION AND MANAGEMENT ACT 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, March 13, 2013

                               __________

                            Serial No. 113-3

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-966 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001




                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel



                               ----------                              

                               CONTENTS

                               ----------                              
                                                                   Page

Hearing held on Wednesday, March 13, 2013........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Dooley, Robert E., President, United Catcher Boats...........    18
        Prepared statement of....................................    19
    Gill, Robert P., Co-Owner, Shrimp Landing, Florida...........    34
        Prepared statement of....................................    36
    Jones, Bob, Executive Director, Southeastern Fisheries 
      Association, Inc., Tallahassee, Florida....................     8
        Prepared statement of....................................     9
        Letter from members of the U.S. Senate requesting GAO 
          study on NMFS Stock Assessments submitted for the 
          record.................................................    15
    Logan, Captain Keith, Charter Boat Captain, Myrtle Beach, 
      South Carolina.............................................    28
        Prepared statement of....................................    29
    Pappalardo, John, Chief Executive Officer, Cape Cod 
      Commercial Hook Fishermen's Association....................    24
        Prepared statement of....................................    25
    Plesha, Joseph T., Chief Legal Officer, Trident Seafoods 
      Corporation................................................    41
        Prepared statement of....................................    42
    Rauch, Samuel D., III, Deputy Assistant Administrator for 
      Regulatory Programs, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................    76
        Prepared statement of....................................    78
    Shipp, Dr. Robert L., Chair and Professor, Department of 
      Marine Sciences, University of South Alabama...............    16
        Prepared statement of....................................    17

Additional materials supplied:
    Charter Fishermen's Association, Statement submitted for the 
      record.....................................................    94
    Crockett, Lee R., Director, U.S. Fisheries Campaigns, The Pew 
      Charitble Trusts, Letter and statement submitted for the 
      record.....................................................    97
    Gulf Fishermen's Association, Statement submitted for the 
      record.....................................................   100
    Keating, Hon. William R., a Representative in Congress from 
      the Commonwealth of Massachusetts, Statement submitted for 
      the record.................................................   101
    Mitchell, Elizabeth, Association for Professional Observers, 
      Eugene, 
      Oregon, Statement submitted for the record.................   102
    Scott, Hon. Austin, a Representative in Congress from the 
      State of Georgia, Statement submitted for the record.......   105
    South Atlantic Fishermen's Association, Statement submitted 
      for the record.............................................    62


  OVERSIGHT HEARING ON THE ``REAUTHORIZATION OF THE MAGNUSON-STEVENS 
               FISHERY CONSERVATION AND MANAGEMENT ACT.''

                              ----------                              


                       Wednesday, March 13, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 10:06 a.m., in 
Room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Wittman, Fleming, 
Labrador, Southerland, Runyan, Mullin, LaMalfa; Markey, 
DeFazio, Pallone, Holt, Bordallo, Sablan, Hanabusa, Horsford, 
Shea-Porter, Lowenthal, and Garcia.
    Also Present: Representative Keating.
    The Chairman. The Committee will come to order. And the 
Committee on Natural Resources today is meeting to hear 
testimony on an oversight hearing on the reauthorization of the 
Magnuson-Stevens Fishery and Conservation Act. And I note that 
we do have a quorum.
    Under Rule 4(f), opening statements are limited to the 
Chairman and the Ranking Member of the Committee. However, I 
ask unanimous consent to include any Members' opening 
statements in the hearing record if it is submitted to the 
Clerk by the end of business today.
    [No response.]
    The Chairman. And without objection, so ordered. I also ask 
unanimous consent that the gentleman from Massachusetts, Mr. 
Keating, be allowed to join us on the dais and participate in 
the hearing if he chooses to.
    [No response.]
    The Chairman. And, without objection, so ordered. And I 
will introduce Mr. Keating when we introduce the first panel.
    I now recognize myself for 5 minutes for my opening 
statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. I would like to welcome all of the Members 
and today's witness for the first hearing this Congress on the 
reauthorization of the Nation's premiere fisheries law, the 
Magnuson-Stevens Fishery Conservation and Management Act, more 
popularly known as the Magnuson-Stevens Act.
    As many of you know, both the full Committee and the 
Subcommittee on Fisheries, Wildlife, Oceans, and Insular 
Affairs held several hearings in the 112th Congress on topics 
related to this Act. However, because the Act expires at the 
end of Fiscal Year 2013, the real work on this reauthorization 
will take place in this Congress.
    Managing fish and fishermen is a challenge. It requires a 
balancing act between a sustainable harvest level and the 
maximum economic value for the fisheries, between recreational 
and commercial users of the same resource, between different 
gear types in the same fisheries, and between different States. 
As we begin the reauthorization process, we will review the 
successes of the Act and determine what provisions Congress 
should examine to make the Act work better.
    This hearing is intended to highlight issues that could 
provide the basis for further hearings. I want to emphasize 
that. This hearing is intended to highlight issues that will 
provide basis for further hearings. We will examine how the Act 
could or should be modified to provide better management of the 
Nation's fishery resources, as well as provide better economic 
certainty for recreational fishermen, commercial fishermen, and 
those communities dependent on fisheries.
    In 2006, Congress passed the last reauthorization of this 
Act. The goals of that reauthorization were to base management 
decisions on science and require accountability. While both are 
good goals, they have been difficult to achieve. As we found 
out during hearings last Congress, many of the current 
challenges may not be due to the Act itself, but rather with 
its implementation. We also heard loud and clear that there is 
a lack of accurate, timely data for making sound management 
decisions.
    Judging by the number of bills to amend the Magnuson-
Stevens Act introduced in the last Congress, there is certainly 
an interest among Members and their constituents in modifying 
the Act. Legislation introduced in the last Congress, including 
proposals to modify a number of provisions in the Act include: 
modification of the annual catch limit requirement; additional 
flexibility in rebuilding time frames; additional transparency 
for councils and councils' science and statistical committees; 
new uses of funds collected from fisheries, fines, and 
penalties; modification of the disaster assistance provision; 
and a definition and restrictions on catch-share management 
programs. All of these issues were part of bills introduced in 
the last Congress.
    Fishermen in coastal communities that depend on healthy 
fisheries are certainly facing challenges. The Secretary of 
Commerce declared seven fishery disasters in 2012 and several 
more have been requested. New England is facing severe cuts in 
the quotas for important fisheries. The Gulf of Mexico is 
facing severe restrictive fishing seasons for recreational 
fishermen. The Pacific Northwest is seeing management and data 
collection costs growing, with an ever-increasing burden 
falling on fishermen. All of these fisheries and all of these 
regions need economic stability.
    During this reauthorization process I also hope to examine 
the need for better data collection. There has got to be a 
better way to get up-to-date accurate data on fishery resources 
and on the harvest levels. Congress attempted to start this 
process in 2006 by requiring an overhaul of the recreational 
data process. Unfortunately, that work is still underway.
    But this is not just an issue for recreational fisheries. 
Increasing burdens are being placed on commercial fishermen in 
the Pacific and in the North Pacific. And, at the same time, 
new uses of technology are not keeping pace with innovation.
    The Committee will examine all of these issues. And I am 
sure more will arise, as the process continues. Luckily, 
congressional hearings will not be the only source of 
information for this Committee. The eight Regional Fishery 
Management Councils are hosting a Managing Our Nation's 
Fisheries III conference in May that will certainly add 
information for us to consider.
    In addition, the General Accounting Office, the Department 
of Commerce Inspector General, and the Ocean Studies Board of 
the National Academy of Sciences have, or will be, releasing 
reports that will aid us in this effort.
    So, I look forward to hearing from the testimony of the 
Committee, or of the witnesses today.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    I would like to welcome Members and today's witnesses to the first 
hearing this Congress on the reauthorization of the Nation's premiere 
fisheries law--the Magnuson-Stevens Fishery Conservation and Management 
Act--more popularly known as the Magnuson-Stevens Act.
    As many of you know, both the Full Committee and the Subcommittee 
on Fisheries, Wildlife, Oceans and Insular Affairs held several 
hearings in the 112th Congress on topics related to the Magnuson-
Stevens Act. However, because the Act expires at the end of Fiscal Year 
2013, the real work for the reauthorization will take place this 
Congress.
    Managing fish--and fishermen--is a challenge. It requires a lot of 
balancing acts: between a sustainable harvest level and the maximum 
economic value for the fisheries; between recreational and commercial 
users of the same resource; between different gear types in the same 
fisheries; and between different states.
    As we begin the reauthorization process, we will review the 
successes of the Act and determine what provisions Congress should 
examine to make the Act work better.
    This hearing is intended to highlight issues that could provide the 
basis for further hearings. We will examine how the Act could or should 
be modified to provide better management of the Nation's fishery 
resources as well as provide better economic certainty for recreational 
fishermen, commercial fishermen, and fishery dependent communities.
    In 2006, Congress passed the last reauthorization of the Act. The 
goals of that reauthorization were to base management decisions on 
science and to require accountability. While both are good goals, 
they've been difficult to achieve.
    As we found out during hearings last Congress--many of the current 
challenges may not be due to the Act itself, but rather with its 
implementation. We also heard loud and clear that there is a lack of 
accurate, timely data for making sound management decisions.
    Judging by the number of bills to amend the Magnuson-Stevens Act 
introduced last Congress, there is certainly an interest among 
Members--and their constituents--in modifying the Act.
    Legislation introduced in the 112th Congress included proposals to 
modify a number of provisions in the Act including: modification of the 
Annual Catch Limit requirement . . . additional flexibility in 
rebuilding timeframes . . . additional transparency for councils and 
councils' scientific and statistical committees . . . new uses of funds 
collected from fisheries fines and penalties . . . modification to the 
disaster assistance provision . . . and a definition and restrictions 
on catch share management programs.
    Fishermen and coastal communities that depend on healthy fisheries 
are certainly facing challenges. The Secretary of Commerce declared 
seven fisheries disasters in 2012 and several more have been requested. 
New England is facing severe cuts in the quotas for important 
fisheries. The Gulf of Mexico is facing severely restrictive fishing 
seasons for recreational fishermen. The Pacific Northwest is seeing 
management and data collection costs growing with an ever increasing 
burden falling on fishermen. All of these fisheries and all of these 
regions need economic stability.
    During this reauthorization process I also hope to examine the need 
for better data collection. There has got to be a better way to get up-
to-date, accurate data on the fishery resources and on the harvest 
levels. Congress attempted to start this process in 2006 by requiring 
an overhaul of the recreation data collection process. Unfortunately, 
that work is still underway. But this is not just an issue for the 
recreational fisheries. Increasing burdens are being placed on 
commercial fishermen in the Pacific and the North Pacific and, at the 
same time, new uses of technology are not keeping pace with innovation.
    The Committee will examine all of these issues and I am sure more 
will arise as the process continues. Luckily, Congressional hearings 
will not be the only source of information for this Committee. The 
eight regional fishery management councils are hosting the ``Managing 
Our Nation's Fisheries 3'' conference in May that will certainly add 
information for us to consider. In addition, the General Accounting 
Office, the Department of Commerce's Inspector General, and the Ocean 
Studies Board of the National Academy of Sciences have or will be 
releasing reports that will aid us in this effort.
    I look forward to hearing the testimony from today's witnesses.
                                 ______
                                 
    The Chairman. And I will note that the Ranking Member is 
not here. I will allow him to make his statement when he comes. 
But let me introduce the panel, the first panel that we have 
seated, and I will yield to Mr. Keating to introduce his 
constituent here.
    First, we have Mr. Bob Jones, Executive Director of the 
Southeastern Fisheries Association. We have Dr. Robert Shipp--
do you go by Bob, too? OK, good, two Bobs. Chair and Professor 
of the Department of Marine Sciences, University of South 
Alabama. We have Mr. Robert Dooley--is that another Bob? 
President of United Catcher Boats. We have Captain Keith Logan, 
Charterboat Captain, Myrtle Beach, South Carolina. Mr. Bob 
Gill, are you Robert? Bob is fine? OK. Co-owner of Shrimp 
Landing, in Florida. And Mr. Joe Plesha, Chief Legal Officer of 
Trident Seafoods.
    And I will recognize now Mr. Keating to introduce his 
constituent.
    Mr. Keating. Mr. Chairman, thank you very much. And I noted 
your opening statement, where you covered so much ground, and 
it is so important in all those things. As a matter of fact, I 
want to thank you for last session, having myself and then-
Member Mr. Frank testifying on issues.
    And I want to take the opportunity to introduce a 
constituent of mine who is here, as well. He is the CEO of the 
Cape Cod Hook Fishermen's Association, and a former Chair of 
the New England Fisheries Management Council, John Pappalardo. 
In our area, he has a long-standing interest, represents over 
100 commercial fishermen.
    But as you know, there are so many areas of interest in 
this. I just want to commit with written testimony today to the 
Committee, and my commitment going forward, as I go back to--I 
am supposed to testify in another Committee right now--but to 
work with you in any way. We represent a diverse area, and the 
largest fishing port in the United States, in Bedford, as well. 
And we will work hard.
    I honestly think this Committee represents the best 
opportunity for significant change in Magnuson-Stevens. We will 
be able to go forward and look at socio-economic as well as 
environmental issues in a very even-handed manner.
    So, with that, Mr. Chairman, thank you, and I look forward 
to coming back and listening. Thank you.
    The Chairman. Was that the proper introduction of your 
constituent, there?
    Mr. Keating. He has more, unless you want it to be more 
lengthy, Mr. Chair----
    The Chairman. No, that is fine.
    Mr. Keating [continuing]. I could give you more of his 
background.
    The Chairman. No, that is fine.
    Mr. Keating. I think he could----
    The Chairman. We don't want to know all the bad details, we 
just want to know----
    Mr. Keating. Thank you, Mr. Chairman.
    The Chairman. At this time I will recognize the Ranking 
Member of the Committee for his opening statement.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman. And let me thank you, 
Mr. Chairman, first, for allowing my good friend, Bill Keating, 
to introduce his constituent, Mr. Pappalardo, this morning. He 
is a very distinguished part of the fishing community of 
Massachusetts, and it means the world to us that you would 
allow Congressman Keating to make that introduction. We thank 
you so much.
    From Cape Cod to Cape Ann, New Bedford to Newburyport, 
Massachusetts has long been home to some of the best fishermen 
and most productive fisheries in the world. Our proud fishing 
tradition and vibrant coastal communities are a critical part 
of the cultural heritage and economy of my State.
    In 1976, Don Young and Gerry Studds moved the original 
Fishery Conservation and Management Act through the House. 
Subsequent amendments of the law have sought to ensure healthy 
fish populations and the jobs, the income, and the prosperity 
for fishing communities that come with them. Along the way, the 
bill also picked up the name of its Senate sponsors, Warren 
Magnuson of Washington and Ted Stevens of Alaska, shortchanging 
the contributions of both the House and the Atlantic Ocean, 
because the bill originated here, with Gary Studds and with Don 
Young. So all four of them should have their names on the bill.
    That is a shame, because in the waters off of 
Massachusetts, we have one of the best examples of how 
rebuilding stocks and using science-based management can create 
a conservation and economic success story. The Atlantic sea 
scallop fishery landed only 2 million pounds in 1995. But 
cooperation among scientists, managers, and the industry 
increased landings to 125 million pounds in 2011. This created 
thousands of new jobs, generated billions of dollars for the 
Massachusetts economy, and helped make New Bedford the highest-
valued fishing port in the United States.
    Not all Massachusetts fisheries are doing as well. Last 
fall, the Secretary of Commerce took the unprecedented step of 
declaring an economic disaster for the New England groundfish 
fishery before the 2013 season even started. Anticipating 
reductions in the catch limits for the iconic cod and other key 
fish based on the latest stock assessment prompted Commerce to 
action. Fishermen that depend on this fishery now face an 
uncertain future, and their fears and frustrations are 
justified.
    I am frustrated that the Majority here in the House has 
ignored the needs of the fishermen. House leadership refused to 
even allow a vote on an amendment I proposed to restore $150 
million in fisheries disaster aid passed by the Senate. This 
hurt fishing families not only in Massachusetts and New 
England, but in Alaska, Mississippi, and Texas, as well.
    House Republican leaders have also rejected calls for 
increased funding to improve the scientific understanding of 
our fisheries and oceans. Rather than helping to find real 
solutions to deal with climate change, many have denied its 
existence. Instead, they have backed budgets that undercut 
science and offered alternatives to the sequester that would 
have cut science even more to spare the Pentagon's bloated 
budget.
    While fishermen in Massachusetts and across the country 
deserve this Committee's oversight of what is and isn't working 
for managing our Nation's fisheries, they deserve improved and 
more frequent stock assessments to reduce uncertainty and 
increased harvest quotas. They deserve Federal assistance to 
help them weather the storm of declared economic disasters. And 
they deserve a better understanding of how global warming and 
changes in ocean chemistry are affecting the fish and the sea 
they depend on for their livelihoods.
    Changing the Magnuson-Stevens Act cannot create more fish. 
Changing it cannot create additional science to inform 
fisheries management and build healthy stocks. Inadequate 
funding for science makes poor management and failing fisheries 
a self-fulfilling prophecy. Not funding disaster relief makes 
certain that fishing families will suffer.
    As we begin to consider reauthorization of the Magnuson-
Stevens Act today, I hope we can focus on the fact that 
fisheries are made up of fish and fishermen, and that healthy 
fisheries have both. I look forward to hearing about innovative 
solutions from our witnesses, especially John Pappalardo, 
Executive Director of the Cape Cod Commercial Hook Fishermen's 
Association, that will improve the health of our Nation's fish 
stocks and the economies of the coastal communities that depend 
upon them. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you Mr. Chairman for allowing my good friend Bill Keating to 
introduce his constituent John Pappalardo, a very distinguished 
constituent.
    From Cape Cod to Cape Ann, New Bedford to Newburyport, 
Massachusetts has long been home to some of the best fishermen and most 
productive fisheries in the world. Our proud fishing tradition and 
vibrant coastal communities are a critical part of the cultural 
heritage and economy of my state.
    In 1976, Don Young and Gerry Studds moved the original Fisheries 
Conservation and Management Act through the House. Subsequent 
amendments of the law have sought to ensure healthy fish populations 
and the jobs, income and prosperity for fishing communities that come 
with them. Along the way the bill also picked up the name of its Senate 
sponsors Warren Magnuson of Washington and Ted Stevens of Alaska, 
short-changing the contributions of both the House and the Atlantic 
Ocean. The bill originated here with Gerry Studds and Don Young.
    That's a shame because in the waters off of Massachusetts is one of 
the best examples of how rebuilding stocks and using science-based 
management can create a conservation and economic success story. The 
Atlantic sea scallop fishery landed only 2 million pounds in 1995, but 
cooperation among scientists, managers and the industry increased 
landings to 125 million pounds in 2011. This created thousands of jobs, 
generated billions of dollars for the Massachusetts economy, and helped 
make New Bedford the highest value fishing port in the United States.
    Not all Massachusetts fisheries are doing as well. Last fall, the 
Secretary of Commerce took the unprecedented step of declaring an 
economic disaster for the New England groundfish fishery before the 
2013 season even started. Anticipating reductions in the catch limits 
for the iconic cod and other key fish based on the latest stock 
assessment prompted Commerce to action. Fishermen that depend on this 
fishery now face an uncertain future, and their fears and frustrations 
are justified.
    I'm frustrated that the majority here in the House has ignored the 
needs of fishermen. House leadership refused to even allow a vote on an 
amendment I proposed to restore $150 million in fisheries disaster aid 
passed by the Senate. This hurt fishing families not only in 
Massachusetts and New England, but in Alaska, Mississippi, and Texas as 
well. House Republican leaders have also rejected calls for increased 
funding to improve the scientific understanding of our fisheries and 
oceans. Rather than helping to find real solutions to deal with climate 
change, many have denied its existence. Instead, they have backed 
budgets that undercut science, and offered alternatives to the 
sequester that would have cut science even more to spare the Pentagon's 
bloated budget.
    Fishermen in Massachusetts and across the country deserve this 
committee's oversight of what is and isn't working for managing our 
nation's fisheries. They deserve improved and more frequent stocks 
assessments to reduce uncertainty and increase harvest quotas. They 
deserve federal assistance to help them weather the storm of declared 
economic disasters. And they deserve a better understanding of how 
global warming and changes in ocean chemistry are affecting the fish 
and the sea they depend on for their livelihoods.
    Changing the Magnuson-Stevens Act cannot create more fish. Changing 
it cannot create additional science to inform fisheries management and 
build healthy stocks. Inadequate funding for science makes poor 
management and failing fisheries a self-fulfilling prophecy. Not 
funding disaster relief makes certain that fishing families will 
suffer.
    As we begin to consider reauthorization of the Magnuson-Stevens Act 
today, I hope we can focus on the fact that fisheries are made up of 
fish and fishermen, and that healthy fisheries have both. I look 
forward to hearing about innovative solutions from our witnesses, 
especially John Pappalardo, Executive Director of the Cape Cod 
Commercial Hook Fishermen's Association, that will improve the health 
of our nation's fish stocks and the economies of the coastal 
communities that depend on them.
    Thank you Mr. Chairman.
                                 ______
                                 
    The Chairman. I thank the Ranking Member for his statement. 
And for those of you on the panel that have not testified here 
before, I just want to give you the ground rules.
    First of all, you all were asked to submit a statement. 
Your statement, in total, will be made part of the record. But 
you have 5 minutes for your oral remarks. And the lights there, 
you have the green, yellow, and red. Total of 5 minutes. When 
the green is on you are in the 4-minute window. When the yellow 
goes on, it means that you have 1 minute remaining, and I would 
ask you to try to wrap up your remarks. And when the red goes 
on, it means, unfortunately, you are out of time.
    So, if you could, be cognizant of that. Obviously, with the 
number of witnesses and, obviously, the interest of Members 
that want to pursue different parts here, I would ask you to 
keep your remarks to 5 minutes.
    So, with that, we will start, Mr. Jones, with you, from the 
Southeastern Fisheries Association. You are recognized for 5 
minutes.

   STATEMENT OF BOB JONES, EXECUTIVE DIRECTOR, SOUTHEASTERN 
                  FISHERIES ASSOCIATION, INC.

    Mr. Jones. Thank you, Mr. Chairman, and thank you for the 
honor to be here this morning.
    Under the modification of annual catch limits, when the 
Magnuson Act was amended in 2006, giving the Scientific and 
Statistical Committee total control over the amount of fish 
that can be harvested, we expressed concern then, and we still 
express concern. We prefer that the Regional Fishery Management 
Council set the annual harvest, based upon the recommendations 
from the SSC, and that any significant deviation from their 
recommendation must be enumerated and approved by the council 
during a public forum.
    Uncertainty of data. NOAA's mandate that councils allow for 
uncertainty must be buffered by social and economic factors. 
Without additional empirical data available for stock 
assessments, we will always have significant uncertainty, 
resulting in precautionary science and lower quotas. The 
Science Center should provide all stock assessment modeling and 
fish sampling protocols to stakeholders upon request.
    Flexibility. We request flexibility for the council to set 
total allowable catch, nor should we build fisheries without 
banning all fisheries, such as the South Atlantic Red Snapper, 
which was based on incomplete and imprecise stock assessments. 
The motion to ban red snapper fishing in the South Atlantic 
passed on a very contentious seven to six vote within the 
council.
    Need for stock assessments. Appendix one of my written 
testimony is a copy of the letter from eight U.S. Senators to 
the Comptroller General dated February the 28th. They are 
concerned that NOAA does not place a high-enough priority on 
conducting robust, peer-reviewed stock assessments in the 
Southeast, and we totally agree with that letter.
    Additional transparency. MSA says--and I quote--
``Conservation and management measures shall be based upon the 
best scientific information available.'' Unfortunately, the 
councils in the Southeast are forced to use imprecise 
information as the best information available. We know that a 
transparent stock assessment process would create better 
options for management.
    NOAA law enforcement. We believe transferring NOAA's law 
enforcement division to another agency separating fisheries 
management from fisheries law enforcement would reduce discord. 
We believe that many regulations are approved by the councils 
to make law enforcement easier, at the expense sometimes of 
fishermen who can't fish in the areas where the fish are. It is 
easier to draw a straight line.
    But if the present law enforcement system continues, we 
believe that the MSA fines should be used for cooperative 
fisheries dependent and fisheries independent research, and we 
think they ought to establish a mandatory training school for 
anyone that violates the provisions of MSA.
    Catch-shares. We believe the catch-shares program should be 
in the council's toolbox, but only used if there is a current 
peer-reviewed stock assessment for the fishery under 
consideration, and if the entire fishing community is involved 
in the process and if the catch-shares remain with the 
commercial fishing sector. We do not think they should be 
traded on the open market. We think that they are there to help 
sustainable harvest of fish for the market. That is where they 
ought to be.
    State noncompliance in the Gulf of Mexico. Texas and 
perhaps Louisiana are noncompliant with the Gulf Council's red 
snapper management regulations. Florida seems poised to go that 
same direction at their next council meeting. And if they do, 
that will leave Alabama and Mississippi alone not in 
compliance, and they will probably be forced to become 
noncompliant, just to stay with the rest of their sister 
States.
    Right now the Gulf is looking for 27-day fishing season for 
recreational fishermen in the Gulf of Mexico. That is not very 
many days. NOAA's analysis of the 2013 red snapper season 
length shows that the days could be increased, or shows how it 
could be increased, by reallocating the consumer's share of the 
red snapper quota to the sport fishermen. Even if NOAA 
reallocated the entire 4.3 million pounds of consumers current 
quota, there might be a 54-day recreational fishing season, but 
there would be zero red snapper on the market. Such action 
would take Gulf Red Snapper from the fully accountable sector 
and gift them to an unaccountable sector. Honest, transparent, 
peer-reviewed stock assessments would remove most of the 
scientific controversy in the Southeast, and significantly 
diminish the fishing industry's distrust of NOAA.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jones follows:]

              Statement of Bob Jones, Executive Director, 
     Southeastern Fisheries Association, Inc., Tallahassee, Florida

    Mr. Chairman, members of the Committee, Good Morning
    My name is Bob Jones. I am the executive director of Southeastern 
Fisheries Association (SFA), serving in that capacity since June 1964. 
SFA was formed in 1952 and currently represents over 350 seafood 
companies employing over 5,000 men and women engaged in every type of 
seafood harvesting and processing of seafood from Texas through North 
Carolina with worldwide distribution of our products. We have member 
companies in Cape May, New Jersey (Lund's Fisheries) and New Bedford, 
Massachusetts (Packaging Products Corporation). We promote 
sustainability. We are leaders in fighting seafood fraud, and promoting 
safe, traceable, seafood.
    From a historical perspective, I served on the U.S. State 
Department Ocean Affairs Advisory Committee in the late 1960s under 
Ambassador Don McKernan. Two of the main issues we debated during that 
time were the Law of the Sea Treaty and the creation of an Exclusive 
Fishing Zone from U.S. shoreline out to 200 miles. We are still 
debating the Law of the Sea Treaty, but Congress did create the Fishery 
Conservation and Management Act (FCMA). I was appointed by Elliot 
Richardson, U.S. Secretary of Commerce, to the original Gulf of Mexico 
Fishery Management Council in 1976. I served as Vice Chairman from 1976 
to 1979 and as Chairman in 1980.
    Chairman Hastings listed major fishery management issues in his 
invitation. I submit the following:
Modification of the Annual Catch Limit (ACL) requirement
    The Magnuson-Stevens Act (MSA) should be amended, mandating that 
each Regional Fishery Management Council set an Allowable Biological 
Catch (ABC) based upon guidance from its Scientific & Statistical 
Committee (SSC) instead of having the Scientific and Statistical 
Committee (SSC) independently setting an ABC. If this amendment is 
adopted, and some Council prefers their SSC to continue to set the ABC, 
those Councils could opt out of the amendment. Also, we do not believe 
appropriate ACL's can be determined without quantifiable stock 
assessments. We believe it is inappropriate to require ACL's to be 
established for stocks that have not had a comprehensive stock 
assessment in the past five years.
    This amendment to MSA would force a SSC to reach a consensus when 
presenting its ABC recommendations to their Council. Any significant 
deviation from the SSC recommendation for ABC would be discussed and 
debated by the council at a public meeting and made part of the 
administrative record.
    When the MSA was amended in 2006, giving the SSCs total control 
over all allowable harvest, great concern about the survival of the 
fishing industry in our region was expressed. Our concerns in 2006 are 
still valid in 2013.
    I was told many years ago by a red snapper expert, a fish stock 
assessment can be accomplished by using only two fish. At the time I 
scoffed at this. Then I learned the hard way that he was correct. He 
didn't qualify how good the stock assessment would be or that it could 
be much more robust using up-to-date empirical data. Instead, he used 
what NOAA decided was the ``best available data'' and thus the original 
red snapper stock assessment estimate for the Gulf of Mexico became 
doctrine.
    SSCs recommendations often focus exclusively on the estimated 
status of fish stocks while excluding adequate concern about 
corresponding social and economic factors. An MSA amendment should 
require more consideration of these two key factors.
    NOAA's National Standard 1 (NS1) guidelines mandate a calculation 
and allowance for ``uncertainty.'' The ``uncertainty factor'' should be 
buffered by social and economic factors. We are not aware of any 
explicit mechanisms NOAA has for incorporating social and economic 
factors into their calculations of what ``uncertainty'' is.
    ``Uncertainty'' is hard to define and should be removed from the 
process unless it is properly quantified in a guideline; and 
comprehensive stock assessments must actually be performed. SSC 
committee members can discuss methods to try this or try that, but 
unless the basic stock assessment data is real, and contemporaneous, 
SSC conclusions concerning uncertainty are meaningless. For example, it 
was recently determined that the estimated historical recreational 
catch of red snapper in the South Atlantic region was five times too 
high because of a computer error. We think that error had a lot to do 
with red snapper fishing being banned from Virginia to Key West for the 
last two years.
    From an ethical perspective, participants of each SSC should 
declare their affiliations with any Non-Government Organization (NGO)--
past and present--and should sign a declaration if that NGO has 
received grants from NOAA. If SSC members are employed by NOAA in any 
fashion we believe they should not be a voting member of the SSC.
    To NOAA's credit there has been improvement in the SSC and SEDAR 
process of the Gulf of Mexico and South Atlantic Fishery Management 
Councils in the last few years, but there is still a strong need for 
more transparency and open dialogue with the fishing industry.
    A major reason for modifying the Annual Catch Limit (ACL) 
requirement is the fact that the science center in the southeast does 
not allow stakeholders or the council, to review their sampling 
protocols which determine what science makes the list of ``best 
available data''. The doctrine of ``best available data'' is not 
workable as currently used. The Fishery Management Councils and their 
respective SSC must develop standards for what constitutes ``best 
available data. ``
    Unless a Council reviews the annual data collection methods and 
results of such methods, there will be less confidence in the science. 
From our perspective, it takes an act of Congress (and that might not 
even be strong enough) to review the scientific protocols used to 
control fishing in federal waters. The Science Centers should provide 
every aspect of computer modeling used to control our nation's 
fisheries. The Councils should review the NOAA sampling protocols on an 
annual basis and share same with our fishing communities. I paraphrase 
a quote by Sir Winston Churchill made in 1939 in which he said, ``I 
cannot forecast to you the action of Russia. It is a riddle wrapped in 
a mystery inside an enigma.'' We believe the NOAA Science Center in the 
southeast is an ``enigma, within an impenetrable conclave shrouded by a 
stone mountain.''
Port samplers
    More port sampling, more tagging of red snapper using commercial 
and recreational fishermen, would give credence to the science being 
used by the southeast science center. The lack of an adequate number of 
Port Samplers is a major problem for the southeast. We believe the 
number of samplers today is the same or less than NOAA authorized 
nearly three decades ago. We understand NOAA funds state agencies, 
through the Atlantic States Marine Fisheries Commission who hire state 
personnel to supplement the sampling done by the contracted NOAA port 
samplers. Funding state personnel for port sampling rather than using 
them for more robust biological sampling (age/growth empirical data), 
results in less than adequate stock assessment science. We need more 
port samplers and we need the kind of biological data that can best be 
obtained by state biologists working on or near the water.
    Contemporaneous port sampling data is critical to prevent NOAA's 
premature closure of fisheries. Many times the amount of fish 
authorized by a quota for commercial fishing are ``left on the table'' 
and lost to the consumers. If the science centers in the southeast 
would open their doors and let stakeholders see what they do, and how 
they do it, much of the angst and mistrust of government would 
disappear. We don't believe the MSA prevents transparency within NOAA.
    One of our speakers noted at a meeting in Miami, ``Without valid 
measurements of the fish stock, harvesting cannot be made proportional 
to abundance. Without valid measurements, model predictions cannot be 
tested for accuracy. Without accurate predictions, you cannot in good 
faith, use the models in management. Wherever a quota is based upon 
mixed stocks, it over exploits the small stocks and under exploits the 
large stocks. Given sufficient time under this type of fishing regime, 
the assumption of one fish stock in large ocean areas should come true 
(at the expense of genetic diversity).''
    To the fishing industry his statement means, ``If you cannot 
measure it, you cannot manage it.''
Additional flexibility in rebuilding timeframes
    We urgently need to employ flexibility to reach optimal judgments 
to rebuild fisheries in these austere economic times. Flexibility would 
significantly reduce suffering in our fishing communities because of 
fishing regulations based on incomplete or absent scientific 
information. A further reduction in fishing effort for red snapper in 
the South Atlantic instead of the total fishing ban enacted on a 7 to 6 
vote would not have harmed the red snapper rebuilding process, and 
would have kept fishermen working and protected our seafood industry 
infrastructure.
    NOAA needs a process for creative management adjustments providing 
assistance to the beleaguered recreational and commercial communities 
experiencing one of the greatest economic downturns in our history. 
This harsh economy was not perceived in 2006 when MSA was reauthorized. 
The social and economic realities of today must be weighed more 
seriously by NOAA and the councils.
    Fishing ``communities'' must be fully defined and receive more 
consideration by the councils. The traditional, independent seafood 
markets that depend on a consistent and varied supply of domestic 
seafood must be considered from an economic and social viewpoint. Just 
as the sustainability of fish stocks is a critical aspect of current 
fishery management policy, there should be careful and deliberate 
consideration of the socioeconomic sustainability for the human 
community supported by those same fish stocks.
    These thousands of small businesses require local seafood for 
customers from the entire economic spectrum. Not everyone can afford 
jumbo shrimp or lump crabmeat, but they can afford whiting, flounder, 
bee liners, mahi, yellowtail snapper, black sea bass and a favorite Key 
West delicacy--grunts and grits.
    The MSA should allow a management regime and harvest system for as 
many different species of fish, even in small amounts, available for as 
much of the year as possible. Flexibility would benefit the consumers 
by having a variety of highly nutritious and healthy local seafood 
items on the market all year long.
    Not every group supports more flexibility and use court decisions 
to support their position that there is too much flexibility already. 
Following are the comments filed by the World Wildlife Foundation 
concerning National Standard 2 (NS2) in which they write: ``Although 
some procedural constraints apply to NOAA Fisheries when determining 
the best science, the existing procedure allows far too much 
flexibility (emphasis added) to make the ``best scientific information 
available'' standard effective. There are several baseline rules 
established by the courts that NOAA must follow:
        <bullet>  In developing its administrative record, NOAA 
        Fisheries may rely on research science, commercial data, 
        regulatory science, and agency research.
        <bullet>  NOAA Fisheries has no obligation to seek out 
        information not available in the general scientific literature.
        <bullet>  NOAA Fisheries may choose to ignore relevant 
        scientific studies only if it states a basis for doing so.
        <bullet>  NOAA Fisheries must extrapolate from limited data, 
        even in light of potential increased error, when the necessary 
        means to produce more reliable information is infeasible.
        <bullet>  NOAA Fisheries must also consider any significant 
        information of which it is made aware of by interested persons.
        <bullet>  If NOAA Fisheries fails to recognize relevant 
        research or establish its reasons for doing so, it risks having 
        its decision overturned by the court.
        <bullet>  In the event the court determines that NOAA's 
        decision is arbitrary and capricious, the court must ``remand 
        to NOAA Fisheries for additional investigation or 
        explanation.''
    We suggest the Committee examine these court based requirements. If 
MSA needs to be amended to address any of them to improve fisheries 
management, it should be done.
    MSA should mandate that there be a certain allocation of scientific 
data collection for each fishery which is closed to harvest in the EEZ. 
When no fishing is allowed, scientists miss the age/growth data that 
could be collected every day. Nobody has any facts on the relative 
abundance of a stock of fish if there is no harvest. NOAA could hire 
commercial and recreational fishermen to work on cooperative research 
for fish harvested in their region. This committee might consider 
directing revenue generated by licensing and permitting into a special 
fund and mandate NOAA work with the states for implementation of 
fisheries management projects that generate up-to-date empirical data 
for stock assessments.
    Appendix 1 of my testimony is a copy of the letter to the 
Comptroller General dated February 28, 2013, from a bi-partisan group 
of eight U.S. Senators concerned that ``NOAA may not place a high-
enough priority on conducting robust, peer-reviewed stock assessments 
on fisheries in the Gulf of Mexico and South Atlantic.''
    The fishing industry supports this request for a GAO study knowing 
that if the basic stock assessment numbers used to manage a fishery are 
not correct, every regulation based on those numbers is suspect. We 
request the House Natural Resources Committee endorse the letter to the 
Comptroller General supporting the request for better stock 
assessments.
Additional transparency for councils and councils SSCs
    MSA was created to promote the domestic fishing industry's optimal 
harvest of coastal fisheries for food and for recreational 
opportunities. Without total transparency of the management system, 
there is a possibility of creating under-utilized fisheries resources 
due to regulations based on imprecise and poor stock assessment data. 
Transparency begins before any data is entered into the computer for 
modeling.
    Transparency would better indicate true status of fish stocks after 
the hypothesis is stated, research is conducted and replicated then the 
conclusions are reached based on the results of the research. This is 
our understanding of the scientific method. We do not believe the 
conclusion should ever precede the hypothesis and only transparency 
will answer our doubts.
    All stakeholders should be able to review every aspect of the NOAA 
modeling process including assumptions, scientific theories and 
formulas that produce stock assessments the SSCs use to determine the 
ABC. We think much of the angst would be improved if NOAA's legal 
division published the revised MSA National Standard 2 (NS2) guidelines 
that have been held up for years.
    Section 301(a)(2) MSA says, ``Conservation and management measures 
shall be based upon the best scientific information available.'' 
Unfortunately in our region NOAA and the councils are often forced to 
use poor and imprecise information as the ``best scientific information 
available.'' And to our dismay, NOAA alone decides what the ``best 
scientific information available'' is. We believe what ends up as 
``best scientific information available'' should be examined by a peer-
review entity that includes scientists outside the control of NOAA. 
Without honest peer-review NOAA's decisions are often seen as political 
science.
    Since 2008 the fishing industry and the general public have been 
asked to comment on portions of the NS2 after the Reauthorization of 
MSA in 2006. In 2010 the proposed rule for NS2 allowed further comment 
to be submitted. The final rule was expected to be published in the 
Federal Register by early 2012, but that deadline has come and gone. 
The latest information is the Office of General Counsel may finish 
their review by April 2013 and allow publication in the Federal 
Register sometime in the future.
    When the NS2 guidelines are finally adopted will we be able to 
examine them and suggest ways for more transparency at all stages of 
fishery management?
New use of funds collected from fisheries fines and penalties
    We will not revisit the drama and trauma associated with the ill-
conceived NOAA law enforcement's collection and expenditures of 
commercial fishing industry fines in the past. We complained about the 
way it operated because it was like a speed trap. In order to finance 
the law enforcement they had to make an ever increasing number of 
arrests and fine fishermen in huge amounts to perpetuate their 
operation. No law enforcement program should be funded based on how 
much money it can take from the user group they are regulating. We 
strongly believe all law enforcement should be funded from general 
revenue.
    I did not know the previous head of NOAA law enforcement, but I 
know the current one from working with him for several decades in 
Florida. He is an honest lawman who will drink coffee with you in the 
morning and arrest you the same afternoon if you break the law. He 
understands the responsibilities of a sworn officer and knows to never 
use the power of the badge and gun for a personal policy preference or 
vendetta. He is the kind of officer that protects us under the rule of 
law.
    There are many of us who would like the NOAA law enforcement 
division transferred to another agency in order to separate fish 
management from fish law enforcement. We believe regulations are 
written on many occasions to make law enforcement easier at the expense 
of fishermen being able to work where the fish are located. We realize 
a straight line is easier to patrol than a curved line, but with modern 
GPS equipment, vessels can easily stay outside of any type of line 
configuration. We believe there will be many more areas with buffer 
upon buffer built into the demarcation lines, establishing no fishing 
areas. This will become more serious as the push for large marine 
protected areas makes its way through the council process.
    If the current law enforcement system continues as it is, we 
believe fines from MSA fishing violations should be used to fund 
cooperative fisheries dependent and fisheries independent research 
projects and to establish a mandatory training program for MSA 
violators. The cooperative research projects would be managed by the 
states under a NOAA protocol. The mandatory training of those who 
violate fishing regulations in the EEZ would be conducted by the state 
agencies in conjunction with NOAA fishery managers. The fines would not 
go to the NOAA law enforcement division, but to specific data gathering 
programs and a strong education program to reduce fishing violations.
Definition and restrictions on catch share management programs
    The Southeastern Fisheries Association believes catch-share 
initiatives should be a tool in NOAA's toolbox, but only used if there 
is a current, complete stock assessment for the fishery under 
consideration and only if the entire fishing community is involved in 
the process. As I stated before, stock assessments must be developed in 
a totally transparent manner, because everything that follows, 
including the stringent regulations, depend on the stock assessment 
documents.
    We are not suggesting specific changes in the current Gulf of 
Mexico red snapper catch-share program. However, we believe when red 
snapper quotas are increased, fishermen in areas where red snapper have 
become abundant, should be allowed to enter the red snapper fishery. We 
believe catch-shares allocated to the consumers (through the commercial 
catch-share holders) should never be sold or traded to any individual 
or entity to remove them from commercial harvest and therefore the 
marketplace. Catch shares must stay in the commercial fishing sector 
for consumers.
    The fish that live in our defined areas of the ocean belong to all 
the citizens and are managed under the provisions of the MSA. Most non-
boaters have the opportunity to enjoy a predetermined share of fish 
through sustainable harvests by federally licensed commercial 
fishermen. The amount of fish awarded under a catch-share regime must 
continue as a commercial fishing harvest in order to preserve non-
boaters access to fresh, local seafood.
Non-compliance with federal fishery management plans in the Gulf of 
        Mexico
    Southeastern Fisheries Association believes NOAA red snapper stock 
assessment does not reflect the actual status in the Gulf of Mexico. 
The small number of days NOAA allows for recreational red snapper 
fishing is causing great angst and alarm all along the Gulf. The true 
recreational harvest is suspect. NOAA's regulations count estimated 
number of pounds of red snapper instead of an accurate determination on 
the number of fish caught. This issue needs to be addressed and every 
aspect of the modeling used for determining the abundance of red 
snapper in the Gulf of Mexico should be open for review by any 
interested stakeholder.
    Because of such short red snapper recreational fishing seasons 
Texas and Louisiana will now be non-compliant with the federal fishery 
management plan. Florida seems poised to go noncompliant as well and 
that decision might force Alabama and Mississippi to join with their 
sister states. While going non-compliant allows states to manage the 
red snapper in their state waters, NOAA will determine what the states 
catch and will use that amount in calculating when the federal quota is 
reached. NOAA, more than likely, will further reduce the number of days 
for red snapper fishing in the Gulf of Mexico. There might be less than 
20 days red snapper recreational fishing in 2013 and the days will get 
less, as long as there is non-compliance or until more empirical data 
can be included in an updated stock assessment.
    The projected ABC for GOM red snapper in 2013 is 8.462 million 
pounds. The consumer's share (51%) is 4.310 million pounds, (harvested 
by commercial fishermen) and the recreational fishing share (49%) is 
4.146 million pounds. These allocation percentages reflect historical 
catches determined by easily accountable landing records for the 
commercial sector and random based surveys for the recreational sector 
which Congress mandated to be improved.
    NOAA presented a Power Point (Analysis of the 2013 Red Snapper 
Season Length-Southeast Regional Office-Jan. 7-8, 2013) that showed the 
following scenarios. Taking 0.5 million pounds from consumer's quota 
would allow a 31 day red snapper season. Taking 1.0 million pounds from 
consumer's quota would allow a 34 day red snapper season. Taking 1.5 
million pounds from consumer's quota would allow a 37 day red snapper 
season. Taking 2.0 million pounds from consumer's quota would allow a 
41 day red snapper season.
    It has been determined that if NOAA took all 4.3 million pounds of 
the consumer's quota, they might allow a 54 day red snapper 
recreational fishing season at the expense of zero domestic red snapper 
on the market. Such a decision would not pass the fair and equitable 
requirement.
    Southeastern Fisheries Association supports direct measurement of 
the abundance and distribution of fish stocks be gathered by repeated, 
independent, standardized surveys. Having scientists on the water 
through cooperative research projects with fishermen is one of the best 
ways to gather true ecological data. We believe traditional catch per 
unit of effort protocols using professional fishing gear and human 
visual estimates of fish numbers is necessary for collecting empirical 
data. It seems empirical data gathering has been deemphasized in favor 
of the less expensive development of theoretical models to estimate 
fish stock abundance.
    Thank you Mr. Chairman.
                                 ______
                                 

    [The letter submitted for the record by Mr. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
                                ------                                


    The Chairman. Thank you very much, Mr. Jones.
    Next we will go to Mr. Bob Shipp, who is Chair and 
Professor of the Department of Marine Sciences at the 
University of South Alabama, you are recognized for 5 minutes.

    STATEMENT OF DR. ROBERT L. SHIPP, CHAIR AND PROFESSOR, 
   DEPARTMENT OF MARINE SCIENCES, UNIVERSITY OF SOUTH ALABAMA

    Dr. Shipp. Thank you, Mr. Chairman. My name is Bob Shipp, 
and I am the Professor of Marine Sciences at the University of 
South Alabama. In addition, I have served 17 years on the Gulf 
of Mexico Fishery Management Council, three times elected Chair 
of the Council, and presently serve as Chair of the Council's 
Reef Fish Committee.
    The current management of reef species for the recreational 
sector in the Gulf of Mexico is failing. I am suggesting a 
shift in management authority, as described below. I am in 
support of increasing fishery management authority to the Gulf 
States by extending the States' authority to manage reef 
species of finfish out to 20 fathoms. I will address three 
fundamental reasons why this would be beneficial.
    First, most reef species, and especially red snapper, 
inhabit the Gulf waters to depths of 100 fathoms. So, by 
extending State authority to 20 fathoms in no way threatens 
optimum management of reef species. In fact, the Gulf States 
have excellent histories of successful fishery management. And 
it is in their best economic interests to optimally manage 
these species. Beyond 20 fathoms, the fishery management 
councils and National Marine Fishery Service would continue 
their authority.
    Second, I refer to language in National Standard 1 of the 
Magnuson Act: ``Prevent overfishing and achieve optimal 
yield.'' Recently we have been primarily concerned with 
``prevent overfishing'' verbiage, often times ignoring 
achieving optimal yield. By allowing individual States to 
manage reef fish stocks to 20 fathoms would markedly improve 
the likelihood of achieving optimal yield.
    As an example, in Florida spotted sea trout, speckled 
trout, has a bag limit of four. In Louisiana, it is 25. This is 
because the habitat for spotted sea trout in Louisiana can 
support a stock with a larger yield. A similar situation exists 
for red snapper. Off the Alabama coast some 17,000 artificial 
reefs have been constructed. Each holds a tremendous number of 
red snapper, which could easily support a fishery with a far 
higher yield, an optimal yield, than the current 28-day season 
with a 2-fish bag limit.
    Third is a matter of logic. I was trained by the Jesuits, 
and one of the first required courses was logic. With red 
snapper populations, we have a conundrum of logic. Red snapper 
stocks are considered overfished. Projections of red snapper 
maximum sustainable yield made during the past 20 years have 
varied between 15 and 30 million pounds annually for the Gulf 
of Mexico. But we have never harvested more than 10 million 
pounds, and often much less than that.
    So, if a stock can yield 15 or more million pounds 
annually, but has never yielded anywhere near that number, how 
can it be overfished? There is an answer to this riddle. The 
habitat for red snapper has increased dramatically. Before 
World War II there was little or no red snapper harvest from 
the Northwestern Gulf, despite numerous attempts to locate 
productive fishery areas there.
    But from the mid-forties on, the harvest in the Western 
Gulf has increased dramatically. The reason? About 4,000 
petroleum platforms and thousands of artificial reefs. 
Currently, more than 60 percent of snapper harvest comes from 
these areas with artificial habitat. In total, the harvest 
potential of red snapper in the Gulf has increased. State 
management would insure every effort to maintain these habitats 
in near-shore waters.
    And related, the current practice of removing these 
platforms with explosives kills thousands of pounds of reef 
species. A recent video obtained by the NBC affiliate in Mobile 
revealed the mortality of about 10,000 pounds of red snapper at 
the surface. Divers tell me that probably four to five times 
that much is hidden beneath. Far better would be to dismantle 
these structures, lay them on their sides on the bottom, as is 
done in the ``rigs to reef'' program off Louisiana.
    So, we have the most valuable finfish in the Gulf of Mexico 
not being harvested at optimal yield, and with its habitat 
under duress. Reauthorization of Magnuson-Stevens, as described 
above, would rectify this dilemma. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Shipp follows:]

    Statement of Dr. Robert L. Shipp, Professor of Marine Sciences, 
    University of South Alabama, and Chair, Gulf of Mexico Fishery 
                           Management Council

    My name is Bob Shipp, and I am a professor of Marine Sciences at 
the University of South Alabama. In addition I have served 17 years on 
the Gulf of Mexico Fishery Management Council, three times elected 
chair of the Council, and presently serve as chair of the Council's 
reef Fish Committee.
    The current management of reef species in the Gulf of Mexico is 
failing. I am suggesting a shift in the management authority as 
described below.
    I am in support of increasing fishery management authority to the 
Gulf states by extending the state's authority to manage reef species 
of finfish out to 20 fathoms. I will address three fundamental reasons 
why this would be beneficial.
    First, most reef species, and especially red snapper, inhabit the 
Gulf waters to depths of 100 fathoms. So by extending state authority 
to 20 fathoms in no way threatens optimal management of reef species. 
In fact, the Gulf states have excellent histories of successful fishery 
management, and it is in their best economic interests to optimally 
manage these species. Beyond 20 fathoms, the Fishery Management 
Councils and National Marine Fisheries Service would continue their 
authority.
    Second, I refer to the language of National Standard 1 of the 
Magnuson Act: ``prevent overfishing and achieve optimal yield.'' 
Recently we have been primarily concerned with the ``prevent 
overfishing'' verbiage, often times ignoring ``achieving optimal 
yield.'' By allowing individual states to manage reef fish stocks to 20 
fathoms would markedly improve the likelihood of achieving optimal 
yield. As an example, in Florida spotted sea trout (=speckled trout) 
bag limit is 4. In Louisiana it is 25. This is because the habitat for 
spotted sea trout in Louisiana can support a stock with the larger 
yield. A similar situation exists for red snapper. Off the Alabama 
coast, some 17,000 artificial reefs have been constructed. Each holds a 
tremendous number of red snapper, which could easily support a fishery 
with a far higher yield, an optimal yield, than the current 28 day 
season with a 2 fish bag limit.
    Third is a matter of logic. I was trained by the Jesuits, and one 
of the first required courses was ``logic.'' With red snapper 
populations we have a conundrum of logic. Red snapper stocks are 
considered overfished. Projections of red snapper maximum sustainable 
yield (MSY) made during the past twenty years have varied between about 
15-30 million pounds annually for the Gulf of Mexico. But we have never 
harvested more than 10 million pounds, and often much less than that. 
So if a stock can yield 15 or more million pounds annually, but has 
never yielded anywhere near that number, how can it be overfished? 
There is an answer to this riddle. The habitat for red snapper has been 
increased dramatically. Before World War II, there was little or no red 
snapper harvest from the northwestern Gulf, despite numerous attempts 
to locate fishery productive areas there. But from the mid-forties on, 
the harvest in the western Gulf has increased dramatically. The reason? 
About 4,000 petroleum platforms, and thousands of artificial reefs. 
Currently more than sixty percent of snapper harvest comes from these 
areas with artificial habitat. In total the harvest potential of red 
snapper in the Gulf has increased.
    And related, the current practice of removing these platforms with 
explosives kills thousands of pounds of reef species. A recent video 
obtained by the NBC affiliate in Mobile, revealed a mortality of about 
10,000 pounds of red snapper at the surface. Divers tell me that 
probably 4 to 5 times that much is hidden beneath. Far better would be 
to dismantle these structures, lay them on their sides on the bottom, 
as is done in the ``rigs to reefs'' program off Louisiana.
    So we have the most valuable finfish fishery in the Gulf of Mexico 
not being harvested at optimal yield and with its habitat under duress. 
Reauthorization of Magnuson as described above would rectify this 
dilemma.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Shipp.
    And next we will go to Mr. Bob Dooley, who is the President 
of the United Catcher Boats. Recognized for 5 minutes, Mr. 
Dooley.

           STATEMENT OF ROBERT E. DOOLEY, PRESIDENT, 
                      UNITED CATCHER BOATS

    Mr. Dooley. Thank you. Chairman Hastings, Ranking Member 
Markey, members of the Committee, thank you for the opportunity 
to testify before you today. My name is Bob Dooley. I am the 
President of United Catcher Boats, a trade association of 70 
commercial fishing vessels that participate in the Alaskan 
pollock, crab, cod, and West Coast groundfish fisheries. My 
brother, John, and I are co-owners of a commercial fishing 
business that operates three vessels from Alaska to the central 
coast of California. I have been a commercial fisherman for 
over 40 years.
    I would like to begin my testimony by stating that, 
overall, the MSA is an excellent law. But there are areas that 
need improvement or outright change. To that end, my testimony 
will focus on National Standard 1 guidelines, catch-shares, and 
industry agency collaboration.
    Underlying all my comments is a desire for a standard of 
reasonableness. Many of our concerns do not stem from the 
legislative language itself, but rather, from its 
interpretation and application. However, if the Agency and the 
councils cannot apply a standard of reasonableness, then 
Congress needs to amend the MSA to clarify the intent behind 
its various provisions.
    National Standard 1 states that conservation and management 
measures shall prevent overfishing, while achieving, on a 
continuing basis, the optimum yield from each fishery. UCB 
strongly supports this national standard. We must prevent 
overfishing, but we must also achieve optimum yield from each 
fishery.
    It is important to remember that the fundamental objectives 
of fisheries conservation and management is production of food 
and economic value on a long-term, sustainable basis. This is 
the reason that NOAA fisheries, the Regional Fishery Management 
Councils, and the MSA itself exist. If not, we should simply 
replace all of this with one line of Federal law: No fishing 
allowed. Such a law would certainly prevent overfishing. 
Needless to say, it would not produce optimum yield.
    Fish don't have calendars. Yet harvest targets are applied 
as if there are annual limits, when they should be applied as 
long-term averages. Maximum sustainable yield and optimum yield 
must be understood as dynamic in nature, subject to 
fluctuation, and objectives to be achieved on an average over 
the years. With reasonableness and flexibility, optimum yield 
itself becomes a powerful conservation mandate. Overfishing 
cannot provide OY. Optimum yield is essentially a call for 
long-term sustainability.
    UCB firmly believes that catch-shares should be a tool 
available to the Regional Fishery Management Councils. Our 
members participate in several successful catch-share programs, 
and are familiar with their many conservation and economic 
benefits. Measures such as fisherman-based risk pools, 
cooperative associations, and quota transferability are 
important components of a well-designed catch-share program.
    For example, West Coast groundfish went from a $38 million 
fishery before catch-shares to a $54 million fishery with 
dramatically reduced bycatch and discards under catch-shares. 
An example would be the whiting fleet, where the bycatch of 
canary rockfish was reduced by 79 percent, and for Pacific 
Ocean Perch the reduction was 96 percent.
    We strongly feel that catch-shares should be developed by 
the participants in the fishery at the regional level. MSA 
provides sufficient guidance to the councils on development and 
implementation of catch-share programs. Additional requirements 
are not needed at this time.
    UCB supports science-based fisheries management. We 
recognize that better data results in more robust fisheries. 
UCB has been on the forefront of cooperative management with 
fisheries managers. Examples of our efforts include the 
development of a salmon excluder for the mid-water pollock 
trawl fleet, funding and employment of trawl catcher vessels to 
assist in stock assessment surveys, and the collaboration of 
fishery data for Federal and State research projects.
    We believe such cooperative work should be incentivized and 
encouraged. When managed under a catch-share program, UCB 
believes the cost of such activities should be included as a 
credit when calculating cost recovery fees.
    In conclusion, UCB believes the MSA is a strong and largely 
well-crafted piece of legislation with a proud history of 40 
years of fisheries governance. With changes to the law to 
address the issues outlined in this testimony, we believe it 
will ensure robust and sustainable U.S. fisheries, fisheries 
that will help feed our Nation and promote economic stability 
for decades to come. Thank you.
    [The prepared statement of Mr. Dooley follows:]

     Statement of Robert E. Dooley, President, United Catcher Boats

    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee; thank you for the opportunity to testify before you today 
regarding the Magnuson-Stevens Fishery Conservation and Management Act. 
My name is Bob Dooley. I am the President of United Catcher Boats and 
co-owner of a commercial fishing operation with my brother John.
    John and I have lived in Half Moon Bay, CA our entire lives and 
have been commercial fishermen for over 40 years. Our families have 
been active in commercial fishing and it's supporting businesses on the 
West Coast for over 70 years. Over the course of our careers we have 
owned and operated several vessels. To this day we operate 2 vessels in 
the Bering Sea Pollock, Cod and West Coast Pacific Whiting fisheries 
and one in the state-managed Dungeness Crab fishery.
    United Catcher Boats (UCB) is a trade association of 70 commercial 
fishing vessels that participate in the Alaskan Pollock, Alaskan crab, 
and West Coast groundfish fisheries. Our vessels are called catcher 
boats because that is all we do--we catch fish and deliver our catch 
``in the round'' to processing facilities. We do not process the fish, 
even minimally. UCB is deeply committed to science-based management of 
fishery resources.
    I would like to begin my testimony by stating that overall, the 
Magnuson-Stevens Fishery Conservation & Management Act (MSA) is an 
excellent law. Under it, the North Pacific Fishery Management Council 
has been able to manage robust, valuable, and healthy fish stocks. 
However, it is the nature of congressional testimony that it focus not 
on those aspects of the law that work well but on those that need 
improvement or outright change. To that end, my testimony will focus on 
the following issues:
        <bullet>  National Standard #1 Guidelines
        <bullet>  Catch Shares
        <bullet>  Accountability Measures
        <bullet>  State-Federal Fishery Management Plan Coordination & 
        Consistency
        <bullet>  Bycatch
        <bullet>  Cooperative Management.
    Overarching all of the following comments is a desire for a 
``Standard of Reasonableness'' for implementation of the requirements 
of the MSA. Many of our concerns do not stem from the legislative 
language itself but from NOAA Fisheries and the Councils interpretation 
and application thereof. However, if the agency and the councils cannot 
apply a ``Standard of Reasonableness'' then Congress needs to amend the 
MSA to clarify the intent behind its various provisions.
National Standard #1 Guidelines
    National Standard #1 states that Conservation and management 
measures shall prevent overfishing while achieving, on a continuing 
basis, the optimum yield from each fishery for the United States 
fishing industry. UCB strongly supports this national standard. We must 
prevent overfishing. We also must achieve optimum yield from each 
fishery.
    It is important to remember that the fundamental objective of 
fisheries conservation and management is the production of food and 
economic value on a long-term sustainable basis. This is the reason 
that NOAA Fisheries, the Regional Fishery Management Councils, and the 
MSA itself exist. If not, we can simply replace all of it with one line 
of federal law prohibiting commercial fishing. Such a law would 
certainly prevent overfishing. Needless to say, it would not produce 
optimum yield.
    National Standard #1 (NS1) is well written. Achieving optimum yield 
is an equal objective to the prevention of overfishing. Unfortunately, 
the Guidelines for implementation of NS1 issued by NOAA Fisheries do 
not allow this balanced approach. Under the Guidelines, overfishing is 
certainly prevented but optimum yield is essentially impossible to 
achieve. The emphasis on ending and preventing overfishing over the 
past decade has essentially resulted in ``underfishing'' in several 
fisheries. This is not consistent with NS1.
    Fisheries are now subject to a literal array of harvest targets. 
There is an Overfishing Limit (OFL), Allowable Biological Catch (ABC), 
Maximum Sustainable Yield (MSY), Optimum Yield (OY), Total Allowable 
Catch (TAC), an Annual Catch Limit (ACL), and a Maximum Fishing 
Mortality Threshold (MFMT). This array is not only confusing; it is 
often contradictory, and needlessly inefficient.
    The fisheries management process needs to recognize that Maximum 
Sustainable Yield (MSY) and Optimum Yield (OY) are long-term averages, 
not yearly mandates. The MSA needs to be amended to make this principal 
explicit.
    Fish don't have calendars. Yet all of these harvest targets are 
applied as if they are annual limits when in reality several are better 
defined as and should be applied as long-term averages. We are not 
suggesting that a fishery be allowed to exceed the OFL year after year 
and never address the issue. Rather, we are suggesting that the targets 
of Maximum Sustained Yield (MSY) and Optimum Yield (OY) be understood 
as dynamic in nature, subject to fluctuation, and objectives to be 
achieved on average over the years.
Rollovers, or overages and underages of catch targets can be and should 
        be allowed to carry over from year to year so long as the 
        prevention of overfishing and the long-term achievement of OY 
        occur.
    In addition, the rigidness of ACLs is undermining improvements in 
fisheries science and fishing practices. In the North Pacific, the OFL 
for pollock is 2.550 million metric tons and the ACL is 1.247 million 
mt. Yet when the industry applies for an Experimental Fishing Permit 
(EFP) to test salmon and halibut excluders, NOAA Fisheries has recently 
determined that it cannot allow the EFP-caught fish to exceed the ACL. 
Harvesting fish under this permit is research and catch volumes 
associated with that research would not pose a risk of overfishing 
occurring. Furthermore, the stock assessment author counts the research 
removals as mortality so it is accounted for in the stock assessment. 
For years this practice was widely regarded as acceptable and 
sustainable, but recently the agency has taken a hard line approach and 
interpreted these ACLs as hard caps even when catch is nowhere near the 
overfishing level. The unfortunate and ironic result has been an 
unnecessary reduction in research to spur fishery innovations that 
would improve and advance sustainable fishing practices.
    We all recognize that there is uncertainty in fisheries science. 
Fishermen know about uncertainty all too well. We recognize that the 
weaker the science is to base fisheries management on, the more 
conservative such management needs to be. What is needed is a 
reasonable application of this precautionary approach.
    Under the NS1 Guidelines, the only way to address scientific 
uncertainty is to further reduce the allowable harvest below levels 
that would generate optimum yield. This virtually guarantees that the 
Magnuson-Stevens Act goal of ``attaining optimum yield'' will not be 
met. Such an outcome is not necessary because there are several other 
management options available to address uncertainty.
    For example, when closed areas are established for habitat 
protection, for bycatch reduction, or any similar goal they can, in 
certain circumstances, have the added effect of protecting a sub-
population of a fish stock within that area. This helps ensure that the 
long-term goal of attaining optimum yield is achieved, and by 
definition is a hedge against uncertainty. However, when these types of 
protections are put in place no credit is given to their role in 
addressing uncertainty. The agency insists that catch reductions are 
the only viable tool for addressing uncertainty.
    Identical to the need for reasonableness and flexibility in the 
application of NS1 harvest caps is the need for such when establishing 
rebuilding targets and timelines for overfished stocks. There is 
nothing scientific about the arbitrary ten-year rebuilding period 
required by the MSA.
    Let me be clear. Overfished stocks need to be rebuilt. Even if NS1 
did not call for the prevention of overfishing, the achievement of OY 
itself requires overfished stocks to be rebuilt so that food production 
and economic benefits can be realized. There is no magic timeline, 
however. Instead of an arbitrary fixed rebuilding period of ten years, 
rebuilding timelines should be allowed to be established by the 
Regional Fishery Management Council consistent with the biology of the 
fish stock, the needs of fishing communities, and the NS1 requirements 
to prevent overfishing and achieve optimum yield on a continuing basis.
    A reasonable application of NS1 to rebuilding would not allow 
overfished stocks to remain so indefinitely. A perpetually overfished 
stock that is not rebuilding is fundamentally inconsistent with the NS1 
standard of achieving OY.
    With reasonableness and flexibility, Optimum Yield itself becomes a 
powerful conservation mandate. Overfished stocks cannot provide OY. 
Ongoing overfishing undermines achieving OY on a continuous basis. 
Understood as the long-term production of optimum levels of food 
production and economic benefits from a fishery, optimum yield is 
essentially a call for sustainability.
Catch Shares
    UCB firmly believes that catch shares should be available to the 
regional fishery management councils as one among many conservation and 
management tools. UCB members are very familiar with the benefits of 
catch share programs, participating in American Fisheries Act Pollock 
cooperative and the Alaskan crab IFQ program, both of which were 
approved by Congress, as well as the west coast groundfish catch share 
program. Our catch share programs have provided incredible conservation 
and economic benefits. For example, west coast groundfish went from a 
$38 million fishery before catch shares to a $54 million fishery with 
dramatically reduced bycatch and discards under catch shares. In the 
whiting fleet, for example, bycatch of canary rockfish was reduced by 
79 percent, and for Pacific Ocean perch, the reduction was 96 percent.
    As I stated in my April 2010 testimony before the Subcommittee on 
Insular Affairs, Oceans and Wildlife of this Committee, catch shares 
should be initiated and driven by the participants in the fishery. The 
west coast groundfish catch share program was developed from the ground 
up with full participation of all stakeholders in the fishery from 
Southern California to Northern Washington. It was not an example of 
NOAA Headquarters in Washington, DC trying to impose catch shares on 
the fishery. The PFMC established a special stakeholders committee that 
included a very broad membership including fishermen, processors, NGOs 
and community representatives. Out of this open process came a 
preferred option for an IFQ-based system for the shoreside fisheries 
and a Co-opbased system for the offshore Whiting fisheries.
    The MSA provides sufficient guidance to the Councils on the 
development and implementation of catch share programs. Additional 
requirements are not needed at this time. Within the existing 
framework, the Councils have the ability to develop catch share 
programs on fishery-by-fishery basis so they address the particular 
objectives and needs of the fishery. Important to note is under current 
MSA law, the Councils may chose not to develop catch share programs. In 
particular, UCB does not support proposals to include sunset provisions 
or similar catch share terminations in the MSA. Such time restrictions 
undermine the very utility of catch share programs by removing the 
certainty that catch shares provide fishermen. This certainty empowers 
fishermen to make better operational decisions resulting in improved 
conservation and economic outcomes. Long-term investment stability 
directly leads to improved safety-at-sea conditions for vessels.
    Multi-species catch share programs like the west coast trawl IQ 
program require proper measures to insure that hoarding of small 
allocations of constraining species do not thwart the intentions of the 
program. Measures such as fishermen-based risk pools, cooperative 
associations, and an emphasis on allowing fishermen to transfer quota 
during the season are important components to a well-designed catch 
share program.
Accountability
    UCB members have long participated in federal fishery observer 
programs. We recognize the value and utility of such programs. 
Observers collect valuable fisheries data and help ensure compliance 
with conservation and management measures. Accountability assures 
sustainability but needs affordability. Observers in combination with 
ongoing technology advances such as electronic-monitoring systems (EM) 
are important components of good fisheries management but they need to 
be cost-effective. In the North Pacific, the industry bears the full 
cost of observers and always has. In West Coast groundfish we soon 
will. Other regions should do the same.
    Since we pay for the cost of observer programs, we are extremely 
sensitive to the costs associated with them. Such industry expenditures 
should be included in the cost recovery calculations for catch share 
programs.
    In most fisheries, 100% Human observer coverage is not necessary to 
ensure good data collection or compliance with regulations. A 
statistical subsample of fishing activity would suffice. Greater than 
100% coverage is simply superfluous. For example, in the west coast 
groundfish trawl fishery, observers are placed on mothership catcher 
vessels even though fish never touch the deck of the vessel. These 
fishing vessels mid-water trawl for whiting, pull up the net but leave 
the codend in the water from where it is directly transferred to the 
mothership, where there is an observer onboard. There is literally 
nothing for the observers on these vessels to observe.
    We need to transition away from physically present observers to 
potentially more cost effective electronic monitoring systems. 
Electronic Monitoring might not be potentially more cost effective 
because some NOAA Fisheries personnel want to design and implement EM 
systems that collect all conceivable forms of data. They are designing 
Cadillacs when all we need are reliable Chevys. Such elaborate EM 
systems will reduce if not eliminate the potential cost savings. 
Electronic monitoring systems should be designed and implemented in 
response to a specific problem statement that clearly identifies the 
data needed to ensure accountability. For example, in a full retention 
fishery an EM system that can identify the species of fish being 
discarded is superfluous since any discard is a violation of the 
fishery management plan. A high-tech camera is not needed to discern if 
a discard event has occurred.
    Finally, commercial fishermen are not the only fishery participants 
that need to be held accountable. In many fisheries, charter and 
recreational fishing activities and harvest have a dramatic impact on 
fish stocks. These catches and their compliance with conservation and 
management measures need to be held much more accountable than is 
current practice. Tools such as VMS, AIS, check-in/check-out 
requirements, logbook accounting and perhaps observer coverage should 
be considered.
State-Federal FMP Coordination & Consistency
    As you know, the MSA governs fisheries outside of state waters and 
inside the U.S. Exclusive Economic Zone (EEZ). Of course, fish do not 
recognize these boundaries. Many fish stocks managed under the MSA are 
also managed by various States within their waters. In some cases, the 
State management plans can be contradictory or even undermine the 
conservation and management objectives of the federal FMP. Uncontrolled 
fishing effort within state waters can lead to the overcapitalization 
of a federally rationalized fishery. Effective coordination between 
state and federal fishery managers is required. For example, the Bering 
Sea crab fisheries are jointly managed under a `framework' arrangement 
between the State of Alaska and the federal government. This agreement 
clearly details the jurisdiction, authority and responsibility of each 
government and the result is a successful management program that 
governs stock assessment, effort control, harvest record keeping and 
also a newly established catch share program for the crab industry.
    UCB believes State fishery management plans for stocks of fish 
predominantly managed by the federal regional fishery management 
councils should be subject to review and approval by the Secretary of 
Commerce for compatibility with the federal FMP. States should be 
required to meet or exceed the conservation and management standards of 
the federal FMP. States that have no fisheries management for a 
federally managed stock should be required to develop one or have the 
federal FMP reach into state waters.
    UCB also believes that went a designated fish stock is fully 
utilized by a developed fishery and the federal management of such 
fishery is well defined, the states should not be allowed to establish 
a new fishery that utilizes the same fish stock. This leads to 
`leakage' in management and can result in overfishing of the fish stock 
or overcapitalization of the fishing fleet. One stock of concern we 
have in Alaska is Pacific Cod.
Bycatch
    National Standard #9 requires bycatch and the mortality thereof to 
be minimized to the extent practicable. In many cases this is more of 
an allocation issue than a conservation issues.
    Nonetheless, UCB supports the principal of minimizing bycatch. 
Again, however, a standard of reasonableness needs to be applied. In 
the North Pacific, many bycatch limits are set as hard numerical caps 
that have no relationship to natural variability of the fish stock. 
When stocks are low, the numerical cap may provide very little benefit. 
When stocks are high, the cap may be overly constraining and if 
exceeded may have little or no impact on stock. UCB supports proper 
bycatch management programs in order to insure the conservation of all 
fish stocks. However, these measures need to be reasonable and also 
allow input into the design and management by fishermen.
Cooperative Management
    As previously mentioned, UCB believes strongly in science-based 
fisheries management. We recognize that the better the data the more 
robust the fisheries management. There are many instances were industry 
supports the collection of fisheries data: industry-funded observers, 
industry-funded surveys, Experimental Fishing Permits, and industry-
charter work for fisheries scientists. We believe such cooperative work 
should be incentivized and encouraged. The costs of such activities 
should be included as a credit when calculating cost recovery for catch 
share programs. Retention of catch and the calculation of such outside 
of ACLs should also be allowed. UCB has been on the forefront of 
cooperative management with the federal fishery managers. Examples of 
our efforts include the development of a salmon excluder for the mid-
water pollock trawl fleet, funding and deploying trawl catcher vessels 
to assist in stock assessment survey work, and the collaboration of 
fishery data for federal and state research scientists. This is one 
area of focus that needs further development and can lead to cost 
savings for the federal government.
Conclusion
    UCB believes the MSA is a strong and largely well-crafted and 
implemented piece of legislation with a proud history of 40 years of 
fishery governance. With changes to the law to address the issues 
outlined in this testimony, we believe it will ensure robust and 
sustainable U.S. fisheries that help feed the nation and promote 
economic stability for decades to come. As the Congress once again 
proceeds with its work to reauthorize the MSA, we look forward to the 
opportunity to provide meaningful ideas and suggestions for you to 
consider. Stakeholder participation is one of the founding principles 
of the original Magnuson Act and has proven to be useful over the past 
4 decades of fishery management.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Dooley.
    Next I will recognize Mr. John Pappalardo, Chief Executive 
Officer of the Cape Code Commercial Hook Fishermen's 
Association.
    Mr. Pappalardo, you are recognized for 5 minutes.

STATEMENT OF JOHN PAPPALARDO, CHIEF EXECUTIVE OFFICER, CAPE COD 
            COMMERCIAL HOOK FISHERMEN'S ASSOCIATION

    Mr. Pappalardo. Thank you, Chairman Hastings, Ranking 
Member Markey, members of the Committee. Thank you for the 
opportunity today. My name is John Pappalardo, and I am CEO of 
the Cape Code Commercial Hook Fishermen's Association, an 
organization started over 20 years ago by local small-boat 
independent fishermen. Our members catch around 12 million 
pounds of seafood, annually, worth $17 million. Between 2002 
and 2011, I also served on the New England Fishery Management 
Council, with the last 5 years as its Chairman.
    While many look to New England and see the failure of our 
codfish fishery, I think it is important to remember to look at 
our successes, as well. I think about scallops, monkfish, and 
dogfish when I think about our successes. It is important to 
note that these successes were accomplished through the 
Magnuson-Stevens Act that we have today.
    We think the law is working, but we think it needs 
improvement in implementation. We must move forward to rebuild 
and maintain our fish stocks by providing managers and the 
fishing industry with data and resources necessary to run our 
fisheries with annual catch limits. I have ideas on how to do 
that, and I would be happy to answer questions afterwards about 
that.
    While the law set a tall order with annual catch limits, we 
think it is the right one. We think it can work. And we think 
it is the only way forward. We must make a commitment to 
providing our communities with innovative ways to create a 
fishing future, and make existing programs currently available 
to other industries in the United States also available to the 
fishing industry.
    We need to start managing our marine ecosystem as the 
dynamic and interwoven environment that it is. While annual 
catch limits are the cornerstone of Magnuson-Stevens, they also 
demand annual stock assessments. And annual stock assessments 
are resource and data-hungry--we think the industry needs to be 
engaged and involved in creating those annual stock 
assessments. We currently don't have annual stock assessments 
to set annual catch limits. We think that is a problem.
    Real-time data and accountability are also important, if we 
are going to manage our fisheries sustainably. Comprehensive 
observer coverage and information about the fish brought on 
board are a necessity for managers. But, unfortunately, our 
fishing industry can't afford to pay for these observers at 
this time. But we need that information if we are going to take 
delivery on the promise of Magnuson-Stevens.
    So, we think better, faster, and cheaper information is 
something that managers need, and we think the current system 
isn't delivering that, at least in New England. So we believe 
we should start to look for public and private partnerships to 
fill the gaps that currently exist.
    Our communities in New England need support. The challenges 
we are facing are very real. It isn't enough to be a good 
hunter of fish. Fishermen today need to be sophisticated 
businessmen to navigate all the regulations and requirements. 
My organization started a community permit bank in 2005 to 
provide diversity of access to fishing opportunities for 
fishermen on Cape Cod. We keep seafood landed in our 
communities, and we provide good, stable, crew jobs and 
opportunities for fishermen to access resources that they 
otherwise wouldn't have access to.
    I work with fishermen every day. They spend their lives on 
the water. Not a week goes by without one of these guys coming 
into my office and telling me how important it is to manage the 
ocean, while considering how all species interact. From herring 
to cod and from skate to seal. They talk about how the 
increased abundance of one stock can directly impact another, 
and about how important the improved protection of critical 
habitat is for some of our most depleted and important 
resources, such as codfish.
    While they never use the words ``ecosystem-based 
management,'' that is what they are talking about. That is the 
approach that their lifetime of experience on the water tells 
them is essential. And I think it is time we moved in that 
direction when we manage our fisheries.
    In conclusion, we must move forward to rebuild our fish 
stocks and keep them there. We need to expand accountability, 
improve our annual stock assessments, and come up with 
innovative and cost-effective programs for gathering real-time 
information. We must make a commitment to providing our 
communities with the tools to invest in the future of their 
fishing economies. And we need to manage the entire ecosystem.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Mr. Pappalardo follows:]

        Statement of John Pappalardo, Chief Executive Officer, 
            Cape Cod Commercial Hook Fishermen's Association

    Chairman Hastings, Ranking Member Markey and Members of the 
Committee, my name is John Pappalardo. I am the CEO of the Cape Cod 
Commercial Hook Fishermen's Association (CCCHFA), an organization 
started over 20 years ago by independent small-boat fishermen on Cape 
Cod. We work with over 100 commercial fishing businesses catching 12 
million pounds of seafood worth $17 million each year, including cod 
and haddock, lobster, conch, scallops, monkfish, dogfish, skates, sea 
clams, striped bass and bluefin tuna. These businesses support hundreds 
of fishing families and form the backbone of our area's coastal 
economy. Between 2002 and 2011, I served on the New England Fishery 
Management Council, including five years as Chairman.
    The 2006 reauthorization of the Magnuson-Stevens Act was a wise 
step forward in fortifying our nation's fisheries laws by mandating 
better understanding of our marine resources, rebuilding depleted fish 
stocks, and holding fishermen accountable for their catch.
    I support that law because I see evidence of rebuilding fish 
populations and restoring profitable small fishing businesses. I see 
noteworthy success stories on Cape Cod and around the nation. While 
many look to New England and see the failures of the codfish industry, 
I choose to look to successes such as the scallop, dogfish and monkfish 
fisheries.
    We can improve Magnuson-Stevens. In my comments, I will make a 
series of recommendations on how we can further improve implementation 
of the law to help ensure continued growth for small fishing businesses 
in my community and around the nation.
An End to Overfishing
    The cornerstone of our management under Magnuson is the commitment 
to setting annual catch limits; this truly is the only way forward. 
However, annual catch limits demand annual stock assessments. We cannot 
end overfishing without better, more reliable, real-time information 
and timely stock assessments.
    The value of industry-supported annual assessments is obvious when 
comparing the responses of New England's scallop and groundfish 
fisheries to significant reductions in available harvest this year.
    The Atlantic sea scallop fishery, with annual assessments based on 
three independent surveys including two that are industry-based, faced 
their 30% quota reduction by acknowledging their confidence and support 
in the science. While painful, industry accepted quota cuts as 
necessary for the continued sustainability of their fishery.
    The groundfish fishery consists of 17 different stocks with quotas 
generally set every three years based almost entirely on a single 
government trawl-survey with no industry participation and little 
industry confidence. Many of these assessments show persistent and 
troubling signs of inaccurate catch information among other problems. 
The groundfish fishery largely responded to the announcement of 
significant reductions in a number of key stocks by following a time-
honored regional tradition of questioning the science and challenging 
the cuts.
    It's important to remember that all wild populations will 
experience occasional downturns, even when well managed. However, 
without timely and accurate information and industry buy-in to the 
process, our Science Centers spend more time and money defending their 
assessments than improving them. This has to change if we are going to 
create an environment for small fishing businesses to thrive.
    But annual assessments alone will not give us the tools we need to 
take the next step. We also need to improve the quality and timeliness 
of the data, particularly the catch information that feeds into our 
stock assessments. Unless we have better catch information, our fishing 
businesses will continue to be hamstrung by unpredictable, fluctuating 
quotas that are often misaligned with the reality of the resource in 
the water.
    Therefore, we must rethink how we collect fisheries dependent catch 
information. We need to do it better, faster and cheaper and that means 
changing how we approach the problem and how we utilize the private 
sector to solve it.
    Almost a decade ago, Cape Cod fishermen volunteered to pilot 
electronic monitoring systems to provide a safer, more efficient and 
cost-effective alternative to human observers. Yet, despite all the 
time and resources we put into proving the viability of cameras in New 
England fisheries, we do not appear any closer to implementation. 
Meanwhile fishermen from almost every region are facing the reality of 
having to pay an ever-rising portion of the monitoring cost.
    Our small businesses cannot afford not to have comprehensive 
coverage and real-time accountability, but they also cannot afford to 
pay for a bloated and costly observer program to deliver catch 
information. We need to move forward with innovative solutions that 
rely on the efficiencies and strengths of the private sector to solve 
these problems. This is why last year our organization supported former 
Congressman Barney Frank's bill, H.R. 4208, which proposed reforming 
the S-K grant program. S-K funds can and should be used to provide much 
needed resources to the regions for these kinds of important 
improvements in monitoring and stock assessments.
Building Stronger Businesses and Fishing Communities
    We must do even more to protect and strengthen our fishing 
communities under a system of annual catch limits and accountability. I 
was on the front lines in New England when we tried to rebuild fish 
stocks without annual accountability. That effort thoroughly failed to 
protect fish stocks or to serve the small fishing businesses built on 
them. Watering down the conservation mandates of this law will not help 
a single small business grow for the future.
    If we want to have strong businesses in a fishery managed by annual 
limits then I'm convinced, that we will need to utilize catch shares. 
It's the only way forward that I can see to stabilize our fisheries, 
build profitable small fishing businesses and harvest all of the quota 
recommended by our scientists. Now, I have also realized that catch 
shares, while an important part of better management, can have 
unintended consequences on our fishing communities, causing 
consolidation and community dislocation. These are challenges that we 
must prepare to address in all of our nation's fisheries.
    So the question is, ``How do we make this transition while building 
stronger ports, stronger businesses?''
    We need to build resilience through securing diverse fisheries 
access at the business and port level. For centuries small boat 
fishermen in New England weathered downturns in a given fishery by 
maintaining access to other harvesting opportunities. When groundfish 
were less abundant, many fishermen would re-rig to target scallops or 
lobster; this allowed small fishing businesses to adapt, adjust and 
grow. However, too often allocation decisions and rising costs of 
fishing permits/quota are forcing our small boat fishermen to 
specialize in order to remain in a fishery.
    We need to counter this trend and support the continued diversity 
of access that's essential for strong businesses and ports. To do this, 
we need innovative financing programs to support initiatives like 
community permit banks and fisheries trusts which allow communities to 
buy permits, maintain permanent fisheries access, and provide 
affordable opportunities for local fishermen.
    My organization saw the need to build this type of program over 
five years ago as we saw the threat of permits being sold out of our 
communities and our fisheries diminished. Through the Cape Cod 
Fisheries Trust, we've helped dozens of local scallop, groundfish and 
sea clam fishermen gain access to additional fishing opportunities, 
ensured that seafood was landed in our local ports and that those 
fishing businesses provided stable, good-paying crew jobs for Cape 
Codders.
    Through this program we've also provided business training and 
development, reinvested in fishermen-driven research, and have worked 
to identify, support and encourage the next generation of captains in 
our industry. It is not enough to simply be a good hunter of fish. 
Today's commercial fisheries demand that captains also be sophisticated 
businessmen. We must invest now in developing the next generation, 
ready to succeed in this new industry.
    This community-based model can work in ports throughout the 
country, but it must be supported. We must invest in these economic 
engines through cross-agency collaborations and microfinancing 
programs.
Market Support and Seafood Fraud
    Our fisheries need more than robust fish stocks and fisheries 
access to succeed; they need stable markets and transparent 
distribution pathways to ensure a fair price. Recent media 
investigations have confirmed what those of us connected to wild 
harvest fisheries have long known, rampant seafood mislabeling is 
undermining our small fishing businesses as well as the health and 
safety of American consumers who are too often unknowingly dining on 
foreign substitutes after ordering a domestic seafood entree.
    We must begin to stamp out seafood fraud and bring more 
transparency to the supply chain by passing Congressman Markey's 
Seafood Fraud legislation.
    But we must also take steps to develop and strengthen domestic 
markets for underutilized stocks, like dogfish and skates which are 
abundant but are currently exported as high-volume/low-value products 
to European markets. While we rebuild other stocks, our small 
businesses must be able to adapt to harvest these stocks profitably and 
sustainably.
    As a country, we have invested and worked to stabilize markets for 
our nation's agricultural products; and we must take a similar approach 
with our domestic fisheries. Our robust fish stocks represent a 
critical source of affordable and sustainable protein that we should be 
using to feed our soldiers, schoolkids and those relying on federal 
food programs. This is the ultimate win-win and we must pursue this 
kind of solution.
Ecosystem-based Fisheries Management
    The final topic I would like to discuss is what people refer to as 
Ecosystem-based Management. I work with fishermen who have spent their 
lives on the water. Not a week goes by without one of these fishermen 
telling me how important it is to manage the ocean while considering 
how the species interact, how the increased abundance of one stock can 
directly impact another, how important the improved protection of 
critical habitat is to some of our most depleted and important stocks, 
like codfish. They never use the words, Ecosystem-based Management, but 
that's what they're talking about, that's the approach that their 
lifetime of experience on the water tells them is essential.
    They recognize that we will never be able to rebuild New England's 
flagship cod populations without a robust forage base of herring and 
mackerel for those fish to feed on. We need to be more conservative 
with the commercial harvest of these forage stocks, since the 
consequences of even small declines in these populations ripple across 
our ecosystems and fisheries.
    Not long ago, seeing a grey seal was a rare occurrence. Now, we 
motor past miles of breeding grey seals on the beach on our way out to 
the fishing grounds and routinely pull up seal-eaten cod and haddock on 
our hooks and in our nets. We recognize the need to have healthy marine 
mammal populations but we cannot pretend to manage an ocean ecosystem 
while refusing to manage top-order predators like seals.
    This isn't an easy conversation, but we need to have it if we're 
going to strengthen our small fishing businesses and better manage our 
oceans.
Conclusion
    We can and must do more to build strong, resilient, and profitable 
fisheries and fishing ports. To do it, we have to resist the temptation 
to go back to our old ways of mortgaging the future of our fisheries by 
allowing short-term overharvesting. That's liquidating our fisheries, 
not investing in them.
    Instead, we must move forward to rebuild our fish stocks, through 
expanded accountability, improved annual stock assessments, innovative 
and cost-effective programs for gathering real-time catch information. 
We must make a commitment to providing our communities with the tools 
to invest in the future of their fishing economies and managing the 
entire ecosystem.
    There are certainly challenges ahead, but I remain confident that 
we can build stronger fisheries and profitable small fishing 
businesses.
    Thank you, I'd be happy to answer any questions you have.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Pappalardo. Next I 
will recognize Captain Keith Logan, Charterboat Captain out of 
Myrtle Beach, South Carolina.
    Captain Logan, you are recognized for 5 minutes.

 STATEMENT OF KEITH LOGAN, CHARTERBOAT CAPTAIN, MYRTLE BEACH, 
                         SOUTH CAROLINA

    Mr. Logan. Mr. Chairman and members of the Committee, my 
name is Captain Keith Logan from Myrtle Beach, South Carolina. 
I have over 35 years of fishing experience in the South 
Atlantic as a charterboat captain, as a commercial fisherman. I 
appreciate the opportunity to testify before you today in the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act of 2006.
    I am seeking your immediate help in reauthorization of the 
Magnuson-Stevens Act of 2006 to add flexibility, access, and a 
sound science approach to sustainability.
    Give a man a fish, he will eat for a day. Teach him how to 
fish and the government will say he is overfishing, shut him 
down. This is what the 2006 reauthorization of the MSA is doing 
to us, the fishermen, here in the United States. The annual 
catch limits, accountability measures that the environmental 
groups helped put into the MSA on the eleventh hour of 2006 are 
causing an irreparable economical damaging impact to our 
coastal communities.
    The 2006 reauthorization of the Magnuson-Stevens Act is 
clearly evidence of the hijacking of our fisheries management 
by the environmental groups. Enclosed is a screen shot from 
EDF's website, where it shows where they were boasting about 
their oceans team being instrumental in crafting and passing 
the changes to the Magnuson-Stevens Act. Once this was made 
public, and pointed out the possible undue influence by EDF, 
they wiped their site clean of the verbiage. I have a screen 
shot included in your package of it.
    The effects of the annual catch limits and the 
accountability measures in the MSA placed on the fishermen in 
the South Atlantic by NOAA, National Marine Fisheries, and the 
South Atlantic Fisheries Management Council are having 
detrimental irreparable economical consequences on the 
fishermen of the Grand Strand, Horry County, South Carolina and 
the whole South Atlantic. This does not only affect the 
fishermen of South Carolina, it is having an economic impact on 
the gas stations, marinas, tackle stores, golf courses, 
restaurants, grocery stores, motels, hotels, resorts, and 
rental properties. Because recreational fishermen, charter/head 
boat captains, and commercial fishermen are not fishing because 
of the MSA. Industries that provide a service were no longer 
doing business with those guys, because we can't afford to. We 
are not fishing.
    All this being done is with bad data collected through the 
Marine Recreational Fishing Statistics Survey, called MRFSS. 
NCR Chairman, Dr. Patrick Sullivan, referred to MRFSS data as 
``fatally flawed.''
    The Magnuson-Stevens Act must be changed to add flexibility 
and access for the fishermen. We need legislation to provide 
flexibility and rebuilding of our fisheries. If certain 
conditions are met using a sound science approach for fishery 
management instead of the current very low standards, and best 
available science. Additionally, it must address annual catch 
limits and accountability measures and the rigidity of the SSC.
    The goal should be to keep fresh fish on American tables 
and caught by American fishermen using common sense management 
and accurate science and data. As I have stated, the Magnuson-
Stevens Act has been manipulated to further interest special 
interest groups at the sacrifice of the local economy and 
fishermen.
    I am seeking your immediate help in the reauthorization of 
the Magnuson-Stevens Act of 2006 to add flexibility, access, 
and sustainability in order to stop the attack on our fishing 
industry. We, the recreational fishermen, charter/head boat 
captains, and commercial fishermen are the endangered species, 
we are. We are being put out of work every day.
    Mr. Chairman, thanks again for hearing me and letting me 
finish my say. For us, we are going out of business because of 
a broken law, bad science. Please don't wait for a full 
reauthorization to get us back in business and on track. We 
need help right now, today. Thank you. Captain Keith Logan.
    [The prepared statement of Mr. Logan follows:]

        Statement of Captain Keith Logan, Charter Boat Captain, 
                      Myrtle Beach, South Carolina

    Thank you for allowing me to speak. I am Captain Keith Logan, a 
charter boat captain from Myrtle Beach, South Carolina.
    Give a man a fish he will eat for a day, teach him how to fish and 
the government will say he's overfishing and shut him down! This is 
what the 2006 reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act is doing to the fishermen. The Annual 
Catch Limits and Accountability Measures the environmental groups had 
put into the MSA, at the 11th hour in 2006, are causing irreparable 
economic damage to our coastal communities. The 2006 Reauthorization of 
Magnuson is clearly evidence of the hijacking of our fisheries 
management by environmental groups. Enclosed is a screen shot from an 
EDF website where it shows where they were boasting about their 
``Oceans Team being instrumental in CRAFTING and PASSING the changes to 
the Magnuson . . .'' Once this website was made public and pointed out 
that this was possibly undue influence, they (the EDF) wiped their site 
clean of such verbiage.
    I am seeking your immediate help in the Reauthorization of the 
Magnuson-Stevens Act of 2006 to add Flexibility, Access, and a Sound 
Science Approach to Sustainability.
    The effect of the Annual Catch Limits (ACLs) and the Accountability 
Measures (AMs) in the MSA placed on the fishermen of the South Atlantic 
by NOAA, NMFS, and the SAFMC, are having detrimental and irreparable 
economic consequences on the Fisherman of the Grand Strand, Horry 
County, South Carolina and the whole South Atlantic. This does not only 
affect the fishermen of South Carolina, It is having an economic impact 
on the gas stations, marinas, tackle stores, golf courses, restaurants, 
grocery stores, motels, hotels, resorts, and rental properties. Because 
recreational fishermen, charter/head boat captains, and commercial 
fishermen are not fishing because of the MSA, they are not buying 
supplies and services that other industries provide, nor do they have 
the money in order to live. The tourists are not coming to the area to 
play golf and go fishing, because they cannot keep fish to eat.
    The closure of Black Sea Bass has result in the complete shutdown 
of the Charter/Head Boat fleet for five (5) months out of the year. The 
loss of employment for those people of the fleet has been catastrophic. 
This is totally unacceptable. We want to work, but the Federal 
Government is putting us out of work! According to the North Myrtle 
Beach and Myrtle Beach Chamber of Commerce, the number one request from 
tourist vacationing in the Grand Strand is for Charter/Head Boat 
fishing information. Given this fact, the economic loss has included 
tourism dollars, tax revenues, and additional people to the ranks of 
the unemployed in South Carolina.
    The effect on my charter business has been very hard over the last 
four years. On October 17, 2012, the Black Sea Bass closed due to 
meeting the ACL. For the remainder of 2011, 2012 I lost twenty-one (21) 
charters in October, twenty-four (24) charters in November, and 
eighteen (18) charters in December. This resulted in a loss of 
$56,700.00, in gross revenues and 63 charters. As the Black Sea Bass 
season remained closed until June 1, 2012, my business continued to 
suffer catastrophic losses. I lost sixteen (16) charters in January, 
seven (7) charters in February, fifteen (15) charters in March, 
nineteen (19) charters in April, and seventeen (17) charters in May. 
This resulted in a loss of $66,600.00, gross revenue and a total of 
seventy-four (74) charters. For the eight (8) months I was prohibited 
from catching and retaining Black Sea Bass, I lost $123,300.00, in 
gross revenues. While I was unable to work, I was not buying fuel, 
bait, or tackle.
    To date, for 2013, I have lost twenty-nine (29) charters and gross 
revenues of $26,100.00. Additionally, I have not purchased fuel, bait, 
or tackle. Based on the above numbers, I am projecting a total loss of 
gross revenue of $150,00.00, during this year's closures from October 
2012, through June 1, 2013. This does not include the loss to the local 
economy six tourists would provide during their stay while fishing. My 
customers traditionally travel to the Grand Strand, play golf, and do a 
half day fishing charter. This may not sound like a lot of money, but 
it is to me. As I have stated, this economic impact does not include 
the fact I did not buy fuel, bait, ice, tackle, or spend any money on 
eating. Also, this figure doesn't include monies lost to gas stations, 
golf courses, restaurants, grocery stores, motels, hotels, resorts, and 
rental properties because my clients did not come to the Grand Strand 
area to go fishing.
    How am I going to pay my mortgage, boat payment, truck payment, 
phone, electric, grocery, insurance, and boat slip if the keeps on 
going on? I don't know. Remember, this number is only for me; it does 
not include the other 152 charter/head boat captains of the Grand 
Strand and 512 charter/Headboats in South Carolina. If only half of 512 
charter/head boat captains are in the same boat that I'm in, then it's 
a minimum of $38,400,000.00 dollars lost to South Carolina's economy. 
Now add all the charter/head boat captains in southeastern United 
States, and all the customers no longer traveling to the coastal areas 
to participate in fishing, and commercial fishermen blocked from plying 
their trade; the economic impact is hundreds of millions of dollars! 
Now, consider the money the recreational fishermen would spend. This 
monetary loss will affect marinas, fuel dealers, marine supply stores, 
boat service centers, and tackle stores. Add another hundred million 
plus dollars of economic loss.
    What needs to be done? The Magnuson-Stevens Act needs to be 
reworked to add flexibility, access, a sound science approach to 
sustainability; not be designed as it is now, resulting in overly 
aggressive closures of perfectly healthy fisheries without good data to 
back it up.
    The Annual Catch Limits (ACLs) and Accountability Measures (AMs) 
are being based and established with old data and ``Best Available 
Science'', per NOAA and NMFS. This has to stop! NOAA must start 
utilizing data obtained through a ``Sound Science Approach''. This must 
include a study of biology, social and economic impact analyses, 
habitat evaluations, and ecosystem management issues. Fisheries must be 
open year round in order to avoid severe economic impacts.
    The Magnuson-Stevens Act must be changed to add Flexibility, Access 
and Sustainability.
    We need legislation to provide for flexibility in rebuilding 
fisheries if certain conditions are met and using a ``Sound Science 
Approach'' for fisheries management instead of the current very low 
standard of ``best available science.'' Additionally, it must address 
ACL's (``Annual Catch Limits''); AM's (``Accountability Measures''); 
and the rigidity in the SSC (``Scientific and Statistical Committee''). 
The goal should be to keep fresh fish on American tables and caught by 
American fisherman using common sense management based on accurate 
scientific data. The recreational marine fishery is worth over $1.5 
billion a year in South Carolina, and commercial marine fishing and 
local seafood is also highly important to our state's growing tourism 
industry and the rest of our economy.
    Flexibility in rebuilding fisheries that are experiencing legal 
``overfishing'' must be added as follows. Amend Section 304(e) of the 
Magnuson-Stevens Fishery Conservation and Management Act (16 U.S.C. 
1854(e)(4))
    (1) in paragraph (4)(A)--
    (A) in clause (i) by striking `possible' and inserting 
`practicable'; and
    (B) by amending clause (ii) to read as follows:
    `(ii) not exceed 10 years, except in cases where--
    `(I) the biology of the stock of fish, other environmental 
conditions, or management measures under an international agreement in 
which the United States participates dictate otherwise;
    `(II) the Secretary determines that such 10-year period should be 
extended because the cause of the fishery decline is outside the 
jurisdiction of the Council or the rebuilding program cannot be 
effective only by limiting fishing activities;
    `(III) the Secretary determines that such 10-year period should be 
extended to provide for the sustained participation of fishing 
communities or to minimize the economic impacts on such communities, 
provided that there is evidence that the stock of fish is on a positive 
rebuilding trend;
    `(IV) the Secretary determines that such 10-year period should be 
extended for one or more stocks of fish of a multi-species fishery, 
provided that there is evidence that those stocks are on a positive 
rebuilding trend;
    `(V) the Secretary determines that such 10-year period should be 
extended because of a substantial change to the biomass rebuilding 
target for the stock of fish concerned after the rebuilding plan has 
taken effect; or
    `(VI) the Secretary determines that such 10-year period should be 
extended because the biomass rebuilding target exceeds the highest 
abundance of the stock of fish in the 25-year period preceding and 
there is evidence that the stock is on a positive rebuilding trend;' or
    (2) in paragraph (7), in the matter preceding subparagraph (A), by 
inserting after the first sentence the following: `In evaluating 
progress to end overfishing and to rebuild overfished stocks of fish, 
the Secretary shall review factors, other than commercial fishing and 
recreational fishing, that may contribute to a stock of fish's 
overfished status, such as commercial, residential, and industrial 
development of, or agricultural activity in, coastal areas and their 
impact on the marine environment, predator/prey relationships of target 
and related species, and other environmental and ecological changes to 
the marine conditions;' and
    (3) by adding at the end the following:
    `(8) If the Secretary determines that extended rebuilding time is 
warranted under sub clause (III), (IV), (V), or (VI) of paragraph 
(4)(A)(ii), the maximum time allowed for rebuilding the stock of fish 
concerned may not exceed the sum of the following time periods:
    `(A) The initial 10-year rebuilding period.
    `(B) The expected time to rebuild the stock absent any fishing 
mortality and under prevailing environmental conditions.
    `(C) The mean generation time of the stock.
    `(9) In this subsection the term `on a positive rebuilding trend' 
means that the biomass of the stock of fish has shown a substantial 
increase in abundance since the implementation of the rebuilding plan.'
Sound Science Approach.
    1. The ``Precautionary Approach'', also known as the 
``Precautionary Principle'', needs to be eliminated from Magnuson-
Stevens and a ``Sound Science Approach'' needs to be inserted!
    The ``Precautionary Approach'' was incorporated into the Magnuson-
Stevens Act as ``Risk Adverse Management'', where no empirical 
scientific evidence of any problem is necessary to precipitate action.
    Presently, action can be initiated based on a hypothesis developed 
through subjective opinion and not based on objective scientific data.
    2. The term, ``Best Available Science'', should be removed from the 
Magnuson-Stevens Act and replaced with ``Sound Scientific Process or 
Science'' in order to improve crucial decision making!
Negative Results:
    ``Best Available Science'' has been defined and applied to any 
resource, or environmental issues, to facilitate fully informed 
decisions; however, for this to occur, it is essential scientists, 
policymakers, and the public be aware of the prejudices affecting the 
development and limitations of science and its implementation. When 
actions by federal agencies are challenged in federal court, the courts 
always defer to the agency's decision on ``best available science.'' 
The agency gets a free pass to use worst case scenario models despite 
evidence showing these models are not consistent with reality and in 
fact impossible biologically.
Positive Results:
    The results of a ``Sound Scientific Process'' need not be 
infallible to be the best available. Scientific information and the 
conclusions it supports will always be subject to multiple 
interpretations; but, greater transparency in the process will go far 
in addressing skepticism and averting controversy. High-quality science 
adheres to a well-established scientific process. The soundness of any 
science is enhanced if the associated values, assumptions, and 
uncertainties are clearly explained.
    3. The MRFSS ``Marine Recreational Fishing Statistical Survey'' 
Data is ``very poor'' according to NMFS. This is the data used to set 
the ACL and AM that are in the Magnuson that are closing our fisheries 
down.
    In the January/February 2011 Big Game Fishing Journal, an article 
written by Jim Hutchinson, Jr., covered in great depth the MRFSS 
program and the legal requirements, as mandated by the Congress, the 
NMFS has failed to implement since 2009.
    Quoting information from this article, ``Marine Recreational 
Fishing Statistical Survey (MRFSS), National Academy of Sciences and 
their National Research Council (NRC) completed a study in 2006 and 
concluded both telephone survey and the onsite access components of the 
current monitoring systems have serious flaws in design or 
implementation.'' NCR chairman, Dr. Patrick Sullivan referred to 
(MRFSS) data collection as ``fatally flawed''. MRFSS was supposed to be 
replaced by Marine Recreational Information Program (MRIP). By law, 
MRIP was supposed to be implemented no later than January 2009. 
Magnuson contains a very clear set of guidelines for NMFS to address 
the data deficiencies. Federal law also clearly required that MRFSS be 
replaced by MRIP as of 2009. NMFS has failed to uphold their 
requirements under law, as the current Administration is fast-tracking 
catch share programs and fisheries closures to address other 
requirements related to Magnuson which hurt our industry. And again, 
the MRFSS has been allowed to dictate management decisions since 
Magnuson-Stevens gives it legal protection from challenge--NMFS deems 
it ``best available science!
    4. A scientific approach based on accurate data collection with a 
10% rate of error must be implemented. The MRFSS data currently used is 
flawed 21% to 33%. A test with 67% of the answers correct in any 
college is a failing grade.
Scientific and Statistical Committee.
    1. Studies must be conducted addressing the biological, social, 
economic, and environmental impacts.
    2. Members of the committee must be composed of leading scientists 
in biology, economics, statistics, and social science, without any ties 
to extremist, special interest environmental groups. Additionally, 
members must include Commercial and Recreational fisherman and Charter/
Head boat captains who most closely understand these resources from 
their frequent and lifelong activities within the fisheries.
    3. The Committee must meet at least four (4) times a year to 
address a broad range of topics, including stock assessments, 
management action evaluations, social and economic impact analyses, 
habitat evaluations, and ecosystem management issues. SSC members must 
also play a key role in developing stock assessments for Council 
managed resources through participation in SEDAR, the Southeast Data, 
Assessment, and Review program.
ACL ``Annual Catch Limits''.
    1. ACL's must be set utilizing data obtained through a Sound 
Science Approach. They must include a study of biology, social and 
economic impact analyses, habitat evaluations, and ecosystem management 
issues. Fisheries must be open year round in order to avoid severe 
economic impacts.
    2. Recreational ACL's must be set to allow an average fishing year 
remain open year round.
    3. If reductions in the bag limits are needed to keep a fishery 
open year round, it needs to be addressed prior to the ACL being set. A 
method needs to be developed in order to reduce bag limits when 50% of 
the ACL meet and, again, at 75% of the ACL.
AM ``Accountability Measure''.
    1. AM's shall not include Catch Shares. Catch Shares are not 
provided within the Magnuson-Stevens Act.
    2. If reductions in the bag limits are needed to keep a fishery 
open year round, it needs to be addressed prior to the ACL being set. A 
method needs to be developed in order to reduce bag limits when 50% of 
the ACL meet and, again, at 75% of the ACL.
    3. AM's must be set with a Sound Science Approach. They must 
include a study of biology, social and economic impact analyses, 
habitat evaluations, and ecosystem management issues. Fisheries must be 
open year round in order to avoid severe economic impacts.
    4. AM's make business planning and budgeting impossible. We are 
notified of what appears to be a perfectly healthy fishery being closed 
down, and we have no due process or no input on the matter. NMFS simply 
makes the decision to enact an AM in the middle of our fishing season, 
and there is nothing we can do about it.
Implementation of ACLs and AMs
    1) When Congress mandated hard time limits to end overfishing, they 
assumed that NOAA Fisheries would have already complied with the 
mandate that they improve the data collection system FIRST, thus having 
the necessary information required to make informed decisions regarding 
setting viable ACLs and AMs. Unfortunately, NOAA Fisheries has opted to 
defy Congressional ``Will'' by refusing to improve the data collection 
system by the January 1, 2009, deadline and instead spend hundreds of 
millions of taxpayer dollars promoting the implementation of Catch 
Shares without having the necessary, required data to do so. THIS IS, 
IN MY EYES, AN OPEN ACT OF CONTEMPT OF CONGRESS AND THOSE RESPONSIBLE 
NEED TO BE HELD ACCOUNTABLE.
    2) Additionally, while testifying at a Senate Commerce Committee 
subcommittee hearing a few years ago, Jane Lubchenco, in answer to a 
question from Rep. Barney Frank, conceded there was no scientific basis 
for the 10 years given to rebuild overfished stocks, but demurred when 
then asked if she would support legislation to write flexibility into 
Magnuson. Clearly, science has taken a back seat to ideology with this 
administration--THAT NEEDS TO BE CORRECTED NOW. Open, transparent 
science process needs to be at the forefront of this management 
regimen, and providing flexibility in the overfishing deadlines is 
paramount in importance, here, now.
    3) It may be more cost effective and create a non-biased, 
scientific based fisheries management plan by defunding NMFS 
immediately and move our fisheries management to the state level, only 
in the Gulf and the Atlantic. NMFS themselves proved the point that it 
needs to be regulated state by state with their recent emergency rule 
implemented at the most recent Gulf Council meeting as well as the 
recent total closures in the Atlantic. The states can perform their own 
stock assessments, as well as implement their own ACLs and AMs to 
ensure that overfishing does not occur. In addition, the states should 
also be able to determine the allocation between recreational and 
commercial fishing in their own region. The states can be overseen by 
the Gulf States Marine Fisheries Commission as well as the Atlantic 
States Marine Fisheries Commission and the South Atlantic Fisheries 
Management Council.
    Catch Shares are not about conservation. They are about MONEY and 
CONTROL. No one person, or entity, owns the fish in the oceans.
    A. A ``Catch Share'' is an exclusive right, and guarantee, granting 
whoever owns the catch share, the right to harvest a certain percentage 
of the total allowable catch of a particular species of marine life.
    B. Catch Shares will put the small, one boat fishermen out of work. 
It will allow the large corporations owning the fish houses and 
multiple boat operators to continue fishing while the rest of us are 
sitting at the dock starving. If the smaller fishermen wish to continue 
plying their trade, they will have to ``lease'' a portion of the larger 
operators share. Catch Shares accomplish nothing except to allow an 
elite few to profit off the backs of many, by providing the elite the 
``right to own'' a natural resource provided for all by God.
    C. Catch Shares are NOT GOOD for recreational fishing, commercial 
fishing, or charter fishing. They will substantially increase the costs 
of fishing, to the point many will not being able to fish anymore. This 
natural resource belongs to all people, not just a few of the most 
wealthy. In the end, these ``Individual Fishing Quotas'' (IFQ's) catch 
share programs, are going to be detrimental to fishermen, ecosystems 
and consumers.
    D. Catch Shares, or Individual Fishing Quotas, provide a method for 
a select few to own, control, and prevent the average person from 
utilizing a natural resource owned by no one. So what does this mean 
for you and me? We will have a world of tighter regulations, shorter 
fishing seasons, higher seafood prices, and fewer boats on the water. 
What does this mean for our economy? The loss of billions of dollars 
and jobs!
Implementation of Commercial Catch Shares
    1) If the quota is to be allocated to fishermen, they should lease 
this quota directly from the government--the very idea of being able to 
trade, sell, or lease their privileges to each other, simply evolves 
into nothing more than a revenue stream for individuals/corporations to 
profit from our Public Trust Resource without even having to go 
fishing.
    2) The way the system is set up now, the nation receives no benefit 
whatsoever from giving these individuals/corporations the right to 
profit from our Public Trust Resource--there are no lease fees required 
to be paid to the nation as are required in other industries such as 
oil, grazing, or timber. Not a good deal for our nation or our 
fisheries.
    3) To add insult to injury, not only does the nation not benefit 
from the harvest of our Public Trust Resource, but is in fact saddled 
with subsidizing the program to the tune of millions of dollars per 
year due to the 3% cap placed on the Cost Recovery Fee (CRF). If the 
fishermen actually fishing the quota were to lease that quota directly 
from the government, that would be the most equitable and fair way to 
allocate the quota, and no need for the CRF.
    4) The current drive to expand the implementation of Catch Shares 
into recreational fisheries needs to be prohibited in the new 
reauthorization of Magnuson. This includes Fish Tags, Days At Sea, or 
Inter-Sector Trading.
    E. The definitions of ending Overfishing must be addressed.
Closing
    As I have stated, The Magnuson-Stevens act has been manipulated to 
further the interests of special interests groups at the sacrifice of 
local economies and dedicated, hard-working men and women. I am seeking 
your immediate help in the Reauthorization of the Magnuson-Stevens Act 
of 2006 to add Flexibility, Access, and a Sound Science Approach to 
Sustainability, in order to stop this attack on the fishing industry. 
We, the recreational fishermen, charter/head boat captains and 
commercial fishermen are the Endangered Species
    Help save the Fishermen and our Heritages here in South Carolina
    Thank you for allowing me to speak.
                                 ______
                                 
    The Chairman. Thank you very much, Captain Logan.
    Next I will recognize Mr. Bob Gill, who is the Co-owner of 
Shrimp Landing, Florida. Mr. Gill, you are recognized.

            STATEMENT OF ROBERT P. GILL, CO-OWNER, 
                    SHRIMP LANDING, FLORIDA

    Mr. Gill. Thank you, Chairman Hastings, Ranking Member 
Markey, members of the Committee. Thank you for the opportunity 
to appear before you today. I offer these comments on behalf of 
myself based on years of involvement in fisheries issues in the 
Gulf of Mexico at both the State and Federal levels. Since 1986 
I have owned and operated a fish house in Crystal River, 
Florida, and I have dealt with fresh Gulf seafood from both 
inshore and offshore fishermen. I was privileged to be 
appointed to the Gulf of Mexico Fishery Management Council in 
2006, and served for 6 years, the last year serving as Chairman 
of that body. It is with that background that I speak today.
    The changes made to the MSA in 2006 have had a profound 
effect on fisheries, councils, and stakeholders. The Act is 
fundamentally sound, but some aspects of implementation need 
continued work. What is needed is a focus on the tools to make 
the MSA more effective. Today I will focus on what I consider 
three top priorities: improving the science and data, 
addressing the ACL and AMs, and improving stakeholder 
credibility.
    The requirement for Federally managed fish stocks of AMs 
and ACLs has increased the need for scientifically sound, 
accurate, and timely data, so that fisheries managers can 
properly manage to those limits. However, the current state of 
our scientific knowledge is neither sufficiently advanced nor 
adequately funded to achieve the desired results. Rather than 
roll back or discard fishery management tools that work, we 
must ensure fishery managers have the necessary information to 
better manage the fish stocks in their purview. To do so, we 
need a significantly increased investment in science. The MSA 
cannot address this need, but Congress can.
    Full stock assessments are not realistic for many fish 
stocks in U.S. waters. To achieve the goals of the MSA, we must 
develop less-costly ways to address data-poor stocks. One of 
the downstream results of the lack of data and science is 
larger uncertainty in stock status. Larger uncertainty 
translates directly to larger buffers to compensate, at least 
in part, for the increased probability that overfishing might 
occur. The net result is fewer fish available for all 
fishermen. Weakening the MSA will not improve the reality of 
this result. Improved data and more frequent stock assessments 
will. This means money.
    I recognize the current climate is not favorable for 
additional funding, but I also realize that progress will be 
painfully slow to non-existent without it. Previous legislation 
has proposed a scaling back of the ACL/AM requirement that 
would effectively undo the very tool that has had a positive, 
if painful, result on our fisheries. The culprit here is not 
the ACL/AM ceilings required, but the mechanism by which to set 
them. The science and data need to be fixed, not the law.
    We still need to strike a better balance between the 
biological needs and the social needs. Again, investing in 
improvements to science can help. Making appropriate changes to 
the MSA can also continue the improvement of the fish stocks, 
while mitigating the pain inflicted on the stakeholders. One 
change in MSA that ought to be considered that would ease the 
burden on communities and fishermen is to look at the science-
based timelines required for rebuilding stocks deemed 
overfished, especially when overfishing is not the primary 
cause. The National Academy of Science is currently looking at 
the science behind rebuilding times, and their report could 
offer additional guidance.
    From the vantage point of my experience, I have serious 
concerns about the viability of the current fishery management 
process. These concerns emanate from an increasing 
disenchantment of many stakeholders with credibility in the 
system. In the Gulf, States are increasingly looking for ways 
to maximize fishing for their constituents without much regard 
for offshore fishermen and other States.
    For example, Texas and Louisiana have both chosen to go 
inconsistent with Federal red snapper regulations, and Florida 
is likely to follow suit. Our goal should be to work together 
to maximize fishing opportunities for as many people as 
possible within the bounds of a prudent scientific basis.
    In conclusion, the reauthorization of the MSA in 2006 
contributed significantly to commendable progress in reducing 
overfishing and rebuilding our Nations' fisheries. The work to 
achieve sustainable fisheries in this country is not finished, 
but wholesale changes to MSA are not needed. I believe that 
modest improvements can and should be made to MSA to help 
fulfill its mandate while allowing the Nation's citizens to 
enjoy access to healthy fisheries. The 2006 reauthorization has 
moved us in the direction of striking this balance. Now we must 
improve on these advancements, rather than abandon ship.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gill follows:]

     Statement of Robert P. Gill, Co-Owner, Shrimp Landing, Florida

I. Introduction
    Chairman Hastings, Ranking Member Markey, members of the Committee, 
thank you for this opportunity to appear before you with regards to 
possible changes to the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) as amended in 2006. I offer these comments on 
behalf of myself based on my years of involvement in in fishery issues 
in the Gulf of Mexico at both the state and Federal levels. In 1986, I 
purchased a fish house in Crystal River, Florida, and have dealt since 
then with fresh Gulf seafood from both inshore and offshore fishermen. 
I soon recognized the need to better understand the changing regulatory 
environments and participated with increasing frequency in those 
processes as a private citizen. This resulted in the privilege of my 
appointment to the Gulf of Mexico Fishery Management Council in 2006 
and served for 6 years, the final year as Chairman of that body. It is 
with that background that I speak today.
II. The 2006 Reauthorization
    The 2006 reauthorization of the MSA required Fishery Management 
Councils (Councils) to implement science based annual catch limits 
(ACL) and accountability measures (AM) for most fish stocks in a 
fishery management plan. While this was a new requirement, 
implementation of science based ACLs and AMs had proven to be 
successful in ending overfishing and rebuilding fish stocks in multiple 
regions in the U.S. The changes required by the 2006 reauthorization 
strengthened the fishery management process. While all is not perfect, 
establishing the concept of hard ceilings through science based catch 
limits to ensure that the discipline required to end overfishing is 
maintained has had a positive effect on many of our fisheries. However, 
at the same time, we must recognize the burden these restrictions have 
placed on stakeholders.
    The MSA now has our nation on track to ensure that overfishing is 
indeed ended and overfished species are rebuilt, benefitting our oceans 
and those dependent upon them. A record number of stocks were declared 
rebuilt in 2011, and all federal fisheries had catch limits in place in 
time for the 2012 fishing season. As prescribed by the 2006 
reauthorization, the National Marine Fisheries Service (NMFS) now has 
ACLs and AMs in place for all 537 federally managed fish stocks and 
complexes.\1\ Further, all 36 stocks experiencing overfishing are being 
actively managed under ACLs or equivalent measures to end overfishing, 
and all but eight of the stocks determined to be of an ``overfished'' 
status are under rebuilding plans.\2\ These recovering fisheries 
establish a biological baseline from which we can measure any future 
changes. The requirements added to the MSA in 2006 reaffirm our 
realization that nature is amazingly resilient as long as we give her a 
reasonable opportunity to respond and recover from adverse impacts.
---------------------------------------------------------------------------
    \1\ NOAA, NMFS, Status of the Stocks: Report on the Status of U.S. 
Fisheries for 2011, at 1 (May 2012).
    \2\ Id.
---------------------------------------------------------------------------
    Legislation has been proposed that would roll back key conservation 
provisions of the Act; provisions that have worked. I do not share that 
view. The basic concept as detailed in MSA 2006 is correct, but modest 
changes can be made to improve an imperfect system. My comments are 
provided with this in mind and will hopefully provide a reasonable 
basis for those improvements.
    While the implementation of ACLs and AMS from the 2006 
reauthorization are the foundation of my comments, there are numerous 
other issues that also are worthy of mention.
III. The ACL and AM Requirement
    The annual catch limit (ACL) and accountability measure (AM) 
requirement \3\ added to the MSA in 2006 has had a profound effect on 
fisheries, Councils and stakeholders. The MSA's new catch setting 
system has made great progress toward achieving the goals of the MSA 
and is now viewed as a model for other nations. The new ACL/AM 
requirement is reaping the tangible benefits our nation has worked so 
hard to achieve and has allowed us to move toward striking the delicate 
balance between benefit for the nation and meeting fishing community 
needs.
---------------------------------------------------------------------------
    \3\ 16 U.S.C. 1853(a)(15) (``Any fishery management plan . . . 
shall establish a mechanism for specifying annual catch limits in the 
plan (including a multiyear plan), implementing regulators, or annual 
specifications, at a level such that overfishing does not occur in the 
fishery, including measures to ensure accountability.'')
---------------------------------------------------------------------------
    At its core, the ACL/AM requirement is quite simple. It has two 
parts: (1) the permissible annual catch limit for each stock, and (2) 
accountability measures, which ensure that the annual catch limit is 
not exceeded. Or, if the ACL is exceeded, that the problem is mitigated 
or corrected.\4\
---------------------------------------------------------------------------
    \4\ 50 C.F.R. Sec. Sec. 600.310(f)(2)(iv), 600.310(g)(1).
---------------------------------------------------------------------------
    Councils have spent many hours in reshaping their fishery 
management plans to reflect the mandates of these changes and, indeed, 
are continuing to do so today. The Councils were able to meet the 
specified timelines but were not able to fully incorporate the 
methodology that was required. For example, the Gulf of Mexico 
Council's ABC Control Rule remains a work in progress. Changes to the 
ABC Control Rule have been and continue to be proposed by the 
scientific and statistical committee (SSC), but have yet to be approved 
by the Gulf Council. A control rule is an approach to setting the ABC 
for a stock or stock complex that addresses scientific uncertainty. 
Much discussion and consideration is expected to take place before the 
ABC Control Rule is close to its final form. There are additional steps 
that need to be taken to improve implementation and these steps will 
not be complete for some time to come.
    However, this hard work has all been worthwhile because science-
based catch limits have proven effective and achievable. The agency's 
most recent Status of the Stocks report found a decrease in both 
overfished stocks and stocks experiencing overfishing across the 
nation. 2011 was record-breaking year with a total of six fish stocks 
declared rebuilt--the most stocks ever declared rebuilt in a single 
year.\5\ The ACL/AM requirement is working.
---------------------------------------------------------------------------
    \5\ NOAA, NMFS, Status of the Stocks: Report on the Status of U.S. 
Fisheries for 2011 (May 2012). See also, ``Good News on the Status of 
the Stocks, A Message from Sam Rauch, Head of NOAA Fisheries'' (May 
2012), available at http://www.nmfs.noaa.gov/aboutus/leadership/
may_leadership_message.html.
---------------------------------------------------------------------------
IV. Data Poor Stocks
    One area that needs additional consideration is how to better 
manage data poor stocks. That is not to cast aspersions on the need to 
continue to improve implementation, but more to reflect the huge effort 
all Councils have made, and will continue to make, to implement the 
full intent of the MSA and make the new requirements of 2006 a fully 
working reality. The Act is fundamentally sound, but some aspects of 
implementation have not gone smoothly. Part of the reason for that is 
the expectations exceed our capability of achieving them.
    In the Southeast region, for example, our ability to provide timely 
stock assessments is severely limited in data and people, resulting in 
a fraction of the needed assessments. And assessments that are 
conducted tend to be concentrated on the species of most interest. The 
remainder, and the bulk of the species under management--so called data 
poor stocks, which are generally characterized by a sparse life history 
knowledge and only landings data, neither of which support a rigorous 
scientific approach to their management--are unlikely to ever see a 
stock assessment. Reasonably choosing legitimate ACLs for these 
species, especially those that are not targeted, is largely a 
conservative approach akin to the ``first of all, do no harm'' precept 
in the medical world. When you consider that most managed stocks fall 
into this category, you begin to appreciate the difficulties of 
managing on a single species basis much less that of an ecosystems 
management approach.
    Legislation has been proposed that would remove the requirement for 
annual catch limits for stocks that have not had a stock assessment in 
the past five years regardless of the status of the stock.\6\ This 
legislative proposal does nothing to actually improve the science or 
management of these stocks and could create more problems in the future 
if the stock becomes overfished or undergoes overfishing. In reality, 
by ignoring these stocks we push the science to the background and 
create a scientific vacuum for that species. The data poor species 
previously mentioned would effectively become unmanaged. Little science 
and no limits do not make for good management. Similar legislation 
proposes that the Secretary of Commerce may suspend ACLs for a fishery 
that has been rebuilt.\7\ The legislation would allow managers to stop 
using the very tool that allowed the fishery to rebuild in the first 
place. This is akin to lowering a speed limit on a highway to decrease 
traffic fatalities and then when the number decreases, removing the 
speed limit. This is clearly a step backward and is not helpful in 
moving forward. Proper management of fisheries requires as robust a 
science basis as can be attained. It is not possible to control systems 
well that are not well understood.
---------------------------------------------------------------------------
    \6\ H.R. 6350, The Transparent and Science Based Fishery Management 
Act of 2013, 112th Congress
    \7\ Id.
---------------------------------------------------------------------------
a. Improving Science
    It should be no surprise that we find ourselves struggling at times 
with various species. The challenges remain and will remain for many 
years, but we should continue building and strengthening the existing 
structure rather than make major changes mid-stream. That is not to say 
that we shouldn't be open to new approaches and innovative techniques. 
But we need to proceed cautiously lest we undo more than we gain.
    The requirement for federally managed fish stocks to have ACLs and 
AMs has increased the need for scientifically sound, accurate and 
timely data so that fisheries managers can ensure ACLs are not exceeded 
or implement AMs if overages occur. However, the current state of our 
scientific knowledge is neither sufficiently advanced nor adequately 
funded to achieve the desired results. Conducting individual stock 
assessments for all 537 managed stocks is not economically feasible. 
Similarly, full stock assessments are not realistic for many fish 
stocks in U.S. waters. To achieve the goals of the MSA, we must develop 
less costly ways to address data poor stocks. Stocks without sufficient 
data to conduct a traditional scientific stock assessment can and must 
be assessed using alternative, semi-quantitative methods to provide 
information to fishery managers in order to meet MSA's goals and 
mandates.
    Rather than roll back or discard fishery management tools that 
work, we must ensure fishery managers have the necessary information to 
better manage U.S. fish stocks. We need a significantly increased 
investment in science. Previously proposed legislation called for 
increased transparency in the prioritization of stock assessments and 
for NOAA to release an annual report identifying which stock 
assessments would be conducted in a given year and the needed budget 
\8\. This is a small first step in improving the science for fishery 
management. Much more importantly, we must recognize the urgent need to 
improve the data streams and the science that form the foundation of 
fishery management. This means money. I recognize the current climate 
is not favorable for additional funding, but I also realize that 
progress will be painfully slow without it.
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
    As with all things with limited availability, the high cost of 
proper implementation, including science and stock assessments, often 
leaves out lesser priority tasks and needs. It is important to keep in 
mind the need for change versus the foregone efforts to improve the 
existing system and its associated requirements. While many fisheries 
have seen dramatic improvements, the disruption in the social side of 
the equation has also been significant in many areas, unfortunately in 
a negative way. We have arrived where we are today through many tough 
decisions and sacrifice. But the investment is yielding significant and 
long lasting benefits. We still need to strike a better balance between 
the biological needs and the human dimension; the social needs. 
Investing in improvements to science can help.
    One of the downstream results of the lack of data and science is 
larger uncertainty in stock status. Larger uncertainty translates 
directly to larger buffers to compensate, at least in part, for the 
increased probability that overfishing might occur. The net result is 
fewer fish available for all fishermen. The human side is adversely 
impacted by the lack of proper science. Weakening the MSA will not 
improve the reality of this result.
b. Adapting Our Fisheries Management System for Environmental Changes
    Changing environmental impacts are already affecting the oceans and 
fisheries. Increasing acidity in the ocean is becoming an issue for 
shellfish and habitat degradation is a constant concern for fisheries 
and fishermen. Closer to home, the BP Deepwater Horizon disaster in 
2010 called attention to the need for more and better baseline data for 
our ecosystem as a whole. These impacts on the broader ocean food web 
are not yet fully understood. Not unlike how coastal managers are 
tackling the far reaching issue of sea level rise by focusing on 
individual towns and counties, we must focus on environmental impacts 
on fisheries to ensure long-term fishery health. Our fisheries must be 
resilient in the face of a changing environment and managers must be 
provided with the tools and information needed to assess the impacts of 
climate change and other environmental issues.
    One change in MSA that should be considered to ease the burden to 
communities and fishermen is a modest extension of timelines required 
for rebuilding stocks deemed overfished especially when overfishing is 
not the primary cause. However, any change to rebuilding requirements 
must be approached cautiously. The intent of such a change would be to 
achieve the goal of rebuilding the stock while not imposing unnecessary 
burdens on the multiple stakeholders of that fishery. Some overfished 
designations may have little to do with fishing. For example, the 
updated stock assessment of 2009 for gag grouper in the Gulf of Mexico 
found that the stock was overfished and overfishing was occurring. Yet, 
the cause of the low biomass wasn't necessarily fishing. The likely 
cause was determined to be the episodic mortality event from the 
numerous red tides in 2005 which added an estimated 18% mortality to 
the existing natural and fishing mortalities. This example also 
highlights the time lag and data need dilemma: the sudden decrease in 
stock size languished for four years before being analyzed and dealt 
with. This example is a stark reminder of the difficulties in 
reconciling what fishermen see on the water with the science that 
guides the management. The law must allow better adaptation for 
environmental changes.
V. Council Makeup and Transparency in Councils and SSCs
    In order for our fishery management system to function properly and 
as intended by the MSA, transparency of the Councils and SSCs must be 
improved. The overall objective for all Councils should be to maximize 
transparency to the extent possible. The easy part is allowing web 
access to meetings and records of proceedings, and ensuring the public 
has access to the decision making fora. The more difficult aspect is to 
fully get the word out and not slow the process unduly as a result of 
notification requirements. This requires constantly trying new 
techniques and make improvements as appropriate.
    From my viewpoint, the Gulf Council spends considerable time in 
this regard and does an excellent job. Yet, there remains much to be 
done in this never ending task. Improving transparency does not require 
amending the MSA. Rather, I believe that establishment of a policy to 
maximize transparency would be sufficient, and detailing specifics will 
do little to improve the achievement of this goal.
    I urge caution in any attempts to revise the makeup of the 
Councils. The overriding consideration is that balance must be achieved 
or, if balance exists, maintained. There are times when an imbalance 
occurs in Council makeup, but these should be corrected at the earliest 
possible opportunity. I find it also true that both the recreational 
and commercial sectors believe the Council is unbalanced, when, in 
fact, such is not the case. Allowing one group to have a greater number 
of seats on a Council is tantamount to establishing a biased fishery 
management regime in that Council. Stacking the deck is ultimately a 
predicate to failure. To fully and fairly discuss difficult fishery 
management issues requires input equally from all sides. This balance 
should provide the best decision achievable. I would also note that the 
larger the Council, the more the overhead becomes and, more 
importantly, the more difficult it is to reach a consensus on a 
decision. The former is important because in the era of shrinking 
budgets we need to reduce overhead, not increase it in order to most 
efficiently use the budget available. The latter suggests exacerbation 
of an already difficult decision making process. As a rule of thumb, 
the minimum number needed to attain reasonable representation from the 
various stakeholders should be the maximum size of the Council.
VI. Returning Penalty Money to the Regions
    I believe that the best use of any funding from fines and penalties 
is to improve the affected fishery from which they were derived. The 
needs of the enforcement, science and Cooperative Research Programs 
(CRP) far exceed the available monies and represent some of the areas 
for which these funds should be utilized. The use of funds that result 
from fishing fines and penalties has not been as big an issue in the 
Gulf of Mexico as it has in other regions. Regardless, the MSA should 
authorize the proceeds from any penalties and fines to go to the region 
or fishery where the fine or penalty originates, rather than to NOAA at 
large or to the Treasury. I would go further and suggest that the 
regions be allowed to design programs with associated fees and allow 
those fees, again to the extent possible, be directed back to the 
region, and more specifically to the fishery as discussed above for 
penalties and fines. While there clearly needs to be checks and 
balances in such a concept, the fisheries should be able to benefit and 
made stronger by not sending the monies derived to the General 
Treasury.
VII. Catch Share Programs and Non-Traditional Management Approaches
    As you know, catch share programs have become highly contentious, 
overshadowing an honest discussion of their advantages and 
disadvantages. I believe that such programs are neither inherently good 
nor bad. The circumstances surrounding the fisheries in question and 
the proposed structure of such a program will define its validity, or 
lack of it, for the fishery under consideration. There is no management 
scheme that will always benefit both the fishery and all the 
participants. The question really is which way of managing is the best 
under the circumstances for the biology and the social needs.
    I believe we need to be open to non-traditional management 
approaches that offer different advantages than traditional measures 
do. Doing business as we have in the past is not always best for the 
future. A case in point is Gulf of Mexico red snapper. We have a 
rapidly growing population as a result of severe management measures 
imposed to restrain catch. Now the stock is improving, expanding into 
areas where red snapper have not been prevalent for many years, and 
providing anglers with fish weighing twice as much on average than 
those 5 years ago. Yet, despite this, the recreational season grows 
progressively shorter. And traditional measures of bag limits, size 
limits and seasons don't appear to be of much help, nor does increasing 
the allocation of fish available to the recreational sector. It is 
clear that a new approach is required to alleviate this conundrum. I am 
not advocating a catch share program for this sector, but merely 
emphasizing the need to be open minded to different approaches than we 
are used to for a problem such as this.
    As such, I do not favor shelving catch share concepts unilaterally. 
Our experience with catch share programs in the Gulf of Mexico, 
however, has convinced me that there are some constraints that should 
be considered. Options I prefer include a provision to favorably allow 
new entrants, and a restriction on the amount of shares that can be 
leased. While I favor some modest constraints on catch share programs, 
I do not support highly restrictive requirements that effectively gut 
the option of catch share programs being designed and implemented. I 
believe that the Councils need that flexibility to design management 
measures that are best for their region and fisheries.
VIII. Stakeholder Credibility
    From the vantage point of my experience I have serious concerns on 
the viability of the current fishery management process. These concerns 
emanate from an increasing disenchantment of and credibility in the 
system by the many stakeholders. This problem is certainly not unique 
to one region, but the consequences of the lack of credibility are far 
reaching. The fundamental basis for fisheries management rests on 
voluntary compliance. While there will always be some people who do not 
comply with regulations, and there will always be tension between state 
and federal jurisdictions, the current environment suggests that folks 
at many levels seek to disregard Federal regulations in Federal waters. 
The thinking is much more self-centered rather than taking a broader 
view of what's best for all. In the Gulf this is being manifested on 
many fronts. States are increasingly looking for ways to maximize 
fishing for their constituents to the disregard of offshore fishermen 
and other states. Texas and Louisiana have both chosen to go 
inconsistent with federal red snapper regulations and Florida is likely 
to follow suit. There is little to no working together to resolve 
problems and disagreements. Discussions regarding regional management 
in the Gulf of Mexico are ongoing and reflect this issue and could 
result in a fragmented management approach to the same fish population. 
This does not augur well. Our goal should be to work together to 
maximize fishing opportunities for as many people as possible, within 
the bounds of a prudent scientific basis. The trend, I fear, is in the 
opposite direction. While the MSA might not be able to resolve this 
difficulty, I urge you to keep in mind that a harmonious whole is 
better than a fractious assemblage of parts.
IX. Conclusion
    The Reauthorization of the MSA in 2006 contributed significantly to 
commendable progress in reducing overfishing and rebuilding our 
nation's fisheries. Fishery Management Councils around the country, 
acting in partnership with NMFS, have used the new requirements to 
establish science-based catch limits in the vast majority of U.S. 
fisheries. The work to achieve sustainable fisheries in this country is 
not finished, but wholesale changes to MSA are not needed. I believe 
that modest improvements can and should be made to MSA to help fulfill 
its mandate and intent, while not sacrificing the nation's citizens and 
their access to a natural resource that should be fairly shared amongst 
all. We may not agree as to what constitutes fairly shared, but we 
should agree that proper fisheries management should allow for healthy 
fisheries and a populace able to enjoy those fruits without being 
hobbled by an unbalanced approach. The 2006 Reauthorization has moved 
us in the direction of striking this balance. Now, we must improve on 
these advancements rather than abandon ship.
                                 ______
                                 
    The Chairman. Thank you, Mr. Gill.
    And certainly--last, but not least, Mr. Joe Plesha from 
Trident Foods out of Seattle. Mr. Plesha, you are recognized.

  STATEMENT OF JOSEPH T. PLESHA, CHIEF LEGAL OFFICER, TRIDENT 
                      SEAFOODS CORPORATION

    Mr. Plesha. Thank you, Mr. Chairman, members of the 
Committee. Like everyone else on this panel, I appreciate the 
opportunity to be here today. I am testifying on behalf of 
Trident Seafoods Corporation. Trident was founded in 1973 by 
Chuck Bundrant. Chuck invested all of the earnings of the 
company back into the industry to where, today, Trident is one 
of the largest seafood companies in the United States.
    My written testimony focuses on a number of issues, but I 
would like to make my oral presentation deal with just one, and 
that is the need of rationalization programs to include both 
owners of processing plants and vessels when the fishery is 
rationalized.
    Most everyone acknowledges the benefits of rationalization, 
from improved conservation and incentivizing conservation, to 
increasing net national benefits to the Nation. But industrial 
fisheries like those in Alaska, an open-access fishery might 
have 6 to 10 times the harvesting and processing capacity that 
is necessary when the fishery becomes rationalized.
    Therefore, when an open-access fishery is rationalized, 
instead of lasting 1 month it may effectively go on for 6 to 10 
months. So the hundreds of millions of dollars worth of 
harvesting vessels and processing plants that had operated in 
the 1-month fishery, making a market-rate of return on their 
investments, will compete for the resource throughout the 10-
month period of time where they now can operate.
    In doing so, they will bid up the price, so that they can 
cover only their daily operating cost, or what people call 
their variable cost of operation. And they do this because it 
is better to earn one penny during this period of time than it 
is to do the alternative, which is to earn nothing.
    So, quota holders, the people who own the quota, get the 
value of the fish that is represented by the quota, but they 
also get to use the capital investments made by vessel owners 
and plant owners for free. It is an expropriation, just as 
effective as if the property had been condemned through eminent 
domain. Therefore, for that reason, both vessel owners and 
plant owners should be included in the rationalization program 
so their operations can continue after the program is 
rationalized.
    One method that has proven to be very effective in 
rationalizing fisheries in a way that includes both vessel and 
plant owners is through harvester processor cooperatives. And 
these cooperatives have the additional benefit of reducing the 
consolidation that can occur in a straight individual fishing 
quota fishery, thereby preserving jobs both in the processing 
sector and the harvesting sector. A great example of this type 
of program is the American Fisheries Act, which was passed by 
Congress in 1998, and has turned out to be incredibly effective 
in rationalizing the largest commercial fishery in the United 
States, the Bering Sea pollock fishery.
    In 2003, Congress passed legislation which instructed the 
North Pacific Fishery Management Council to rationalize a very, 
very small fishery in the central Gulf of Alaska, the Rockfish 
Fishery. And Congress passed the legislation asking that the 
Council preserve both harvesting and processing history, but 
didn't dictate how that would occur. The Council then developed 
a program with harvester-processor cooperatives, very similar 
to the American Fisheries Act, and it was proven to be very 
successful.
    Unfortunately, that provision only lasted 5 years, so it 
needed to be renewed. In the process of renewing that rockfish 
program, NOAA came out with a legal opinion in 2009 saying that 
the Magnuson-Stevens Act did not authorize harvester-processor 
cooperatives. Despite the fact that the initial rockfish 
program was developed under the Magnuson-Stevens Act, this 
opinion came from a very old 1978 NOAA general counsel opinion 
saying that you couldn't give preference to domestic processors 
over foreign processors.
    Congress very quickly changed the law to statutorily 
indicate that you could. And, in doing so, tried to clarify 
this issue of whether processors were part of the fishery. And 
I quote the Chairman of the Merchant Marine and Fisheries 
Committee saying, ``It is the understanding of the House that 
fishing in Section 3 of the Magnuson-Stevens Act includes 
processing.''
    Well, despite my opinion about NOAA's opinion, NOAA 
continues to have this position. And the reason it is a problem 
is that the North Pacific Council is considering rationalizing 
all of the trawl fisheries in the Gulf of Alaska. The industry 
is working on trying to reach an agreement about how best to do 
that. And they were talking about these same harvester-
processor cooperatives. Council members also want to see the 
option of harvester-processor cooperatives. Unfortunately, NOAA 
continues to take the position that they aren't authorized 
under the Magnuson-Stevens Act.
    So, as you move forward with reauthorization, I encourage 
you to consider this issue, and include within the 
reauthorization the authority to include these type of 
harvester-processor cooperatives within the legislation. Thank 
you very much.
    [The prepared statement of Mr. Plesha follows:]

          Statement of Joseph T. Plesha, Chief Legal Officer, 
                      Trident Seafoods Corporation

    Thank you Mr. Chairman, members of the Committee, for the 
opportunity to testify on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act). The 
Magnuson-Stevens Act has been remarkably successful in achieving the 
goals established by Congress when it was first enacted in 1976 and as 
it has been amended throughout the years. I would like to specifically 
acknowledge the work of one of the Committee members in this regard. 
Congressman Don Young was not only instrumental in the writing of the 
initial legislation back in the mid-1970s, he has been a constant 
champion for Alaska's, and our Nation's, seafood industry since passage 
of the legislation. Throughout his career Don Young has been a leader 
in Congress for our fisheries and I would like to express my sincere 
appreciation and gratitude.
    I am testifying on behalf of Trident Seafoods Corporation. Trident 
was founded in 1973 by Chuck Bundrant, one of the true pioneers in 
``Americanizing'' the fishery resources off Alaska. The company started 
in 1973 with a single boat that harvested crab in the Bering Sea. Chuck 
is one of the most focused, intelligent and driven individuals whom you 
will ever meet. He literally worked seven days a week, took 
unbelievable physical and financial risk, and invested all that was 
earned back into Trident and the seafood industry. As one of countless 
examples, in the very early 1980s, when foreign factory trawler fleets 
still harvested virtually all of the groundfish off Alaska, Trident was 
the first shorebased processing company to buy and process large 
volumes of pollock and cod from U.S. fishermen at a plant located on 
the remote Aleutian Island of Akutan. It was difficult to find markets 
for these groundfish products because foreign countries that consumed 
pollock and cod already had ample supplies from their allocation of 
fish in U.S. waters. Akutan struggled financially. Then the Akutan 
plant burned down in 1983. To the surprise of many others in the 
industry, Chuck immediately began to rebuild at Akutan. Trident now 
employees over 1,000 people at its Akutan plant and the plant is the 
largest seafood processing facility in North America, if not the world.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Trident currently has processing plants in ten different 
coastal communities in Alaska, as well as primary and secondary 
processing plants in Washington State, Oregon and Minnesota. We operate 
five floating processors, three catcher processors, fourteen trawl 
catcher vessels, four crab catcher vessels and various tender and 
freight vessels. Trident is one of the largest seafood companies in the 
United States. It is still a family-owned business, however, and Chuck 
remains its chief executive officer. His son, Joe Bundrant, will take 
over as president of Trident in 2014.
    Trident's story is a great example of how the fisheries off our 
coasts, which previously had been used exclusively by foreign fishing 
fleets, are now fully utilized by the United States fishing industry 
under the policies of Magnuson-Stevens Act.
Catch-Share Programs and the Issue of Inclusion of Processors
    My comments regarding fishery rationalization programs are focused 
on the industrial fisheries in the United States. Rationalization is 
known by many names: Individual Fishing Quotas, Individual Transferable 
Quotas, Catch Shares, Limited Access Privilege Programs, and others. 
But the basic idea is to allocate the privilege to utilize a certain 
portion of a fishery resource so that, as a result, the fishery becomes 
more economically efficient, or ``rational'' than the open access race-
for-fish. The North Pacific and Pacific councils have spent a great 
deal of time on the issues surrounding rationalization, but the 
fisheries they manage tend to be relatively large and with capital 
intensive harvesting and processing sectors.
1. Benefits of rationalization.
    Open access fisheries under-perform rationalized fisheries in every 
relevant criterion by which performance can be measured. These include: 
conservation of the resource, efficient bycatch avoidance, safety at 
sea, gross value of products produced from the resource, and the cost 
of harvesting and processing the resource. Open access fisheries 
systematically destroy the ability of society to collect net benefits 
from the fisheries.
    This dissipation of benefits in open access fisheries occurs 
because uncontrolled entry into the fishery results in 
overcapitalization. A simple example of overcapitalization is as 
follows: Imagine a fishery that is fished at the maximum sustainable 
yield, and produces one million dollars worth of fish per year with the 
services of five boats, at a total cost per boat of one hundred 
thousand dollars per year per boat. This results in a private and 
societal profit of five hundred thousand dollars per year. In this case 
each boat is earning one hundred thousand dollars of revenue above its 
total cost which includes a return on invested capital. These excess 
profits (rent) induce entry into the fishery despite the fact that the 
new capital investments do not add anything to the total catch. Entry 
continues until all the rent is dissipated. This occurs when the 
fishery contains ten boats for a total cost that exactly equals the 
value of the catch. If the price of fish doubled this would attract ten 
additional boats. The open access fishery squanders whatever societal 
benefits a fishery is otherwise biologically and technically capable of 
providing. If the cost of managing the fishery is not totally borne by 
the industry, then any fishery managed under open access becomes a net 
cost to society.
2. Does it matter who receives allocations under Catch Share programs?
    The benefits attributed to rationalized fisheries occur regardless 
of whom receives allocations of the privilege to utilize the fish.\1\ 
From the standpoint of efficient utilization of the resource, it is 
unimportant who receives allocations of quota. No matter whether 
initial allocations are granted exclusively to the owners of harvesting 
vessels, the owners of processing plants, fishermen (i.e., ``crew''), 
processor workers, or taxi cab drivers in Anchorage, Alaska, the 
rationalized fisheries will be utilized by the most efficient industry 
participants.
---------------------------------------------------------------------------
    \1\ Coase, Ronald, The Problem of Social Cost, Journal of Law and 
Economics, 3 (Oct. 1960) 1-44.
---------------------------------------------------------------------------
    As an example, the pollock Community Development Quota (CDQ) 
program allocates ten percent of the Bering Sea pollock TAC to villages 
in Western Alaska. When the CDQ program was initially implemented in 
1991, the CDQ communities had no involvement in the pollock industry 
whatsoever. The pollock resource was already being efficiently utilized 
by the existing industry. The pollock quota allocated to CDQ 
communities was simply leased by those communities to companies 
involved in the pollock fishery. It was very similar to an auction, as 
the CDQ communities generally leased their pollock quotas to the 
highest bidder. Because the fishery was rationalized--albeit into the 
hands of entities that were complete outsiders to the fishery--the 
harvesting and processing of CDQ pollock was as efficient as if the a 
pollock company itself owned the quota.
3. Why not auction the privilege to utilize fishery resources?
    At first blush, there appear to be good reasons to auction the 
privilege to use fishery resources. Our Nation's fishery resources 
belong to the general public.\2\ It would be very simple to allocate 
all the benefits of rationalized fisheries to the general public 
through a simple auction of quota. The federal treasury can certainly 
use the revenue. If auctioned by the federal government, the fisheries 
will be utilized just as efficiently as if the privileges were instead 
allocated directly to industry participants.
---------------------------------------------------------------------------
    \2\ The United States claims sovereign rights over all fish within 
the United States Exclusive Economic Zone. 16 U.S.C. Sec. 1853a.
---------------------------------------------------------------------------
    Looked at another way, if a large un-exploited stock of cod were 
suddenly discovered off a remote U.S.-owned island in the Pacific 
ocean, for example, and fishery managers wanted to rationalize it prior 
to the resource being exploited, the federal government would likely 
auction the privileges to this undeveloped resource rather than 
allocate the privileges to utilize the fishery to processing plant 
owners or fishing vessel owners based in Alaska, Washington State or 
Oregon.
    The typical progression of fisheries, however, is that we tend to 
wait until a fishery is overcapitalized through the uncontrolled entry 
process inherent in an open access fishery before attempting to 
rationalize the fishery. The fact that we tend to wait until a fishery 
is overcapitalized complicates the initial allocation process 
enormously.
4. Why fishing vessel and processing plant owners must be included in 
        rationalized fisheries.
    In a fully capitalized, open-access fishery, where the harvest is 
controlled by a single quota (TAC) that the participants race to 
exploit, the investments in fishing vessels and processing plants that 
are specific to the fishery being rationalized (and that are also 
relatively durable and non-malleable) will be lost as a result of 
rationalization. This lost investment value reappears in the value of 
the quota to utilize the resource. Wealth is unavoidably transferred 
from the fixed capital of processing plants and fishing vessels to the 
holders of quota.\3\ In other words, after an open access fishery is 
rationalized, rationalization fishing vessels and processing plants 
have little value, potentially even negative value, especially in 
Alaska where these assets may have on other productive uses.
---------------------------------------------------------------------------
    \3\ Plesha, Joseph T., and Riley, Christopher C., The Allocation of 
Individual Transferable Quotas to Investors in the Seafood Industry of 
the North Pacific, (Jan. 1992). See also, Matulich, S.C., Mittelhammer, 
and Reberte, Toward a More Complete Model of Individual Transferrable 
Fishing Quotas: Implications of Incorporating the Processing Sector, 
Journal of Environmental Economics and Management, Vol. 31(1) 112-28 
(1996).
---------------------------------------------------------------------------
    When such fisheries are rationalized, owners of fishing vessels and 
processing plants can suffer enormous financial losses. The amount of 
the loss depends upon three factors: (1) The extent the fishery is 
overcapitalized; (2) the durability (or how long it lasts with routine 
maintenance) of the physical capital in harvesting and processing; and 
(3) the degree that the capital is non-malleable (or has no alternative 
uses of near or equal financial benefit to the owner).
5. How do these losses occur?
    The mechanism at work that causes investors in fishing and 
processing capacity to lose the value of their capital investments is 
that, by definition, the overcapitalized fishery has much more capital, 
and hence daily harvesting and processing capacity, than is necessary 
to prosecute the fishery once it is rationalized. A quota holder would 
not need to own a boat or a processing plant in order to participate in 
a fishery. When a quota holder decides to participate in the fishery, 
he or she could simply hold a reverse auction \4\ among fishing vessel 
owners. The vessel owners would bid down to the point where the winning 
boat just covered its variable costs. The quota holders would then 
proceed to secure processing services with the same result. The winning 
bid for processing services would cover only the variable costs \5\ of 
production.
---------------------------------------------------------------------------
    \4\ In a reverse auction, the sellers compete to obtain business 
from the buyer and prices will typically decrease as the sellers 
undercut each other.
    \5\ Variable costs are those expenses that increase with 
production. For processors, variable costs would include things like 
direct processing labor, packaging, and increased utility charges. For 
vessel owners, variable costs would include things like fuel.
---------------------------------------------------------------------------
    As long as the price agreed upon by vessel and plant owners allows 
for any return above variable costs, processing and vessel owning 
companies have an incentive to make a more competitive offer until they 
cover only their variable costs of operation and make no return on 
their capital investments. This is a difficult concept for many to 
appreciate. Why would any rational businessman invest tens or hundreds 
of millions of dollars into an industry and later allow others to use 
that investment for free? When an overcapitalized, open access fishery 
is rationalized there is far more harvesting and processing capital 
than is necessary because instead of the fishery lasting, for example, 
one month in an open access race, under rationalization it can be 
efficiently utilized in six months; meaning there is six times more 
existing harvesting and processing capacity than necessary. Not all of 
this physical capital can remain busy during the new six-month fishery, 
but its owners will all have an incentive to keep the physical capital 
operating throughout this period. If this millions of dollars of excess 
physical capital earns one penny above the variable costs of its 
operation, its owner is better off than under the alternative of 
earning nothing. Thus, starved for production through their facilities, 
vessel and plant owners bid for product until the price reaches a level 
at which they no longer can cover their variable cost.
    The holders of quota thereby will effectively own not only the fish 
in the fishery, but also usufructuary \6\ rights to all the non-
malleable physical capital used to harvest and process those fish. This 
situation, where the quota holders enjoy free-of-charge use of physical 
capital, continues until the capital stock wears out to the point where 
only the appropriate amount remains.
---------------------------------------------------------------------------
    \6\ A usufructuary right is the right of enjoyment, enabling a 
holder of the right to derive profit from property that is owned by 
another person.
---------------------------------------------------------------------------
    Immediately upon beginning operations under a rationalized fishery, 
therefore, owners of fishery-related capital will see the return on 
their investment fall to zero. This cannot be avoided and is, in fact, 
absolutely necessary in order to de-capitalize an overcapitalized 
industry. The owners of this physical capital cannot expect to realize 
any return on their investment until the excess capital stock leaves 
the industry to the point where it is at the optimal level for the 
rationalized fishery.
    In industrial fisheries like the groundfish fisheries off Alaska, 
the financial losses described above are suffered by owners of fishing 
vessels and processing plants. Virtually every vessel and plant owner 
is a corporation; an entity invented by lawyers with the purpose of 
accumulating and investing capital for the financial benefit of its 
shareholders.\7\ These corporations are not ``fishermen.'' The 
corporate owners of fishing vessels and processing plants do not 
themselves fish or process. They are not crew aboard fishing vessels or 
workers in processing plants. (Although it is possible some of the 
shareholders might be.)
---------------------------------------------------------------------------
    \7\ Micklethwait, John and Wooldrige, Adrian., The Company, A Short 
History of a Revolutionary Idea (2003).
---------------------------------------------------------------------------
    The allocation of quota to vessel and plant owners in industrial, 
fully capitalized open access fisheries is essential to compensate 
those owners for the losses they suffer to the value of their vessels 
and plants as a result of rationalization. Some vessel owners may 
lament the fact that processing plant owners seek to be part of 
rationalized fisheries, but the rationale for including processing 
plant owners in the allocation of quota is also the only rationale for 
including vessel owners in the allocation of quota. If a corporation 
that owns a fishing vessel does not suffer losses in the value of its 
boat as a result of rationalization, there is no rational basis upon 
which it can be allocated quota.
6. One of the reasons there is industry opposition to Catch Share 
        management.
    Despite the potential benefits of rationalization, it remains 
controversial. Recently Congress has considered placing a moratorium on 
the development of any new rationalization programs. There are many who 
fear they will be negatively impacted by fishery rationalization. 
Certainly owners of processing plants in Alaska and along the Pacific 
coast collectively have well over a billion dollars at risk if the open 
access fisheries in which they have invested--and upon which they 
depend--are rationalized and processing plants are not included in the 
program.
    In the North Pacific, however, the process of developing 
rationalized fisheries tends to be inclusive of the stakeholders who 
are most impacted by rationalization. Given the potential benefits of 
rationalization, it is appropriate for the ``tool'' of Catch Shares to 
be in the ``tool box'' of options for the regional councils and 
Secretary to consider. The National Oceanic and Atmospheric 
Administration (NOAA) is a strong proponent of allowing Catch Share 
management to be one of the tools available to manage fisheries.
    One of the potentially effective ways to rationalize a fishery that 
includes both vessel and plant owners is through fishery cooperatives. 
Under this cooperative approach both vessel and processing plant 
historical participation in the fisheries is preserved. Despite the 
success of fishery cooperatives that include both vessels and plants, 
NOAA has taken the legal position that such management systems are not 
``authorized'' under the Magnuson-Stevens Act. These cooperatives are a 
tool not available in the councils' toolbox.
7. History of harvester-processor cooperatives.
    With passage of the American Fisheries Act (AFA) in October of 
1998, Congress rationalized the Bering Sea pollock fishery, the largest 
commercial fishery in the United States. The inshore fishing vessels 
and processing plants were rationalized based on the concept of 
protecting both vessel and processing plant market shares. The AFA 
allowed cooperatives to be formed and pollock quota was allocated to 
each cooperative based on the catch history of the vessels that are 
members of the cooperative. But the AFA protected a pollock processor's 
market share by requiring that each vessel in a cooperative deliver at 
least 90% of its harvest of pollock to its historical market. A fishing 
vessel that was allocated quota could not deliver anywhere else without 
their historical processor's approval. Thereby, each processing plant's 
market share in the fishery was protected, as was each vessel's. A 
vessel could move to a different processor without its historical 
processor's agreement only by fishing in the open access pollock 
fishery for a year and delivering a majority of its harvest to the 
different processor. In addition, the AFA included ``limited entry for 
pollock processors.'' No new processors are allowed to enter the Bering 
Sea inshore pollock fishery.
    The AFA's inshore cooperative system was controversial and 
immediately after its enactment some pollock vessel owners petitioned 
the North Pacific Council to amend the AFA by removing the requirement 
that a vessel deliver its pollock to a particular processor. To quote 
one of the proposal's sponsors:
        Under the language of the American Fisheries Act, pollock 
        vessels which enter into co-ops and deliver into shorebased 
        processors are prevented from forming a co-op if the processor 
        doesn't bless it first. They're inhibited in their ability if a 
        co-op is formed to get the best fair price. They are prevented 
        from entering into a co-op with a different processor in the 
        following year. And, last, they are prevented from freely 
        moving between competing buyers. We are requesting that the 
        Council consider and analyze regulations which would support 
        reasonable vessel/plant negotiations. Our proposed change would 
        allow vessels in a co-op to deliver their catch history to the 
        market of their choice. For example, if one plant would pay 
        nine cents a pound because they are producing fillets and 
        another would pay eight cents because they are producing 
        surimi, we feel that we should be able to deliver to the plant 
        with the highest price, even though we may not have been in the 
        co-op delivering to them with that processor in the previous 
        year.
Margaret Hall, Testimony before the NPFMC, (Feb. 13, 1999).
    The North Pacific Fishery Management Council did not adopt the 
proposal, instead choosing to keep the AFA's inshore cooperative intact 
while it watched how the system worked for the industry.
    The AFA's inshore cooperative structure was implemented by 
regulation in 2000 and has proven to be remarkably successful. Whether 
measured in price per pound or percentage of finished product sales 
price paid for a vessel's harvest, pollock vessel owners receive 
considerably more for their catch now than they did prior to passage of 
the AFA.
    Below is a historical review of the average ex-vessel prices 
Trident paid for pollock delivered to Akutan from 1993 to 2012. (See 
Figure 2, below.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Not only have ex-vessel pollock prices increased since passage 
of the AFA, but the value of pollock vessels has increased. But since 
passage of the AFA vessels are now bought and sold not on the value of 
the hull, but based primarily on the harvesting quota associated with 
the vessel. In 2001, for example, inshore pollock harvesting vessels 
sold at price from $1,225 to $1,250 per metric ton of quota assigned to 
the vessel. Now AFA pollock vessels sell for a price of about $1,950 
per metric ton of quota assigned to the vessel. The value of shorebased 
vessels in the pollock fishery is currently far greater than prior to 
passage of the AFA.
    The success of the AFA did not go un-noticed. By the early 2000's 
Pacific Ocean Perch, as well as Northern and Pelagic shelf rockfish 
were fully utilized by the commercial trawl industry in the Central 
Gulf of Alaska. The entire rockfish total allowable catch for these 
species was harvested in two weeks in a true race-for-fish. There was a 
statutory moratorium in place at that time which prevented the 
Secretary from approving any new Individual Fishing Quota programs. By 
2002, representatives of the trawl vessel owners and processing plants 
that utilized Gulf of Alaska rockfish were urging Congress to 
legislatively authorize rationalization of rockfish.
    In 2003 Congress passed the Rockfish Pilot Program directing the 
Secretary of Commerce, in consultation with the North Pacific Fishery 
Management Council, to rationalize the rockfish fisheries in the 
Central Gulf of Alaska. Congress required the Secretary to develop a 
program that protected the harvesting and processing histories of the 
existing participants. The legislation, however, did not direct the 
Council or the Secretary how to protect each sector.\8\
---------------------------------------------------------------------------
    \8\ The Rockfish Pilot Program legislation is short enough to 
recite in a footnote: ``The Secretary of Commerce, in consultation with 
the North Pacific Fishery Management Council, shall establish a pilot 
program that recognizes the historic participation of fishing vessels 
(1996 to 2002, best 5 of 7 years) and historic participation of fish 
processors (1996 to 2000, best 4 of 5 years) for pacific ocean perch, 
northern rockfish, and pelagic shelf rockfish harvested in Central Gulf 
of Alaska. Such a pilot program shall (1) provide for a set-aside of up 
to 5 percent for the total allowable catch of such fisheries for 
catcher vessels not eligible to participate in the pilot program, which 
shall be delivered to shore-based fish processors not eligible to 
participate in the pilot program; (2) establish catch limits for non-
rockfish species and non-target rockfish species currently harvested 
with pacific ocean perch, northern rockfish, and pelagic shelf 
rockfish, which shall be based on historical harvesting of such bycatch 
species.''
---------------------------------------------------------------------------
    In June of 2005 the Council took final action to implement the 
Rockfish Pilot Program. The program developed by the Council was 
similar to the AFA's inshore cooperative structure. A vessel was 
eligible to join a cooperative only in association with the processing 
facility that the harvester delivered the most pounds of rockfish to 
during the years 1996 through 2000. The associated processor was 
expected to negotiate an agreement with vessel owners that 
contractually limited the vessels from delivering to any other 
processor.\9\ Thus a vessel was allocated its historical market share 
and the processing plant was assured of its historical market share.
---------------------------------------------------------------------------
    \9\ Final Review Draft, RIR, EA and IRFA for the proposed Amendment 
68 to the Gulf of Alaska Fishery Management Plan, June 2005. p. 69.
---------------------------------------------------------------------------
    The Rockfish Pilot Program, however, expired after 2011and the 
Council was required to take action to renew the program. Stakeholders 
in the program initially supported rolling-over the existing program as 
evidenced by the following testimony from the same individual who 
initially opposed the AFA cooperative structure:
        Thank you. Good afternoon members of the Council. I am Margaret 
        Hall, here today representing the vessels Progress and 
        Vanguard.

        The Rockfish Pilot Program has been a wonderful benefit to the 
        community of Kodiak and the Kodiak processors. Currently 100% 
        of the CV rockfish and secondary species are landed in Kodiak 
        to associated processors. These processors hence, are protected 
        through coop agreements and the rockfish regulations correlated 
        to landings and processing history. The Council action of 
        choice preferred by many of us independent catcher vessels 
        would be to roll-over the existing program, with minor changes 
        selected after analysis.
Margaret Hall, Testimony before the NPFMC, (June 8, 2008).
    At its February 2009 meeting the Council chose to initiate an 
analysis of rolling-over the rockfish program beyond the statutory 
sunset date.\10\ At the Council's October 2009 meeting, however, the 
alternative of extending the existing Rockfish Pilot Program was 
removed from the options for analysis as a result of a legal opinion 
from NOAA General Counsel for the Alaska Region. NOAA's legal opinion 
(``2009 Opinion'') concluded that the Magnuson-Stevens Act did not 
authorize extension of the Rockfish Pilot Program.
---------------------------------------------------------------------------
    \10\ CGOA Rockfish Program Motion, NPFMC February 9, 2009.
---------------------------------------------------------------------------
    NOAA's 2009 Opinion is wrong. The Rockfish Pilot Program 
legislation itself did not provide statutory authority beyond that 
which already existed in the Magnuson-Stevens Act and the Rockfish 
Pilot Program's cooperative structure was developed by the Council and 
approved by the Secretary. As a matter of policy, it is nonsensical for 
NOAA to limit its authority to develop rationalization programs, like 
harvester-processor cooperatives, that have proven to be successful for 
a broad group of stakeholders. NOAA's 2009 Opinion seems to ignore the 
2006 amendments to the Magnuson-Stevens Act that require consideration 
of ``employment in the harvesting and processing sectors,'' and 
``investments in, and dependence upon, the fishery.'' \11\ Certainly 
the 2009 Opinion unnecessarily removes a potentially useful tool from 
the toolbox.
---------------------------------------------------------------------------
    \11\ 18 U.S.C. Sec. 1853a(c)(5).
---------------------------------------------------------------------------
    NOAA's odd legal position on this issue originates from a 1978 NOAA 
General Counsel memo that concluded the Magnuson-Stevens Act did not 
authorize the Secretary to disapprove foreign processing vessels 
applications to operate in U.S. waters just because domestic shorebased 
processors had the capacity and intent to utilize the same U.S. fishery 
resources. Congress quickly passed the so-called ``processor 
preference'' amendment giving statutory preference to U.S. processors 
over foreign operations.\12\ In doing so, Congress believed it 
clarified the fact that domestic processors were part of the fisheries. 
As the Chairman of the House Merchant Marine and Fisheries Committee, 
Congressman John Murphy, explained during consideration of the 
amendment by the House of Representatives:
---------------------------------------------------------------------------
    \12\ P.L. 95-354 (1978).
---------------------------------------------------------------------------
        In the course of our discussions of the bill, some question was 
        raised about whether the definition of ``fishing'' under 
        section 3 of the [Magnuson-Stevens Act] includes 
        ``processing.'' This question is important because the 
        [Magnuson-Stevens Act] uses the term ``fishing'' so that the 
        statute applies to the processing industry in the same 
        situations only if ``fishing'' includes processing . . . In the 
        end, we decided to leave the [Magnuson-Stevens Act's] 
        definitions unchanged on this point while, at the same time, 
        making clear the Act was intended to benefit the entire fishing 
        industry . . . [I]t is the understanding of the House that 
        ``fishing'' in section 3 of the [Magnuson-Stevens Act] does 
        include ``processing'' and that, for that reason, the proposed 
        clarification is unnecessary.'' \13\
---------------------------------------------------------------------------
    \13\ Statement of Congressman John Murphy, 124 Cong. Rec. H8266, 
Aug. 10, 1978.
---------------------------------------------------------------------------
    Because of NOAA's 2009 Opinion, however, a rationalization program 
was adopted by the Council that did not include processors and instead 
granted all the benefits of rationalization to the harvesters. The ex-
vessel prices paid in the newly rationalized rockfish fisheries, 
compared to prices prior to and during the Rockfish Pilot Program, show 
the impacts of a rationalization program that does not balance the 
interests of both sectors of the industry. Prices paid to fishermen in 
2012 nearly doubled from the previous three years. (See Figure 3, 
below.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

   8. Need for Magnuson-Stevens Act amendment.
    The Central Gulf of Alaska rockfish fisheries are very small 
compared with the other groundfish fisheries in the region. The North 
Pacific Council will begin exploring whether and how to rationalize all 
of the trawl groundfish fisheries in the Gulf of Alaska as early as 
June of this year. Vessel owners and processing plant representatives 
have been negotiating potential rationalization programs that contain 
harvester-processor cooperatives. There are also members of the Council 
who would prefer to have the option of considering some form of 
harvester-processor cooperatives as a way to include both sectors in 
the rationalized fisheries. It is not an option available to the 
Council at this time, however, due to the NOAA legal opinion.
    Shorebased processors in the Gulf of Alaska have tens of millions 
of dollars at risk and fear that they will not be included in the 
rationalized groundfish fisheries unless there is the legal authority 
to develop rationalization programs with harvester-processor linkages. 
Despite the overall benefits of rationalized fisheries, processors are 
understandably anxious about proceeding with any effort to rationalize 
the fisheries if there is a chance they may be excluded as they were in 
the most recent rockfish program.
    There are other Magnuson-Stevens Act issues I would also like to 
raise.
State of Alaska Jurisdiction Over Salmon Management in the EEZ
    The North Pacific Fishery Management Council is considering 
updating its salmon Fishery Management Plan (FMP). The Council's salmon 
FMP was last updated in 1990. The FMP does not contain some provisions 
now required under more recently adopted provisions of the Magnuson-
Stevens Act and national standards guidelines; including Annual Catch 
Limits (ACLs) and accountability measures (AM).
    Under an agreement with the federal government, the State of Alaska 
manages the salmon fishery in state waters. The salmon FMP also covers 
salmon harvest in the EEZ, outside of state waters. There are four 
salmon fisheries in the EEZ. They are: (1) the commercial troll fishery 
in Southeast Alaska; and net fisheries in (2) Prince William Sound; (3) 
Cook Inlet; and, (4) the South Peninsula area near False Pass. All of 
these EEZ salmon fisheries are managed by the State of Alaska under the 
existing salmon FMP.
    Given its long history of sustainable fishery management, the 
Alaska salmon fishery is arguably the best managed fishery in the 
world. The State of Alaska manages the salmon fishery based on 
escapement goals, so it is not clear how ACLs and AM can be adopted for 
the Alaska's salmon management.
    Because it would be extremely complicated to revise the salmon FMP 
to meet the new Magnuson-Stevens Act and national standards 
requirements, and because the federal government has no real role in 
salmon management in the EEZ, the Council might prefer to simply repeal 
the salmon FMP for the net fisheries west of Southeast Alaska, and 
allow the State of Alaska to continue management. The problem with 
repealing the salmon FMP, however, is that the State of Alaska has no 
authority to regulate vessels in the EEZ that are not registered with 
the State. If the salmon FMP were repealed, it would be possible for 
unregulated salmon fishing in the EEZ.
    One option to resolve this problem would be to slightly modify 
section 306(a)(3)(C) of the Magnuson-Stevens Act to allow the State of 
Alaska to retain management of the salmon fishery in the EEZ if the 
Council chose to repeal the FMP.
    The following simple modification of 306(a)(3)(C) would achieve the 
goal of allowing the State of Alaska to continue management of the 
salmon fisheries in the EEZ if the Council chose to repeal the salmon 
FMP.

        306 State Jurisdiction

        (a) In General--

        . . . .

        (3) A State may regulate a fishing vessel outside the 
        boundaries of the State in the following circumstances:

        (C) The fishing vessel is not registered under the law of the 
        State of Alaska and is operating in a fishery in the exclusive 
        economic zone off Alaska for which there is no fishery 
        management plan in place, and the Secretary and the North 
        Pacific Council find that there is a legitimate interest of the 
        State of Alaska in the conservation and management of such 
        fishery. The authority provided under this subparagraph shall 
        terminate while a fishery management plan under this Act is 
        approved and implemented for such fishery.
Overfishing Definition and Rebuilding Requirements
    One issue that has been faced in the Pacific coast groundfish 
fishery is the application of fishery rebuilding requirements and how 
they relate to coastal communities. Unlike many other fisheries, all of 
the species that have been designated as ``overfished'' within the 
Pacific groundfish complex have biological characteristics that require 
more than ten years to rebuild the stocks. Under section 
304(e)(4)(A)(i) of the Magnuson-Stevens Act, the council--in this case, 
the Pacific Fishery Management Council--must specify a rebuilding 
period that is as short a time as possible while taking into account a 
number of factors including the needs of fishing communities; in other 
words, balance biology and social/economic needs. Unfortunately, the 
courts have ignored this balance. In the case of NRDC v Evans, the 9th 
Circuit Court of Appeals ruled in 2005 that Congress' use of the word 
``possible'' meant that the Council must use the absolute minimal time 
to rebuild. From a practical standpoint, this means that a council has 
to start with zero fishing. To give a real life example, at one point 
the Pacific Council had a choice between a harvest level that would 
rebuild canary rockfish in January of a particular year, or a slightly 
higher harvest level that would rebuild the stock in December of that 
same year. According to NOAA's lawyers, under the court decision, the 
Pacific Council had to use the lower harvest level.
    A similar, almost humorous, problem exists in Alaska. The North 
Pacific Council has no overfished groundfish stocks, but one species of 
crab, the Pacific Island Blue King crab, is considered overfished and 
in need of a rebuilding plan, even though no directed fisheries have 
occurred for nearly two decades and the species is only occasionally 
taken as bycatch in other fisheries. The North Pacific Council is 
facing the prospect of curtailing certain groundfish fisheries because 
that is the only source of mortality it can affect even though the 
analysis shows that the expected bycatch savings will not impact 
rebuilding success.
    In summary, Congress should consider amendments to the Magnuson-
Stevens Act that allow some flexibility in its rebuilding requirements 
when a stock is considered ``overfished'' under the Act.
Reconciling the Magnuson-Stevens Act with the National Environmental 
        Policy Act
    The 2006 amendments to the Magnuson-Stevens Act directed the 
Secretary to update agency procedures so that the Magnuson-Stevens Act 
and the National Environmental Policy Act (NEPA) align and that such 
procedures ``shall conform to the time lines for review and approval of 
fishery management plans and plan amendments under this section.'' \14\ 
These procedures were to be developed in consultation with the regional 
councils and the Council on Environmental Quality. On February 19, 
2013, NOAA presented its policy directive regarding NEPA compliance to 
the councils.
---------------------------------------------------------------------------
    \14\ 16 U.S.C. Sec. 1854(i).
---------------------------------------------------------------------------
    NOAA's policy directive does not seem to coordinate NEPA and 
Magnuson-Stevens Act policies, nor improve efficiencies. Instead it 
seems to subsume the Magnuson-Stevens Act process and the councils' 
prerogatives, within NEPA.
    The regional councils cannot be exempt from following NEPA 
requirements. But the key provisions of NEPA should be incorporated 
within the framework of the Magnuson-Stevens Act and the Magnuson-
Stevens Act remain the guiding law for fisheries management.
    Thank you very much for your consideration of these comments.
                                 ______
                                 
    The Chairman. Thank you, Mr. Plesha. And I want to thank 
all of you on the Committee for your testimony. And I 
particularly want to thank you for the timing of your 
testimony. That is very, very much appreciated, because we do 
have a lot of Members that want to ask questions.
    I will recognize myself now for 5 minutes for my portion of 
the questioning.
    I didn't hear any of you in testimony say that the 
Magnuson-Stevens Act should go away. You all said that it ought 
to be reauthorized, but there needs to be whatever--whatever 
involved with that. And the one whatever, I guess, would be, 
while it is working, the implementation, how the Act works is 
where the criticism may come.
    Now, that being the case, if that is a fair assumption on 
my part--well, let me just ask that. Is that a fair assumption 
on my part, that if there is criticism of the Act, it is the 
implementation thereof, various areas? We will go right down. 
Yes?
    Mr. Jones. Yes.
    Dr. Shipp. I think that is a large part of it. Not all of 
it, obviously.
    The Chairman. I understand that, yes.
    Mr. Dooley. Yes, I agree with that statement.
    The Chairman. OK.
    Mr. Pappalardo. I agree.
    Mr. Logan. Yes, sir, I agree, too.
    Mr. Gill. I agree that it is the majority of it.
    Mr. Plesha. I agree completely.
    The Chairman. OK. That being said, then it seems to me, at 
least from my perspective, because all of the regional councils 
are different, they have a different constituency, they have a 
different fishery, they have different stock, so it would just 
seem to me--and I know the definition of what I am going to say 
may be interpreted in a different way, but it seems to me, when 
you talk about flexibility, from my perspective, that 
flexibility should allow each council to have, obviously, more 
flexibility within their area.
    Now, the challenge that we are going to face is how that 
means one council decision may conflict with another council. 
That is the balancing act that we have.
    OK. You have heard my assessment. Can I ask each of you if 
you would agree that ought to be the approach and the way the 
Committee should look at reauthorizing MSA? Let's go right down 
the list again.
    Mr. Jones. I do, Mr. Chairman, and I believe that there 
were words that--in the main flexibility--that is, putting the 
determination of the ACL back into the council, rather than the 
SSC. That you could, in that change, allow any council who 
wanted to stay like they are, whether it be a----
    The Chairman. Right. I understand. I mean I understand the 
conflicts. We have heard about SSC and how that interacts with 
the catch limits, and all that. I am just simply saying, from a 
matter of potential policy, the flexibility that is being 
desired is flexibility to address those issues more on the 
regional level than the national. That is what I am asking.
    Mr. Jones. Yes, Mr. Chairman.
    The Chairman. All right.
    Dr. Shipp. Yes, I concur with what Bob said. The lack of 
flexibility comes from the constraints put on the councils in 
the last reauthorization, especially regarding the SSC. But 
yes, sir.
    The Chairman. OK, all right.
    Mr. Dooley. I would agree with that, too, that the regional 
level would be the better place for this to happen, not 
mandated nationally.
    The Chairman. OK.
    Mr. Pappalardo. I believe that the regionalization is the 
way to handle the issue. However, I think the flexibility that 
we seek in New England is to have a scientific cycle in sync 
with a management cycle. And because that is not the case 
today, we do not have the flexibility to react in--actively or 
proactively manage our fisheries.
    The Chairman. Captain Logan?
    Captain Logan. Yes, Mr. Chairman, I agree that the 
flexibilities would be handed down to the councils to be able 
to have flexibility in their fisheries, because they know how 
their fisheries are being fished and also handled at the time.
    The Chairman. Right.
    Captain Logan. Also, the rigidity of the SSC needs to 
really be looked into, because this is having a big impact on 
the flexibility that is handed down from National Marine 
Fisheries and NOAA to each of the fishery councils. Thank you.
    The Chairman. Mr. Gill?
    Mr. Gill. Yes, Mr. Chairman, I agree and recognize that is 
a huge challenge.
    The Chairman. All right. Mr. Plesha?
    Mr. Plesha. Mr. Chairman, I think the regional council 
system of the Magnuson-Stevens Act is the genius behind the 
Act, and the councils should be as flexible as possible.
    The Chairman. All right. With that in mind--and I thank you 
very much. I mean what I tried to lay out here is the challenge 
that we are going to face in trying to do this with a national 
act. It is not the easiest thing that we have.
    But when NOAA has gotten back--just one example--dealing 
with the catch limits is only one idea. I know it faces all the 
other areas you are talking about. And the mere fact that their 
rewrite of how to do the national guidelines is now taking a 
little bit longer is evidence that there needs to be a way to 
resolve that.
    OK, listen. I very much appreciate that. That is a good 
starting place, I think, for us, as we go forward. I recognize 
the Ranking Member, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. Mr. Pappalardo, in 
your testimony you mention the difference in the frequency and 
quality of stock assessments that underpin management of two 
New England fisheries: Atlantic Scallops and Northeast 
Groundfish. Do you think we need a comprehensive, end-to-end 
review of the stock assessment process?
    Mr. Pappalardo. I do. If what is meant by that is what I 
mentioned earlier, the syncing of science and making it 
available to managers, I think one of the fatal flaws that we 
have between the two fisheries is in groundfish the fishing 
industry has absolutely no involvement in the collection of 
data or assessment data for managers to consider. By contrast, 
in the scallop fishery, the scallop industry conducts the 
assessment, their own assessment, the government conducts 
theirs. They get together on an annual basis, and there is 
agreement that it is working.
    Mr. Markey. Well, I do believe it has to be comprehensive. 
And let me ask this. What needs to happen for the successful 
cooperative science and management program in the scallop 
fishery industry to be replicated for groundfish?
    Mr. Pappalardo. Well, for starters, I think we need to 
create a space outside of the council arena that will allow the 
industry and other agencies and perhaps academic institutions 
to get together and solve this problem. Right now we are 
getting assessments every 3 to 5 years. We are essentially 
trying to manage our checking accounts with 3-year-old data. 
And I think the scallop industry and what they have done stands 
as an example of what we would like to have in other fisheries.
    Mr. Markey. And so, in your opinion, what role can 
technology play in improving fishery management and maximizing 
healthy stocks? Would improvements in electronic catch 
reporting and monitoring benefit fishermen and fish stocks?
    Mr. Pappalardo. Thank you, sir. Yes, absolutely. There are 
technologies currently in use in other parts of the world, as 
well as in other parts of the country, that would rapidly take 
information from the fishing grounds and get it to the 
managers. Within a day, within 2 days. Currently, the reports 
from the human observers that we are required to take on our 
boats take 6 to 9 months to get to the management table. I 
think that is unacceptable.
    Bank of America or any other institution can manage 
millions of accounts on a moment-by-moment basis. But when it 
comes to about 600 fishing boats in the groundfish industry it 
takes 6 to 9 months to figure out what the heck just happened. 
That is no way to manage.
    Mr. Markey. You are saying in a modern world, with 
technology available.
    Mr. Pappalardo. That is right.
    Mr. Markey. So, I know that many of the fishermen in 
Massachusetts, especially those who target groundfish, are 
hurting right now. I have been working with others in the New 
England delegation, including Mr. Keating, to secure economic 
disaster assistance funding for that fishery. And I will 
continue to do so.
    In the immediate term, though, what actions can the Federal 
Government take to provide fishermen with a bridge to the other 
side of recent quota reductions?
    Mr. Pappalardo. Thank you, sir. In my written testimony I 
mentioned--I believe I mentioned a bill that was filed by now-
retired-Congressman Frank that talked about re-purposing some 
of the SK funds that the Nation collects, and making them 
available to the regions to handle their issues on a region-by-
region basis. I think that would be an interesting place to 
look.
    In addition, I know that there are other programs available 
to other industries, whether in agriculture or livestock, where 
businessmen have access to Federally backed capital. I think 
that is something that some fishermen may find attractive, as 
they can make a transition into another fishery.
    Mr. Markey. And finally, if we could, what impact are the 
warming oceans due to climate change having, for example, on 
the cod and lobster industries in New England and across the 
country?
    Mr. Pappalardo. Certainly playing into our ability to 
rebuild some of these resources. I am not a scientist in 
training, but I can tell you that when you have a depressed 
stock like codfish on Georgia's bank, and you have a 
requirement to rebuild it, having an imbalanced ecosystem with 
lots of different stocks and different levels, as well as 
climate change, if you will, makes that task much more 
difficult.
    Mr. Markey. So what does a warming ocean mean for that cod? 
Do they need colder water in order to survive than warmer 
water?
    Mr. Pappalardo. I would say that we have always known we 
have the southern end of the range of that resource. That is 
what the scientific literature tells us. However, we are not 
sure if this is a cyclical issue, in terms of water 
temperature, or not. I know the waters this year have been 
relatively cold, and there is some hope amongst some of the 
fishermen that it will translate into a good year.
    Mr. Markey. Great. Let's hope so. Thank you.
    The Chairman. I thank the gentleman. I will now recognize 
Dr. Fleming, the Subcommittee Chairman dealing with oceans, for 
5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman. And, gentlemen, thank 
you for coming before us to testify. In NOAA's testimony on 
page five it says--and I quote--``Without high-quality fishery 
science, we cannot be confident that the Nation is attaining 
optimum yield from its fisheries.
    Now, I have heard it mentioned several times that we really 
need to rely on science, we need to be more precise. But the 
truth is stock assessments are being done less and less 
frequently and less and less accurately. And, as a result of 
that, the estimates are always leaning in the conservative 
direction toward less and less fishing. And what we hear from 
NOAA when they come and testify, they talk about their budget, 
they say that we are not funding them enough. But then, if you 
actually look at their budget, their budgets have increased 
dramatically over the years.
    But here is what we are finding. NOAA has been redirecting 
its budget into climate science, with a budget increase of $112 
million, which is an 8 percent increase, in the environmental 
satellite program last year. And, at the same time, fisheries 
were cut $15 million, 1.6 percent.
    So, it seems to me that we are starving this aspect, the 
science part of this, the precise part, creating overly 
conservative estimates. And, really, in many cases, probably 
under-fishing. And I think some of the testimony here is that 
we are actually not even coming close to the allowable amounts 
in some cases.
    So I would like to hear from the panel. I would like to 
open this up. Do you think that NOAA is using the funding in an 
efficient manner, and certainly with respect to catch-shares 
and fishing in general? Yes, that will be fine, we can start at 
that end.
    Mr. Jones. Thank you, Mr. Chairman. No, I don't think that 
they are using it the way it should be used. I think that the 
NOAA people in our part of the world would be glad to have 
enough funds to do the stock assessment work if they had the 
money. I don't think they have a say-so of how much money comes 
their way. I think that decisions to reprogram money that could 
be used is really what is hurting us bad. And if we could get, 
in the South Atlantic, maybe $500,000 or $1 million--we are not 
asking for hundreds of millions--to do basic work on our stock 
of red snapper, black sea bass, and other things, it would pay 
significant dividends.
    Dr. Fleming. Well, and I will point out to you that one 
satellite, one climate satellite, costs as much as $750 
million. Yes, sir.
    Dr. Shipp. Yes, sir. Stock assessment science is very 
expensive, and especially it is in a transition phase right 
now. Previously, stock assessments were based on fishery-
dependent data, the catches from the fishermen, which 
inherently is biased and flawed. And we are moving toward stock 
assessments based on fishery independent science. That is 
expensive. And just in the last few years, I think the Science 
Center has started to move in that direction, but it is very 
slow.
    When you consider the complexities of a model of a 
hurricane track or a winter storm track, and 3 days out you 
lose almost all your reliability--and we are looking at stock 
assessments with a 30-year or a 20-year projection--who can 
have confidence in that? So I think that is one of our 
fundamental problems.
    Dr. Fleming. Again, the question is, is NOAA efficiently 
using its money or improperly funding or under-funding the 
stock assessments and the science that go with that, and 
putting the money elsewhere in perhaps an inefficient manner? 
Real quickly, because I am running out of time.
    Mr. Dooley. I would--a short answer is going to be hard to 
give you. I would say that--and I will use a particular 
example, West Coast Groundfish rationalization, the catch-share 
program. Because of that tool, we have now been able to form 
cooperatives and been able to take some of the management away 
from NMFS, so they should be able to--like catch accounting in 
our particular whiting cooperative, for instance, resumes 98 
percent of that burden.
    Dr. Fleming. OK, I am running out of time. Let's hear just 
yes or no among the other panel. Is NOAA doing a good job of 
efficiently funding the catch-shares program, the science, the 
surveys that go with that?
    Mr. Pappalardo. I don't know about NOAA's budget, but I can 
tell you we are not getting the information we need to manage 
our fisheries.
    Captain Logan. No, sir, we are not getting the information 
we needed to manage our fisheries through NOAA.
    Dr. Fleming. OK.
    Mr. Gill. The fishery's money is under-funded. Whether it 
should be different priorities, I couldn't tell you. But there 
is not enough money to do it correctly at the fisheries level.
    Mr. Plesha. I concur the highest priority should be 
scientific survey work.
    Dr. Fleming. So it seems the consensus of the panel is 
that, definitely, the science of surveys is well under-funded, 
and that data is not reliable. And, most likely, where we 
appear to be overfishing, we are probably, in a sense, under-
fishing, compared to what we are being told and what is being 
appreciated.
    I thank you gentlemen, and I yield back, Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I thank 
the witnesses this morning.
    Well, the heart of the Magnuson-Stevens Act is to protect 
our fisheries. In 1976, it prohibited foreign fishing vessels 
from fishing in our waters. I represent Guam. This has not been 
the case in Guam. We find them within our 200-mile Exclusive 
Economic Zone.
    I am committed, however, to finding the right balance with 
economic impact to our local fishermen. I am disappointed, 
however, that none of our panelists here directly represent the 
Pacific area, and yet we have representatives from Hawaii, the 
CNMI, myself, and Mr. Faleomavaega from American Samoa. So I am 
disappointed in that.
    Your testimonies this morning have not addressed the very 
big problem of illegal, unreported, and unregulated fishing. 
Our fishermen are being cheated across this country. Catch that 
rightfully belongs to law-abiding citizens is taken by vessels 
from foreign countries that illegally enter our waters and 
fish. These bad actors unnecessarily compete with legally 
captured seafood from American fishermen. Illegal and 
unreported catch also biases the catch estimate used in stock 
assessments.
    IUU vessels are less likely to adhere to management 
measures. In Guam, this may be preventing the traditional use 
of protected species such as the Green Sea Turtle. Throughout 
the Pacific, limited harvest of Green Sea Turtles is allowed, 
but is prohibited in Guam, CNMI, and Hawaii, and perhaps even 
Samoa. Targeted or incidental catch of Green Sea Turtles by IUU 
vessels may be limiting the recovery of the Green Turtle 
population.
    This is not a problem for just Guam. According to the 2011 
commercial fisheries data, of the top 100 U.S. ports affected 
by job loss due to IUU fishing, 24 are in the Gulf of Mexico 
and 18 are in Alaska.
    Around one in five fish caught in the world were done so 
illegally. So I am interested in your thoughts, Mr. Plesha. 
Given the problems that Alaska has with not only IUU fishing 
but also importing of illegally caught products, many of which 
are mislabeled, do you believe that legislation like my bill, 
which is H.R. 69--are you familiar with that bill?
    Mr. Plesha. Ms.----
    Ms. Bordallo. No? Well, let me just say it amends the High 
Seas Driftnet Fisheries Enforcement Act, the High Seas Fishing 
Compliance Act, the Northern Pacific Halibut Act, and the 
Magnuson-Stevens Fishery Conservation and Management Act. By 
amending these Acts we revised the violations, the penalties, 
the permit requirements, the port privileges, the IUU sanction, 
and other enforcements.
    So, I would like to get your feelings on this. Do we need 
more tools to protect our seafood industries and fisheries?
    Mr. Plesha. Thank you very much. Mr. Chairman, members of 
the Committee, I very much do believe that we need to 
strengthen our IUU enforcement----
    Ms. Bordallo. Could you speak up a little?
    Mr. Plesha. Yes. I very much do believe that we do need to 
strengthen our IUU enforcement. I spoke 2 years ago on behalf 
of Senator Murkowski's and Senator Begich's legislation to 
accomplish that, and I haven't seen the specific provision you 
are talking to, but I very much support the effort.
    Ms. Bordallo. Thank you very much. And again, I have other 
questions for the next panel, but Mr. Chairman, I do think we 
should place our interest more into the Pacific area. It is the 
largest body of water in the world. Thank you.
    The Chairman. The gentlelady yields back her time. The 
Chair recognizes the gentleman from New Jersey, Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. And my first question 
is going to be for Captain Logan. Obviously, up in my district, 
in New Jersey, I have quite a few charterboat captains. And I 
have heard many complaints about Magnuson-Stevens from disgust 
over lack of access to rebuild stocks and poor science 
resulting in reductions in the catch. And the big one is really 
fear of the future of catch-share programs being imposed on 
them.
    The lack of access to rebuild stocks has really seemed to 
hit the biggest nerve, especially in New Jersey, where 
recreational fishermen have begged for greater access to black 
sea bass for years. I witnessed this myself, many times.
    What is, in your opinion, the biggest regulatory hurdle, as 
a charterboat captain, to sustain your business?
    Captain Logan. Our biggest regulatory hurdle now is not 
having the flexibility in the bill for the fishery councils to 
manage the fisheries that they need to manage at their local 
level.
    And the funding from NOAA that has been taken from NOAA 
used in places to provide us with the data that we need to 
collect for studies of our fisheries, like it was stated 
earlier, we are dealing with 3- to 5-year-old data for our 
fisheries. And that data just isn't up-to-date. It wasn't 
available soon enough after it was collected. And that is 
what's hurting the fishermen.
    As far as you mentioned catch-shares earlier, it seems that 
the East Coast fishermen are 100 percent against catch-shares. 
Catch-shares is not a management tool. It is a last resort to 
our fisheries. Catch-shares gives individual rights to fish. 
Our ocean belongs to everyone, not just individuals that have 
the right to fish it.
    Mr. Runyan. Thank you. And the other one is for Bob Jones. 
You said in your statement when you were talking about the 
balance between economic and social, how do we make the 
change--obviously, it is in the law, but how do we make the 
change to strengthen it and make it, I don't know, in the 
forefront, and make it part of the process? Do you have any 
ideas on that?
    Mr. Jones. I do. I think that you need to lean on NOAA. 
That is who is going to make the definition. That is who is 
going to write the regulations. They know that they are 
supposed to consider social and economic aspects, because that 
is in the law, but we are just in a state in this particular 
time where we seem to be only looking at the fish itself, and 
not the things that should be included, as far as the optimum 
yield.
    And so, I think the law already requires them to look at 
that. I think what we perceive, whether we are right or wrong, 
is they are just not doing it to the extent that we think we 
are getting enough information.
    Mr. Runyan. It is probably the same answer, but you also 
said in your testimony when a fishery is closed, there is no 
fishery-dependent data being produced that can be used in 
future stock assessments. Is it still kind of the same thing as 
leaning on them, or trying to put some more pressure on them?
    Mr. Jones. Well, yes, sir. You need to lean on them hard. 
They are a tough group for us to deal with. There are a lot of 
good people, and we respect them. They have great employees. 
But under their policies, some of the policies, it just doesn't 
give us opportunity to see what they are doing, how you are 
doing it, what are you doing now, how can we best work 
together. You can't manage a fishery just looking at the 
harvest level, because if you put caps on the harvest level, 
then you are manipulating what product is coming in. So you 
need to look at everything.
    But the main problem with the system is we just don't have, 
we think, access to how the system works, as far as getting the 
stock assessment.
    Mr. Runyan. In other words, transparency?
    Mr. Jones. That would solve most of our angst in the 
Southeast.
    Mr. Runyan. Thank you very much. With that, I yield back, 
Mr. Chairman.
    The Chairman. I thank the gentleman. The Chair recognizes 
the gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman, and thank you all 
for being here. It is kind of rare when you all agree on one 
thing, which is that you are not getting information, 
sufficient information, to manage the fisheries. And we all 
know that the amount of seafood that the United States is 
basically importing from elsewhere is about 90 percent of what 
is being consumed. So that is a very striking number, as well.
    So, given the fact that the other thing we can all agree on 
is the fact that the oceans are not just us--in other words, it 
is not just within the jurisdiction of NOAA and the United 
States, you have other parties and players that are dealing. As 
the gentlewoman from Guam says, we have concerns about our 
territorial and jurisdictional waters, as well.
    So, given all of this, the question I have for each of 
you--and you can just go down and answer it--is if you are not 
getting the information you need to manage the fisheries, and 
if it looks like we are importing seafood into the country, 
versus being able to sustain ourselves, and we agree that the 
MSA is a good law, and the fisheries--I think one of you said 
that the fisheries, the regional fisheries is the genius behind 
the Act, tell me how is it that we are ever going to get to the 
point when we have players that we have no control over, and we 
are importing, and you are not getting sufficient information, 
tell me what you think would be the reasonable way a Committee 
like us should begin to look at this issue. It looks like we 
are just going around and around in a circle.
    So, given that, you can start on the left and work your way 
down. And remember, we have about 3 minutes left, so keep it as 
concise as you can.
    Mr. Jones. I am not sure I can answer that. I don't know 
how to get where it is that we need to be. And when you bring 
imports into this situation, there is always going to be that 
amount of imports, because we just can't produce enough fish to 
make up for that.
    Dr. Shipp. Yes, my main problem is that we are just totally 
obsessed with the concern about overfishing and not nearly as 
concerned about achieving optimal yield, as we should be. And 
part of that is sometimes translated in the buffers that are 
put in. But I think that is where we need to go. Let's focus on 
achieving optimal yield.
    Mr. Dooley. I agree with Dr. Shipp on that, also, that we 
need to focus on optimum yield. But I think we need to, more 
than that, focus on increasing research and increasing research 
to define the stocks and to do good research. And maybe get the 
agencies less into accounting for fish and for managing the 
fishery that way, and maybe partnership with industry to do 
that so that it frees the Agency up to do research, and I would 
also add to that enter in a collaboration with the stakeholders 
in doing research.
    Mr. Pappalardo. Well, I think certainly species that cross 
international boundaries are difficult to manage, and we have 
to do our best through these international agreements. I have a 
little bit of experience with that. But for those stocks that 
are under our control, under our purview, I think we need to 
focus on rebuilding them and maintaining them at rebuild 
levels.
    The fact that we are importing so much seafood, I find that 
disturbing. I know for a fact that in some instances, as we 
have taken upon ourselves rebuilding of resources, we have lost 
market share. And gaining back that market share in a globally 
traded commodity is very difficult. So I think that there may 
be ways for this body or other bodies within Congress to look 
at, as our stocks come back, price support or government 
contracts to buy some of the seafood that we have rebuilt, 
until the private industry, private market, can re-establish 
market share.
    Captain Logan. We are at 92 percent import of fish to the 
United States with 8 percent being caught by the commercial 
fisherman here in the United States. And this is largely in 
play with Magnuson-Stevens, with the restrictions that have 
been put on the fishermen, not being able to catch fish. 
Obviously, if we were allowed to catch more fish and still keep 
the sustainability, we would be able to produce more fish for 
the United States.
    Yes, we cannot provide everybody with fish here in the 
United States, but we can definitely do a whole lot more for 
our part of it. And the biggest problem is we are not--NOAA is 
not letting us meet our maximum level of fisheries that we can.
    Mr. Gill. My suggestion is that the Committee focus on the 
things it can control, and let the other ones react and be a 
result. So the focus should be maximizing the domestic 
fisheries, and whatever happens relative to imports will 
happen. We can't do any more than the maximum that the 
fisheries can sustain.
    Mr. Plesha. And thank you. I would first of all like to 
correct the record on just one item. We also have a plant in 
Hawaii.
    And second, with regard to your question, I think it is 
important to recognize the U.S. industry exports a lot of 
seafood products, as well. And with regard to imports, what we 
can do is make sure that there are only legally harvested fish 
imported into the United States, and support strengthening of 
the IUU regulations. Thank you.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Young [presiding]. Thank you.
    Dr. Wittman. Thank you, Mr. Chairman. And I want to go 
straight to Dr. Shipp. I want to ask you a question. Do you 
think that NMFS should consider data from fishermen, from 
academic institutions, from third parties, in order to improve 
fishery access through the acquisition of better data?
    Dr. Shipp. Yes and no to several.
    Dr. Wittman. OK.
    Dr. Shipp. From individual fishermen, yes, but with the 
caveat that those data are going to be inherently biased. From 
research institutions, that is where you are going to get your 
best fishery independent data.
    Dr. Wittman. Tell me. Why do you believe the data from 
fishermen would be biased?
    Dr. Shipp. Well, for example, let's take the red snapper 
commercial fishermen. They are focusing on a 2- to 4-pound 
fish, because that is where their biggest profit margin is. 
When those data go into the model, the model may interpret that 
as, well, the fish are too small. We don't have enough big 
fish. When, in fact, that is a result of the targeting of those 
smaller fish.
    Dr. Wittman. Well, let me ask you this, then. What can NMFS 
do, then, to better improve access in the Gulf to the red 
snapper fishery?
    Dr. Shipp. If you are talking about the commercial guys, I 
think they are in pretty good shape. They have an IFQ program 
that----
    Dr. Wittman. Well, access is across the board. So not just 
the commercial side, but----
    Dr. Shipp. But for----
    Dr. Wittman [continuing]. The recreational side.
    Dr. Shipp. For the recreational fishermen I go back to my 
initial testimony. We need to turn it over to the States for at 
least the first 20 fathoms, because the regions of the Gulf are 
so very different from one area to another, to manage the whole 
Gulf as a single unit is extremely difficult and not nearly 
what we need to produce optimal yield.
    Off of Alabama, we could have a year-round season, two fish 
bag limit, and it wouldn't make a dent in our population.
    Dr. Wittman. Got you. Thank you, Dr. Shipp. Mr. Plesha, I 
want to go to you. I know in Alaska there has been a catch-
share program that has been developed there. And in your 
testimony you talk at length about catch-shares being a tool in 
that tool box for fishery management decisions, and that these 
should be options for the regional council and for the 
Secretary.
    Can you tell me, do you think it would be harmful if catch-
shares were completely taken off of the table as a fisheries 
management tool?
    Mr. Plesha. I think it would be. I think there are 
fisheries, especially the fisheries that are industrial, like 
those off of Alaska, where catch-share programs have proven to 
be very successful, not just for incentivizing conservation, 
but for maximizing the benefits to the Nation. And when I mean 
that, I mean not just the producers, but the consumers, as 
well.
    So, I think it is a tool that is useful to continue to have 
within the Act.
    Dr. Wittman. How about Alaska's rationalization program? 
You talk about that. Can that success in the rationalization 
program in Alaska be replicated in other areas around the 
United States?
    Mr. Plesha. I feel very uncomfortable speaking for other 
regions in the United States. I just know that it has been 
successful in Alaska.
    Dr. Wittman. All right. Let me ask you. In your view, the 
use of fishery cooperatives are an important component of the 
catch-share programs. As you know, this shared vision planning 
where people talk about the issues, talk about how do you 
manage in a cooperative way these fisheries, especially 
including the harvesters of the resource up front, and making 
those management decisions.
    What could NOAA do to better encourage fishery 
cooperatives, or those types of concepts, as they make 
fisheries management decisions?
    Mr. Plesha. Well, in the case of the fishery cooperatives 
in Alaska, they really have been based around harvester-
processor linkage and both harvesters and processors being part 
of the cooperatives. Unfortunately, NOAA has considered that to 
be not authorized under the Magnuson-Stevens Act.
    So, one of the things they could do is either change their 
legal opinion, or the Act can be amended so that is clarified, 
that those type of cooperatives, which have proven to be very 
successful, are allowed to be developed by the councils under 
the Magnuson-Stevens Act.
    Dr. Wittman. Very good. Mr. Dooley, I want to go to you. I 
know that, through the process, there has been a lot of 
discussion about having NMFS consider data collected by 
fishermen, that observational data, that real time out there on 
the water. My son is a commercial fisherman and he tells me all 
the time, ``Dad, let me tell you what I am seeing,'' and it is 
not showing up in the decisions that are being made by National 
Marine Fisheries Service.
    What can be done to encourage the National Marine Fisheries 
Service to be more active in considering data collected by 
fishermen in their management decision scheme?
    Mr. Dooley. I think several things could be done. One in 
particular that is being used in the North Pacific right now is 
most of the fishing vessels that I operate or operate around 
have very high-tech sounders and sonars. And these are of the 
same quality as they use in the research vessels. And there is 
an effort to collect that data from vessels while they are 
fishing. And it is black box data, cannot be manipulated. It 
comes directly from the receiver. It is very comparable to what 
is being collected. And it is used to augment and to prove what 
they are seeing in the research charters that they are doing, 
that NMFS is doing. So, I think that is a very good way to do 
it.
    We have also--actually, this last year in the whiting 
fishery, we had a biannual survey. We needed a mid-year survey, 
because we had what we believed was a survey that dropped the 
quota of whiting almost in half, and we didn't believe it was 
warranted, from what we were seeing on the grounds. So industry 
funded a boat and crew and completely funded it, and followed 
with an anchovy survey and teamed with NMFS to do an alternate 
survey. And that survey proved to be very fruitful, and it 
looks like the quota--they are deciding that now--will be back 
up and what we had said was true.
    So, I think those type of interactions are very, very 
useful. Industry funded it, industry supported it, and the 
agency collaborated with it, and it worked out very well.
    Dr. Wittman. Very good. Thank you, Mr. Chairman, and I 
yield back.
    Mr. Young. Mr. Sablan. You, you are up.
    Mr. Sablan. All right. Thank you very much, Mr. Chairman, 
and good morning, everyone.
    Mr. Chairman, I ask unanimous consent that a statement from 
Matt Ruby, the President of the South Atlantic Fishermen's 
Association, be included in the hearing record.
    Mr. Young. Without objection, so ordered.
    [The prepared statement from Matt Ruby submitted for the 
record by Mr. Sablan follows:]

      Statement Submitted for the Record by Matt Ruby, President, 
                 South Atlantic Fishermen's Association

    The South Atlantic Fishermen's Association (SAFA) appreciates the 
opportunity to comment on efforts to reauthorize the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA), which is set to expire 
in September. The MSA is fundamental to ensuring that federal fisheries 
are sustainable, and SAFA generally supports the reauthorization of the 
MSA. For that reason, SAFA would like to take this opportunity to raise 
two critical issues for the Committee to consider: management tools 
authorized by the MSA and improvements to data and science.
Improving Data and Science by Working with Fishermen
    Much of the criticism of fisheries management relates to the 
quantity and quality of data and science used by managers. Science and 
data questions have led to mistrust of the regulators by fishermen, 
concerns about the reliability of established catch limits, and in many 
cases, these questions have led to bad management decisions.
    The MSA provides an opportunity for Congress to address some of 
these data and science issues, by leveraging the resources of 
fishermen. The Federal government has finite resources available to 
handle collection of data for fisheries management. Those resources are 
further constrained by continued pressure on the Federal budget. Thus, 
changes must be made in order to make improvements in these areas by 
leveraging the resources of fishermen to help achieve the goals of the 
MSA.
    Thus, the National Oceanic & Atmospheric Administration (NOAA) 
should be increasing its collaboration with fishermen to collect data. 
Fishermen are on-the-water. The data and information that they collect 
can and should be more effectively utilized by the government to 
improve the science supporting fisheries management. By encouraging the 
use of vessel monitoring systems and/or on-board observers, the agency 
could also further improve the quality and reliability of the 
information collected. Moreover, by engaging with fishermen, NOAA can 
build trust and get access to important data that can help better 
inform the agency in the development of management plans.
    SAFA is a willing partner with Congress and the agency to both 
develop and implement methods to improve data collection and improve 
the scientific methods used to assess historical stocks that are data 
poor in the region.
Ensuring a Broad Suite of Management Tools
    The MSA authorizes a number of different management tools, and also 
provides for local decision-making in fishery management through 
regional fishery management councils. Among the management tools 
considered and authorized by Congress when the MSA was reauthorized in 
2006/2007 were limited access privilege programs, commonly referred to 
as catch shares.
    Catch shares have been in existence in U.S. fisheries for decades, 
and have proven to be an effective tool for managing many federal 
fisheries. Unfortunately, some in Congress have attempted to eliminate 
their use as a management tool. SAFA is opposed to such efforts and 
urges the Committee to maintain catch shares as a management tool in 
any reauthorization of the MSA.
    SAFA strongly believes that fishermen should have the ability to 
consider all fishery management options and choose those that are best 
for their businesses and the future health of the fisheries in which 
they work. The MSA provides valuable tools to achieve those objectives, 
including permitting councils to consider catch share programs. There 
is no justifiable reason for Congress to withhold a management tool--
particularly one like catch shares that has proven very effective in 
some cases--when stakeholders in a region want to explore the use of 
that tool.
    Our members strongly support efforts to improve fishery management 
and have been active stakeholder participants with the regional 
councils, NOAA, and Congress to do just that. But previous legislative 
proposals introduced in the prior Congress by Reps. Runyan (H.R. 1646, 
H.R. 2772, and H.R. 6350) and Pallone (H.R. 594 and H.R. 3061) 
undermine the process and the very efforts being undertaken by the 
councils to preserve jobs, improve the livelihoods of fishermen, and 
sustain our fishery resources. We hope that as the Committee considers 
the reauthorization of the MSA, it will not pursue similar approaches 
as those proposed in those bills, especially as it pertains to catch 
shares, rebuilding timelines, or flexibility.
    Finally, we continue to believe that through the MSA Congress 
established a good approach to managing the resource--namely, the 
regional fishery management councils which are predominantly comprised 
of stakeholders in the fisheries. The council process, while it may not 
be perfect, is an effective means of ensuring fishermen input in 
decision-making on critical issues of management and conservation. It 
must be preserved.
Conclusion
    SAFA stands ready to work with the Committee on making improvements 
to the MSA in order to bolster the data and science that is badly 
needed for our federal fisheries. It strongly opposes efforts to 
restrict the use of catch shares, or to make the implementation of 
catch share programs more difficult. It supports preservation of the 
regional fishery management council system.
                                 ______
                                 
    Mr. Sablan. Thank you very much, Mr. Chairman. Good 
morning, everyone.
    In the Northern Mariana Islands, fishing has been a central 
part of our culture, and a critical source of food for over 
3,000 years. Because our lives are so closely tied to the 
ocean, sustainable management of fisheries in the Western 
Pacific is necessary for our very survival.
    Some of the witnesses today have said that the Magnuson-
Stevens Act has made our fisheries management overly cautious. 
A friend of mine is opening a restaurant in a couple of weeks 
from now, and he told me that on top of the door to his 
restaurant he is going to say, ``Hunters''--because his last 
name happened to be Hunter--so he says, ``Hunters, fishermen, 
politicians, and liars, welcome.'' And I said, ``Why 
fishermen?'' And he says, ``Well, because they usually talk 
about the big one that got away.''
    But my fishermen, those that actually catch fish, tell me a 
different story. They say that the fish they catch today are 
smaller than they used to be, and that they catch fewer of 
them. In our case, the culprit is illegal fishing, as Ms. 
Bordallo had spoken earlier about, by foreign fleets. But 
overfishing of any kind harms coastal communities, and 
particularly those of us in the Pacific Islands and in the 
island communities.
    So, let me start by asking Mr. Gill. You mentioned, sir, in 
your testimony that the requirement to end overfishing and 
establish science-based catch limits has been beneficial to 
many fisheries. Could you please give us a couple of examples?
    Mr. Gill. Thank you, sir. I will be happy to. Our red 
snapper in the Gulf of Mexico is an example where, prior to the 
implementation of the Magnuson-Stevens Act and ACLs, AMs, the 
fishery was constantly overfished, and overfishing was 
constantly occurring, resulting in almost a 50 percent 
reduction in the available fish for fishermen to catch. And 
today, 5 years later, it is roughly doubled in size, in terms 
of what fish can be caught, and the fish themselves have 
roughly doubled in size, as well. And it is an example of hard 
ceilings creating a lot of pain, but they also permit the 
regrowth of the fishery.
    Mr. Sablan. And so you are telling me--and if you are--you 
are explaining how continued overfishing and a failure to 
rebuild fish stocks would impact your business and others like 
it.
    Mr. Gill. Could you repeat that please, sir?
    Mr. Sablan. So you are actually saying--and if you are, can 
you explain how continued overfishing and a failure to rebuild 
fish stocks would impact your business and others like it?
    Mr. Gill. In the seafood business, the fish house is 
dependent on, generally speaking, many species but, more 
importantly, a high volume. Because the profit margin in the 
fish house is extremely slim. And the only way to accrue 
sufficient funds to keep operation requires a volume of fish.
    If you have overfishing and the quotas go down, they can't 
catch as many fish. And so that imperils the fish house 
viability.
    Mr. Sablan. Yes. And because I am really trying to also 
reconcile in my own mind how we prevent overfishing as an 
intention of the Act, and yet also achieve optimum yield. And 
so I am going to try to continue to reconcile that, because I 
think we can achieve optimal yield, once we stop overfishing. 
That is just my thought for now.
    But let me go to Mr. Pappalardo. Sir, many people have 
blamed fishery management tools like catch-shares and sectors 
for pushing off small business--small-boat fishermen. So what 
strategies has your organization adopted to keep people in 
business? And can those strategies be helpful to fishermen 
elsewhere?
    Mr. Pappalardo. Thank you, sir. We have invested money, we 
have borrowed money, we have bought fishing permits and fishing 
quota, and we hold it in trust for our fishermen in our 
community to access at drastically reduced rates. So we have 
essentially formed a buying cooperative where we have bought 
access to the fishery and make it available to fishermen. I 
think that there is a model there that could be shared with 
other regions in the country.
    Mr. Young. Mr. Southerland?
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Jones, I 
wanted to ask you. You made reference in your testimony about 
the ban on red snapper fishing in the Southeast region, and you 
said that was passed on a 7 to 6 vote with very incomplete 
data. Can you just kind of elaborate on that a little bit?
    I wasn't aware of the vote, and as far as the slim margin 
of the vote. But kind of just give us some understanding of, 
first of all, when that was, when the closure was instituted, 
how much warning people had that it was coming, and then I am 
going to ask you a follow-up question or two.
    Mr. Jones. OK, thank you, sir. It happened over 2 years 
ago, and the South Atlantic Ocean from the Virginia line all 
the way to Key West has been closed to red snapper fishing by 
everyone. No recreational, no commercial. During the time it 
was going on, and testimony was given, by even members of the 
Council, we understood them to say that the information, the 
scientific information, is imprecise and incomplete.
    And we, the industry, wanted more information on what the 
science really said. We begged for stock assessments, we begged 
for information. But the way I remember it, they were on a time 
schedule, they had to accomplish certain things by a certain 
date, and so the motion was made to ban all fishing, the vote 
was 7 to 6 in open session. And therefore, it became banned 
from that point.
    Mr. Southerland. So it is 2 years old. There is probably no 
way to be able to measure the economic impact, or the 
devastation as a result of making that decision with little 
data, at least data that was less than conclusive.
    You know, I look at our national standards for fisheries, 
Section 301, and I look down here at the 10 standards that 
councils are to use. Then we do something as drastic as total 
closure of a fishery. And one of the 10 says that, to the 
extent practicable, minimize the adverse economic impacts on 
communities. Do you feel that was followed on a 7 to 6 vote 
with little to no good data or information to make the 
decision?
    Mr. Jones. Absolutely not. I don't believe----
    Mr. Southerland. So, therefore, you believe that the 
Council that is supposed to be looking out for the regional 
interests violated one of the 10 required objectives that they 
are chartered to follow.
    Mr. Jones. I would put it another way. I would say that the 
Council may not have adhered to the requirement they have in 
the same manner that we would have preferred. But they did not, 
in our opinion, ever consider anything but the biological 
standpoint of that particular fishery. And the economic impact 
to every person who is in the charterboat business, 
recreational business, hotels, motels, restaurants, you could 
get a calculation. But it would be higher than most people 
think.
    Mr. Southerland. Sure.
    Mr. Jones. I think it was a political vote, and that 
happens in situations.
    Mr. Southerland. So, has there been a stock assessment done 
since the 100 percent closure of the red snapper in the South 
Atlantic?
    Mr. Jones. I don't think there has. I am sure that the next 
witness will tell you where they are. But we don't see anywhere 
near what needs to be done. The industry itself had to come up 
with about $20,000 to establish a tagging program to where we 
would pay a charter boat to allow two marine biologists from 
the State lab to come out and tag fish. That is the only 
tagging that I know about. And they know that we are not 
satisfied, no one is satisfied with what they are doing on the 
science.
    Mr. Southerland. Thank you very much. Dr. Shipp, a quick 
question, and I see my time is quickly leaving me.
    You made reference to the explosives that are being used to 
remove rigs, especially over in your neck of the woods, south 
of Alabama, Mississippi, Louisiana, and that they are literally 
killing--I saw the news article, the new story done by a Mobile 
news channel that showed thousands upon thousands of red 
snapper floating dead in the water.
    And I am amazed that when you look at all those fish--and 
obviously all those fish that are dead are not counted in the 
assessments, because I have asked NMFS numerous times, most 
recently during the field hearing in Panama City last year, 
``Do they count fish that are on artificial rigs,'' and the 
answer was no, they do not--you, sir, represent a State and 
live in a State that makes up 40 percent of all of the red 
snapper landings in the Gulf of Mexico. So an enormous haul, 
basically, for a State that has gotten to that point because of 
artificial rigs.
    I have run out of time. I will come back to that. But so--
--
    Dr. Shipp. I hope you do.
    Mr. Southerland. I am so sorry. I am so sorry. I think it 
is a topic that is worthy of greater exploration. And when we 
say that we cannot increase taxes on hardworking families that 
are making their living fishing, and yet we have the ability to 
go out and remove reefs with explosives that kill tens of 
thousands of fish, and we refuse to count those fish, it 
undermines the credibility of the institutions that have the 
responsibility to manage the fish. And so there is no trust, as 
long as that kind of stuff continues. That was my point. I 
yield back.
    Mr. Young. Thank you. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman, and Ranking Member, 
and all the witnesses. You know, I am a new Member and I am 
here primarily to listen, to learn. I represent a coastal 
district in Southern California. We have a thriving 
recreational fishing industry, probably as large, if not 
larger, than even commercial fishing.
    Recreational fishermen are working with NOAA and the State 
of California to reduce bycatch in new and innovative ways. For 
example, currently our local recreational fisherpeople have 
been working with the State, NOAA, and an NGO to develop 
devices to reduce trauma and the death of fish that live under 
very high pressures after being brought to the surface. They 
developed descending devices that bring rockfish back down to 
the depths, where they are able to regain their functions and 
swim away.
    And what I am concerned about--now this is switching a 
little bit--is how we continue collaborative partnerships 
between recreational fisherpeople, NOAA, the State, and NGO's. 
So I am interested in how MSA can continue to bring all the 
stakeholders to the table. That is really what--including the 
recreational fishing people, to address some of these issues 
about bycatch, overfishing, how we can end that, how we can 
continue science-based management, which all of you have said 
is definitely needed, how we can create sustainable fisheries 
that support our communities and really do yield optimal yield, 
and so how we would create this balance.
    So my question, really, is for Mr. Dooley from Central 
California. And it really has to do with how the council 
process works, in terms of stakeholder input. Do you feel there 
is an adequate, first, understanding by the public of how the 
council works, or how our councils work? And does that need 
improvement?
    Mr. Dooley. Well, speaking from that perspective, from the 
Pacific Council, particularly----
    Dr. Lowenthal. Yes.
    Mr. Dooley. I think the Pacific Council does an excellent 
job of reaching out. I think it is well represented at the 
Council meetings by the public, by the industry. It is a very 
good process.
    Speaking of the catch-share process and its development, it 
was developed from the bottom up. Many stakeholders involved 
worked hand-in-hand with the Council and the agencies to put 
together an excellent program.
    I think, speaking to what you said earlier about 
recreational and the entire fishery, how do we get it 
sustainable, well, I think it really gets to one word: 
accountability. We have total accountability in the 
rationalized fishery. In the trawl, in the catch-share program, 
it is 100 percent--in most cases, 200 percent--observed. The 
cost of that is very high, that is a big issue; we need to talk 
about that. But talking about sustainability, you will never 
know what is being taken out of that ocean until we know--and 
have an accountable system for everyone, from recreational all 
the way through every commercial fisherman, to understand what 
is being removed and understand how to deal with that.
    So, I think accountability is very important. Catch-shares 
help bring that to fruition. We are paying for it in our catch-
share program. We are having subsidies at this time that are 
going to disappear from the government that are helping them. 
There are many issues with that. I would love to go into that 
with you in depth if you ever have the time. But I would--you 
know, there are a lot of issues there. But I think 
accountability is really important.
    Dr. Lowenthal. Do you think that this kind of--you 
mentioned how, in the Council--and the Pacific Council has 
really included the input of the public now greatly, and you 
really like that--do you think that has helped to reduce 
litigation?
    Mr. Dooley. There has been litigation against this program, 
a couple of cases.
    Dr. Lowenthal. Yes.
    Mr. Dooley. However, I was active in this whole process 
from the very beginning. It took 7 years, 8 years, to get 
this--with many committee-level meetings and hours upon hours 
of council time and agency time to put together a program that 
took into consideration communities, took into consideration 
control limits to maintain the flavor of small communities, so 
that they don't disappear, to not let excessive consolidation 
happen. This program did that.
    I think the undoing of it, the undoing of all that good 
work, may be the cost. Because observer cost is very high. 
There are many other costs, a cost recovery for the program, 
there are several costs that move into this, the buy-back loan 
that is sitting out there at a 7 percent interest rate, and 
taking 5 percent off the top of the fishery. Those things are 
things that we need to deal with, to go forward.
    However, the benefits to sustainability, the elimination of 
discards, the elimination of bycatch, a reduction of bycatch, 
are things that are just shining examples of a well-run, 
properly executed catch-share program, and a well-run fishery.
    Dr. Lowenthal. Thank you. And I do wish to continue this 
discussion with you.
    Mr. Young. Thank you. Mr. DeFazio.
    Mr. DeFazio. Thank you, Don. Mr. Dooley, I am well aware 
what an extraordinary burden has been placed on the West Coast 
fleet with the physical observers. And I find it very 
interesting, your comments here on page five. I have been 
urging a move toward some sort of electronic monitoring. But 
you raise an issue here, and I want to investigate what you 
have seen going on here. You are talking about--it sounds to me 
like we are dealing with the FAA. I mean they are famous for 
over-designing, re-designing, over-designing, I mean they have 
been trying to implement a new air traffic control system now 
since I have been in Congress, and that is 27 years, and they 
still haven't figured out what it is.
    So, I am curious about your observations on where NOAA is 
headed with electronic monitoring. And you are talking about, 
you know, they are headed toward a Cadillac, we could work with 
a Chevy. Does the technology for the Chevy already exist? Is it 
off-the-shelf? Could we get that out there quickly? And what 
are they headed toward here?
    Mr. Dooley. Thank you. Absolutely, the technology is there 
for a Chevy. We have that. There is also technology being 
developed for the Cadillac.
    However, the one word that has been said here today most is 
flexibility. Flexibility is key. Not one tool fits all. You 
don't design one system and say, ``Oh, that is great, everybody 
gets to use it.'' There are fisheries that are full retention 
fisheries. If you are fishing dover, you can keep everything 
that you catch and bring it in. These guys are coming in now 
with less than 2 percent that they put over the side. They 
could bring that to town. All they need on that boat, rather 
than a $450-a-day observer, all they need is a camera that 
documents whether you have had a discard or not.
    And that is very, very low-tech, very simple, very little 
data to review. It has been in use before in the hake fleet, 
that camera system was used on the inshore hake fleet and very 
successfully. But now we all have observers that are costing a 
lot of money. And they are going to cost more.
    You know, Alaska just instituted an observer program that 
is upwards of $1,000 a day for observer costs per person. They 
are instituting a 1.5 percent or 1.25 percent, I believe, fee 
to all participants to fund this on their ex-vessel value. 
However, this only achieves a 15 percent observer rate and 
observer coverage. If you went up to 100 percent observer 
coverage on that model, nobody could afford to fish.
    Mr. DeFazio. Right. So what, specifically, are they looking 
to add in the data monitoring that would make it more like a 
Cadillac? And are those necessary parameters or are they just 
over-designing here?
    Mr. Dooley. I think there are desires to have speciation, 
to understand what every fish is that is going over the side, 
and somehow absolutely quantify how much is being discarded. 
And those type of camera systems, although they may be possible 
in the future, they are expensive right now. And I think that 
we need relief right now.
    We need relief from these costs right now. Because 
particularly in the case of West Coast rationalization, we have 
many small ports up and down particularly--I mean California 
and Oregon have small ports with small fishing vessels. Four 
hundred and fifty dollars a day for an observer is unbelievably 
expensive, and it is a big portion of their income. If they 
were allowed to use less high-tech methods, and cheaper 
methods, they could survive.
    Mr. DeFazio. OK. And then just your observation on maximum 
sustainable yield, optimal yield, and the rollover issue. This 
has been a problem for some folks. I mean you get locked out by 
bad weather, you got a quota but you can't fish it, and you 
can't roll it over. What kind of response have you got from 
NOAA on that?
    Mr. Dooley. It is a problem with the ACL language, I 
believe. It makes it----
    Mr. DeFazio. So it is just the language. It is not 
necessarily a biological issue, where they say, that would 
create a stock problem if you fished a little more one year and 
less another.
    Mr. Dooley. I have heard no proof to that. I have heard 
some people could have that concern. But like I mentioned in my 
testimony, fish don't have calendars. Some years they run over 
from one year to the next. Just the way the fish present 
themselves. This is a biomassive fish of many species. Some 
years they will be over the calendar year, or some years they 
don't show up at all.
    So, if you under-harvest one year, I believe you should be 
able to average this over the long term, to obtain optimum 
yield.
    Mr. DeFazio. All right, thank you. Thank you, Mr. Chairman.
    Mr. Young. Thank you. I want to thank the panel. This has 
been interesting to me. I am sorry I was a little late.
    But, Captain Logan, I understand the State of South 
Carolina once owned a fish survey vessel. Do they still own it? 
And, if so, could it be used to supplement Federal fishery 
surveys for important species such as black sea bass and red 
snapper?
    Captain Logan. Yes, sir. They own the research vessel 
called Palmetto. It is funded through the Marpac program. And I 
have talked to Colonel Taylor, who is head of D&R, and they do 
not have any problem at all in helping with the Federal funding 
to make sure that we get the right data that we need.
    My personal opinion is we need to defund NOAA. We need to 
take the money away from them. They are taking that money and 
using it somewhere else, instead of using it on our fisheries. 
Give it to the States. Like Mr. Shipp said, he said 20 fathoms. 
I look at 50 fathoms. Let each State govern their fisheries out 
to 50 fathoms. Give that money to them, let them do the 
research. Most States are already proving that research through 
creel clerks now that are doing these surveys. We can get a 
whole lot better data that way, it is a whole lot more 
controllable, and we know where the money is going, and it is 
not being misused.
    But, yes, sir. That vessel is there, and they are willing 
to use it. They just need the direction of where to go. And the 
biggest problem they've had with that vessel is when they do 
get a order from NOAA, they send them out to a area where there 
is no live bottom. It is all mud bottom. There is no live 
bottom in that area. Many occasions we have been out charter 
fishing or commercial fishing, that boat has been there, and we 
call them up, say, ``Hey, what you guys doing?''
    ``Oh, we are doing research, blah, blah, blah.''
    ``Well, hey, you need to come over here, this is where the 
rocks are. Over there is just muddy bottom for miles and miles 
and miles.''
    ``Well, we can't leave this grid. We are stuck in this grid 
here. This is the area we have to fish in.''
    So they are not sending them to the right places. They are 
sending them places where it is mud. Fish live on rocks. They 
live on structure. They need the good information to get them 
there. That is why they need to talk to the fishermen.
    Mr. Young. Well, but what I am interested in--I was 
listening to--I believe it is, let me see, what is it, Dr.--
what is the last name?
    Dr. Shipp. Shipp.
    Mr. Young. Shipp. You know, I am mature and I can't see as 
far as I used to see.
    [Laughter.]
    Mr. Young. I tell you there are much better-looking women 
now than there was when I was 18. I can tell you that right 
now. You all look good.
    [Laughter.]
    Mr. Young. But I am interested in the council. It bothers 
me about NOAA and NMFS, that a lot of this studying is being 
done, I would say, by people that don't really understand 
fisheries. And it is like doing studies on a mud bottom, for 
instance. That is silly.
    Why couldn't we use the information that you can collect 
from those black boxes, as long as it is sacred, and make sure 
that they have to use it also? I am thinking about something in 
the bill that would make them have to use this information, 
instead of relying on, well, we don't have the money, or we 
can't do the study, and making, actually, recommendations that 
don't make sense. Because there is other documentation that 
gives them better information. So, if we can make them do that, 
I think that would work.
    And I happen to like the idea of the States being involved 
in this. As long as there was some cooperation amongst the 
council, so it isn't--one State isn't killing all their fish, 
and sort of like Russia is doing now in Alaska, killing all 
their fish, and then come over and getting the other State's 
fish. So that is something we want to work on.
    I do think that there is some improvement we can make to 
the Act itself. I want to suggest to all of you to write 
something up that makes sense.
    I am not happy with NOAA nor NMFS right now--they all know 
this--because I think they spend an awful lot of money, like 
the gentleman brought up the fact about blowing up oil rigs 
with dynamite and killing fish. That does not make sense. 
Frankly, you would be better off leaving the rig there, or 
taking some divers and cutting it off. It was put in there one 
time by individuals.
    So there are a lot of things I think that can be done to 
make sure this Act works--now, rationalization works. You can't 
overfish a fishery if it is properly rationalized. And that is 
something that people should recognize.
    And I am proud of what Mr. Plesha has said. The fact is, we 
have a pretty good fishery in Alaska. Can there be 
improvements? I think if we get more cooperation from NOAA and 
NMFS, better recognition about what is endangered and what is 
not endangered. The idea that we are killing sea lions by 
overfishing the area, finding out it was the orca whale that 
was killing them. But orca whales are protected. I mean I can 
go on and on and on about this.
    But the sustainable yield, one thing that does concern me--
and I am lecturing now, but you have to put up with me, because 
I have the gavel.
    [Laughter.]
    Mr. Young. What bothers me the most, I have heard two 
statements about we import 92 percent of our fish that we 
consume. That may be true. But the value of our fish is, in 
fact, it is not farm-raised. And in Alaska, that is one thing 
that drives me absolutely nuts. They are willing--and NOAA has 
promoted this, and we have stopped it so far--they want to put 
fish farms off our shores. And I argue that will destroy the 
wild Alaskan salmon, which is the most valuable species we 
have, with all due respect to the red snapper and the grouper, 
and the rest of those bottom fish, the salmon is the most 
valuable fish, and they are willing to destroy it by raising 
more. And their argument is, ``Well, we are importing so much 
fish.''
    I don't think we can always supply all the fish wild. I 
will tell you that. If they want to raise them in a lake, man-
made or something, I am all for that, if they want to do it. 
But don't mess with offshore, wild fish by contaminating it 
with something that, to me, does not make sense. I mean that is 
my little lecture for today.
    And, Mr. Holt, did you have anything to say, or do you want 
to just be quiet?
    [Laughter.]
    Mr. Young. You are recognized.
    Dr. Holt. That was a leading question, Mr. Chairman.
    [Laughter.]
    Dr. Holt. Well, there is a lot to still discuss. And so, I 
would like to take my time, if I may, Mr. Chairman.
    Let me begin with Mr. Pappalardo. Your organization was an 
early adopter of catch-shares. I would like to know why you 
chose it, and what the benefits have been. Maybe you have 
addressed this, but I think it is important enough, it is 
probably worth going over again.
    When I think of the alternative to catch-shares, I think of 
the old movies of the Oklahoma Land Rush. People charging out 
at midnight. But the difference is in the land rush they didn't 
destroy the land. Here, I am afraid, the alternative is harming 
fisheries. And so I would appreciate your thoughts on that, 
please.
    Mr. Pappalardo. Sure. Thank you, sir. The genesis for our 
organization requesting a catch-share through the New England 
Fishery Management Council was at the time we were managing 
fisheries through what we call input controls, or how many days 
you can fish, how many pounds you can bring in on a day, things 
of that nature. And the resource we were most dependent on at 
the time, Georges Bank cod, was in bad shape and going down.
    And so, we knew the reaction from the Council was going to 
be to reduce us to such a small amount of days and such a small 
amount of pounds that it wasn't viable to turn the key on the 
boat and go fishing. So we went to the Council and asked them, 
``Translate our historical catch of this species into a 
poundage, and we will live and work within this zone on Georges 
Bank. We don't go into other areas. But give us the pounds. 
Allow us to convert the days and the trip limits into pounds.'' 
So it was a preservation issue that forced us to ask for a 
catch-share.
    Additionally, we didn't like the common practice, because 
we had trip limits, of once you hit that limit you have to 
throw over the very thing you hope to catch the next day. So, 
it was to eliminate discards as well, sir.
    Dr. Holt. And the experience, how would you describe that?
    Mr. Pappalardo. It gave our community and the fishermen 
within it much more flexibility to decide when they wanted to 
fish, how they wanted to fish, where they wanted to fish. And 
it allowed them to not have to throw over the resource.
    Dr. Holt. Thank you. Mr. Gill, my constituents are 
concerned about reports of seafood fraud, improper 
substitution, illegal substitution. It is not good from a 
consumer point of view. I would like to understand what it is 
from a fishing industry point of view, or individual 
fisherman's point of view.
    Mr. Gill. Thank you, sir. Well, it is a bad practice by 
whomever practices it. And it smears, if you will, the entire 
industry from top to bottom.
    Dr. Holt. Well, in light of the legislation that we are 
talking about here, is there anything to be done about it?
    Mr. Gill. Not that anything comes to mind. The difficulty 
is that one piece of fish is very difficult to tell, after it 
is cooked, from another. And so it is the unscrupulous----
    Dr. Holt. Mr. Dooley, Mr. Jones, would either of you point 
us toward any policy steps to address this? OK, yes, please.
    Mr. Plesha. One of the things that can be done is through 
FDA enforcement actions. FDA has really not taken any sort of 
lead in enforcing seafood fraud, whether it is short weights, 
whether it is mislabeling of species. That is really an issue 
within the jurisdiction of that agency. Their enforcement 
ability is, unfortunately, not able to spend the resources 
necessary to make sure that doesn't occur. But there are 
already laws in placed to prevent it, if it were enforced 
properly.
    Dr. Holt. But because the fishery regulations require 
identifying the catch, there is a certain amount of enforcement 
here, particularly in catch-shares and other, of how many we 
are taking in, does that not translate into some control over 
how it is sold, how it is marketed? Or not at all?
    Mr. Plesha. Forgive me for saying this, but the Agency 
takes the position that the Magnuson-Stevens Act doesn't allow 
for regulation of onshore processing activities.
    Dr. Holt. Right.
    Mr. Plesha. So that is not something that, within that Act, 
is able to be managed.
    Dr. Holt. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Young. Bless your heart, you even finished before your 
time was up. That is good.
    Mr. LaMalfa, you have questions? Welcome, by the way.
    Mr. LaMalfa. Thank you. Earlier in the testimony, when I 
was here, Mr. Gill, I think you alluded to the Magnuson-Stevens 
Act creating a system to involve stakeholders. Do you feel like 
it is weighted well enough to the stakeholders that actually 
have the investment? Or could more be done to have greater 
input from the people who are really out there with the 
investment, and trying to make a living from it, as opposed to 
stakeholders that usually just come in with demands?
    How do you feel about that ratio, or that weighting of--
because what I am frustrated by in other avenues is that people 
can come to the table and make demands, but they don't have the 
investment, they don't have the years of service, they don't 
have the risk out there. They can just simply make demands and 
then industry has to jump through the hoops. How do you feel 
about that stakeholder ratio? And anybody else on the panel 
that would like to speak to that, as well.
    Mr. Gill. Thank you, sir. I think one of the things that we 
do need in proper fisheries management is as much involvement 
with the stakeholders as we can get. The difficulty comes--
before I get to the ratios--in that the process is so complex 
that it is very difficult for the average person to understand. 
So it takes a huge amount of time and effort to understand 
where--what part they might play.
    Having said that, the difficulty for either the commercial 
or the recreational fishermen is in order to participate you 
have to sacrifice whatever else you are doing to participate. 
So the folks, the NGO's that have--that is their job, don't 
have that burden.
    What we typically see at council meetings tend to be the 
same folks from recreational or commercial participating in the 
process, because they are deeply invested in contributing to 
that process. And I praise them for that. However, there is a 
huge body of folks that are not in that mode. And part of it is 
the barrier to participating is huge.
    Mr. LaMalfa. Meaning that you are busy doing your job, more 
or less, yes?
    Mr. Gill. Yes, sir.
    Mr. LaMalfa. Yes, I had that same frustration. I am a 
farmer in my real life, too. So as a younger man, having to go 
down to Sacramento all the time and go to meetings, like, well, 
why can't we just do our job? But I get that. So you have to 
get more people involved to be heard on that, on the invested 
side, on the stakeholder side, they live or die by what is 
going to happen with the possible regulation, or others that 
really don't have anything in the game. So thank you.
    Anyone else on that? Yes, sir.
    Mr. Jones. Thank you, sir. I think that having a way for 
the stakeholders to believe that their attendance is going to 
matter is where effort needs to be focused. Because so many of 
the fishermen, they have to take off, they have to spend their 
money, they may have to drive from Florida to North Carolina, 
they are going to get 3 minutes, and I know that you can't 
filibuster, but they just get to the point to where they go, 
they make that commitment, they try to be heard, but you can't 
say much in 3 minutes. And they sometimes feel that the 
decisions are already made. Whether that is true or not, I 
don't know. But that is what they get. And so it is hard to get 
them to say, ``Come on, let's go back again, let's do it over 
again, it will matter.''
    So, if there was a way--and I don't have the answer--how 
you can get the stakeholders to believe that what they have to 
say matters would be a big step forward.
    Mr. LaMalfa. That is correct, I run into that, too. Farmers 
and ranchers, they see there is yet another government agency 
doing a dog-and-pony show somewhere that they feel like, ``Am I 
doing any good here? Is this wasting my time? Because I still 
have to make a living.''
    And so we do need to infuse more confidence that they are 
going to be heard, and actually take it into account. They have 
the meetings where they draw the nice pictures and such on 
butcher paper up there and say, ``Oh, yes, we are going to take 
this back and use that as part of our decision,'' but people 
feel like the decision has been made, and it is not going to go 
their way on the industry side.
    So, I would encourage you and your colleagues to show up 
anyway. You have to fight the fight, and you have to make 
yourselves be heard and on the other side they have to feel the 
heat. And so hang in there.
    Mr. Young. I thank the gentleman. And I hope you don't have 
the feeling that we short-shrift you in these hearings. This 
has gone on quite a while. Most of you need to go to the 
restroom, I can tell by looking at you.
    [Laughter.]
    Mr. Young. But I am not going to let you go yet. I was 
interested in the observer program. And, Joe, this is just for 
halibut, right, the $1,000?
    Mr. Plesha. Mr. Chairman, it is a way that the North 
Pacific Council can get observers on smaller boats in the Gulf 
of Alaska that currently don't have any observers at all, is to 
charge everyone within the industry and then place them on 
vessels where they think it is appropriate. A relatively low 
percentage, but it is vessels that traditionally have not had 
observers.
    Mr. Young. Now, where does the $1,000 a day come in?
    Mr. Plesha. That is the first I have heard of that price.
    Mr. Young. Well, someone mentioned that. Yes, sir?
    Mr. Dooley. Our Executive Director, Brent Paine, sat on the 
observer committee when they put this together and is 
intimately acquainted with what the costs and such are. He told 
that to me, that it is north of $900 a day right now, 
approaching $1,000, for the government to provide an observer.
    Now, I know it is kind of technical stuff, but when the 
government does the observer program, their--I am sure I will 
get it wrong, but they are subject to the Fair Labor Standards 
Act, or something, which makes them pay an hourly wage for 
observers, as opposed to the observer programs that we, like in 
the pollock fishery or the whiting fishery, use a pay-as-you-go 
the industry pays for. Those are done on a daily rate.
    We pay, in Alaska, somewhere around $330 to $350 a day, we 
pay it ourselves. When the government does it, it is three 
times as much. I think it is--so there needs to be some work in 
this front to reduce these costs.
    Mr. Young. Well, I am interested for another reason. I 
argue that observer is probably the worst thing that can happen 
to the sustainable yield rationalization, because the observer 
is human, he can be corrupted. He can be put into the trawl net 
and solve some problems.
    [Laughter.]
    Mr. Young. He could be a drunk. And I am arguing--I go back 
to the idea of equipment that can--the camera that can be 
tampered with, like a State scale, or the black box which you 
are talking about gives us better data. And that is what we are 
going to base our rationalization on, is good data. And that is 
something we would like to look at, because I just think the 
observer program wasn't in the original Act to begin with, it 
was put in there because we wanted some better data for NOAA to 
make decisions on the quota.
    And I am saying let's go beyond the mule skinner now and 
get into the computer age--and I am way beyond that--but in the 
computer age we can do better studies so we know exactly what 
the sustainable yield is, and rationalization is justified, not 
by someone sitting smoking a cigarette or playing his video 
game. Because there is no standard, as far as I know, about an 
observer.
    And $1,000 a day, that pays better than we do right here in 
Congress. I want you to know I have been thinking about that.
    [Laughter.]
    Mr. Young. Anyway, Mr. Garcia?
    Mr. Garcia. Yes, sir.
    Mr. Young. Welcome aboard. You just about missed it. You 
would have been out of luck.
    Mr. Garcia. No, no. I am all right, Mr. Chairman. I met 
with some of the witnesses already privately, so I am good. 
Thank you very much.
    Mr. Young. All right. We now will call up the next panel. I 
want to thank the panel for a good job. And I am serious about 
submitting--I am no longer the Chairman of the full Committee, 
but submitting to the Chairman your legitimate request, what 
you think can be done to make the program work better, I think 
that is very valuable. Thank you very much.
    Mr. Southerland [presiding]. In our last panel we have just 
one person, Mr. Rauch, Deputy Assistant Administrator for 
Regulatory Programs, National Marine Fisheries Services, 
National Oceanic and Atmospheric Administration, at the 
Department of Commerce.
    You are again reminded that your complete written testimony 
will appear in the hearing record, and you have 5 minutes to 
summarize it. Mr. Rauch, thank you for joining us today, and 
you may begin.

 STATEMENT OF SAM D. RAUCH III, DEPUTY ASSISTANT ADMINISTRATOR 
  FOR REGULATORY PROGRAMS, NATIONAL MARINE FISHERIES SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Rauch. Thank you for the opportunity to testify before 
you today. My name, as you said, is Sam Rauch. I am the Deputy 
Assistant Administrator for Regulatory Programs at the National 
Marine Fisheries Service. NMFS is dedicated to the stewardship 
of living marine resources through science-based conservation 
and management. Much of this work occurs under the Magnuson-
Stevens Fishery Conservation and Management Act, which sets 
forth standards for conservation management and sustainable use 
of our Nation's fishing resources.
    Marine fisheries such as salmon in the Pacific Northwest, 
cod in New England, and red snapper in the Gulf, are vital to 
the identity and economies of coastal communities in the United 
States. Our most recent economic estimate for 2011 showed just 
how economically important they are. In 2011, U.S. commercial 
fishermen landed 9.9 billion pounds of seafood, valued at $5.3 
billion, increases of 1.6 billion pounds and $829 million over 
2010 figures. This represents the highest landings volume since 
1997, and the highest value in nominal terms ever recorded.
    In 2011, the seafood industry generated $129 billion in 
sales impacts, $37 billion in economic impacts, and supported 
1.2 million jobs. Recreational fishing generated $70 billion in 
sales impacts, $20 billion in economic impacts, and supported 
455,000 jobs in 2011. This is a 40 percent increase in jobs 
over 2010. In total, U.S. commercial and recreational salt-
water fisheries added 200,000 jobs to the broader economy 
between 2010 and 2011. This success is a product of hard work 
and ingenuity by the industry, by the fishery management 
councils, and the overall sound Federal fishing management 
system that is effectively rebuilding fisheries.
    Since its initial passage in 1976, the Magnuson-Stevens Act 
has chartered a ground-breaking course for sustainable 
fisheries. When reauthorized in 2007, the Act gave eight 
Regional Fishery Management Councils and NMFS a very clear 
charge and some new tools to support improved science and 
management. It mandated the use of science-based annual catch 
limits and accountability measures to prevent and end 
overfishing, provided for market-based fishery management 
through limited access privilege programs, focused on 
collaborative research with the fishing industry, and bycatch 
reduction, addressed the need to improve the science used to 
inform fisheries management, and sought to end illegal fishing 
and bycatch problems around the globe.
    Working together, fishermen, NMFS, the councils, coastal 
States and territories, and a wide range of industry groups and 
constituents have made significant progress in implementing key 
provisions of this legislation. As of December 31, 2012, we put 
in place limits to ensure overfishing does not occur in all 
Federally managed stocks. And we have demonstrated that 
overfishing has ended for 58 percent of those stocks subject to 
overfishing in 2007.
    In addition, 32 stocks have been rebuilt. A prime example 
of the benefits of rebuilding is seen in the New England sea 
scallop fishery, where revenues increased five-fold as the 
rebuilt fishery--as the fishery rebuilt from $44 million in 
1998 to $353 million in 2011, making New Bedford the largest 
port by value every year since 2000.
    Ending overfishing and rebuilding depleted fisheries brings 
significant biological, economic, and social benefit. But doing 
so takes time, persistence, and sacrifice, and adherence to 
scientific information. While significant progress has been 
made since the last reauthorization, we recognize that this 
progress does not come without cost. Fishermen, fishing 
communities, and councils have had to make difficult decisions, 
and many areas have had to absorb the cost of conservation and 
investment in long-term, economic, and biological 
sustainability.
    Without high-quality fishery science, we cannot be 
confident that we are preventing overfishing and rebuilding 
stocks. That is why NMFS is committed to regenerating the best 
fishery science today to support the goals of the Magnuson-
Stevens Act. Today we know more about fish stocks than ever, 
and it is vital that our science not regress, as this would 
inevitably lead to declines in our stocks and loss in the 
economic and social values they provide.
    We are making great gains. We have great tools under the 
Magnuson-Stevens Act; 200,000 jobs added in the midst of the 
severe economic issues indicates just how successful we have 
been. We stand ready to work with Congress on moving forward 
this important Act, making the necessary changes that need to 
be made, if any, and continue to improve our management and 
ensure that the biological and economic sustainability of this 
vital natural resource continues.
    Thank you again for inviting me to testify, and I am happy 
to answer any questions you may have.
    [The prepared statement of Mr. Rauch follows:]

 Statement of Samuel D. Rauch III, Deputy Assistant Administrator for 
   Regulatory Programs, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

Introduction
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the opportunity to testify before you today. My name is Samuel 
D. Rauch and I am the Deputy Assistant Administrator for Regulatory 
Programs for the National Oceanic and Atmospheric Administration's 
(NOAA) National Marine Fisheries Service (NMFS). NMFS is dedicated to 
the stewardship of living marine resources through science-based 
conservation and management. Much of this work occurs under the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), which sets forth standards for conservation, management 
and sustainable use of our Nation's fisheries resources.
    Marine fish and fisheries, such as salmon in the Pacific Northwest 
and cod in New England, have been vital to the prosperity and cultural 
identity of coastal communities in the United States (U.S.). U.S. 
fisheries play an enormous role in the U.S. economy. Commercial fishing 
supports fishermen and fishing communities, and provides Americans with 
a sustainable, healthy food source. Recreational fishing is an 
important social activity for individuals, families, and communities, 
and it is a critical economic driver of and contributor to local and 
regional economies, as well as the national economy. Subsistence 
fishing provides an essential food source and is culturally significant 
for many people.
    Our most recent estimates show that the amount landed and the value 
of commercial U.S. wild-caught fisheries was up in 2011 while 
recreational catch remained stable. U.S. commercial fishermen landed 
9.9 billion pounds of seafood valued at $5.3 billion in 2011, increases 
of 1.6 billion pounds (20%) and $829 million (18%) over 2010 figures; 
the highest landings volume since 1997 and highest value in nominal 
terms ever recorded.\1\ The seafood industry--harvesters, seafood 
processors and dealers, seafood wholesalers and seafood retailers, 
including imports and multiplier effects--generated $129 billion in 
sales impacts, $37 billion in income impacts and supported 1.2 million 
jobs in 2011. Recreational fishing generated $70 billion in sales 
impacts, $20 billion in income impacts, and supported 455,000 jobs in 
2011. Jobs supported by commercial businesses held steady from the 
previous year, while jobs generated by the recreational fishing 
industry represented a 40% increase over 2010.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Fisheries Annual Commercial Fisheries Landings 
Database available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    The Federal fishery management system is effectively rebuilding 
fisheries. We continue to make progress towards long-term biological 
and economic sustainability and stability. Since its initial passage in 
1976, the Magnuson-Stevens Act has charted a groundbreaking course for 
sustainable fisheries. When reauthorized in 2007, the Act gave the 
eight regional fishery management councils and NMFS a very clear charge 
and some new tools to support improved science and management. It 
mandated the use of science-based annual catch limits and 
accountability measures to prevent and end overfishing, provided for 
market-based fishery management through Limited Access Privilege 
Programs (or catch shares), focused on collaborative research with the 
fishing industry and bycatch reduction, addressed the need to improve 
the science used to inform fisheries management, and sought to end 
illegal fishing and bycatch problems around the globe so that foreign 
fishing fleets are held to the same standards as, and do not 
economically disadvantage, U.S. fleets.
    While significant progress has been made since the last 
reauthorization, we recognize that this progress has not come without 
cost. Fishermen, fishing communities, and the Councils have had to make 
difficult decisions and many areas have had to absorb the cost of 
conservation and investment in long-term economic and biological 
sustainability. The U.S. now has effective tools to address marine 
fisheries management, and as we look to the future, we must look for 
opportunities to increase flexibility in our management system. We need 
to approach that challenge in a holistic, deliberative, and thoughtful 
way that includes input from the wide range of stakeholders who care 
deeply about these issues.
    My testimony today will focus on NMFS's progress in implementing 
the Magnuson-Stevens Act's key domestic provisions, and some thoughts 
about the future and the next reauthorization.
Implementing the Magnuson-Stevens Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the eight Regional Fishery Management Councils (Councils). 
This structure ensures that input and decisions about how to manage 
U.S. fisheries develops through a ``bottom up'' process that includes 
fishermen, other fishery stakeholders, affected States, tribal 
governments, and the Federal government.
    The Magnuson-Stevens Act guides fisheries management by 10 National 
Standards for fishery conservation and management. These standards, 
which have their roots in the original 1976 Act, provide a yardstick 
against which all fishery management plans and measures developed by 
the Councils are measured. National Standard 1 requires that 
conservation and management measures prevent overfishing while 
achieving, on a continuing basis, the optimum yield from each fishery 
for the U.S. fishing industry. Optimum yield is the average amount of 
fish from a fishery that, over the long-term, will provide the greatest 
overall benefits to the Nation, particularly by providing seafood and 
recreational opportunities and affording protection to marine 
ecosystems.
    The Councils can choose from a variety of options to manage fish 
stocks--quotas, catch shares, area closures, gear restrictions, etc.--
and also determine how to allocate fish among user groups. These 
measures are submitted to the U.S. Secretary of Commerce for approval 
and are implemented by NMFS. Thus, the Councils in developing their 
plans must carefully balance fishing jobs and conservation. Other 
National Standards mandate that conservation and management measures be 
based upon the best scientific information available, not discriminate 
between residents of different States, take into account variations in 
fisheries and catches, minimize bycatch, and promote the safety of 
human life at sea.
    Central to many of the Council decisions are fishing jobs. Fishing 
jobs, both commercial and recreational, are the lifeblood of many 
coastal communities around our Nation. Fishermen and fishing industries 
rely not only on today's catch, but the predictability of future 
catches. Under the standards set in the Magnuson-Stevens Act, and 
together with the regional fishery management councils, States, tribes 
and fishermen, we have made great strides in ending overfishing, 
rebuilding stocks and building a sustainable future for our fishing 
dependent communities. Thanks in large part to the strengthened 
Magnuson-Stevens Act and the sacrifices of fishing communities across 
the country, the conditions of many of our most economically important 
fish stocks have collectively improved steadily over the last decade.
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Challenges remain in some fisheries, but in other fisheries, as fish 
populations grow and catch limits increase, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, and a wide range of industry groups and other 
constituents, have made significant progress in implementing key 
provisions of this legislation.
Ending Overfishing, Implementing Annual Catch Limits, and Rebuilding
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act is the mandate to implement 
annual catch limits, including measures to ensure accountability and to 
end and prevent overfishing in federally managed fisheries by a certain 
deadline. An annual catch limit is an amount of fish that can be caught 
in a year so that overfishing does not occur. Accountability measures 
are management controls to prevent the limits from being exceeded, and 
to correct or mitigate overages of the limits if they occur. This is an 
important move away from a management system that could only be 
corrected by going back through the full Council process--often taking 
years to accomplish, all while overfishing continued. Now, when 
developing a fishery management plan or amendment, the Councils must 
consider the actions that will occur if a fishery does not meet its 
performance objectives. As of December 31, 2012, assessments 
demonstrate that overfishing ended for 58% of the 38 domestic U.S. 
stocks that were subject to overfishing in 2007 when the Magnuson-
Stevens Act was reauthorized.\3\ Annual catch limits designed to 
prevent overfishing are in place for all stocks, and we expect 
additional stocks to come off the overfishing list as stock assessments 
are updated in the coming years.
---------------------------------------------------------------------------
    \3\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Summary
%20Changes.pdf.
---------------------------------------------------------------------------
    We recognize that learning from our past actions and adjusting is 
important. With that in mind, the agency has already begun the process 
of reviewing the National Standard 1 guidelines, which were last 
modified in 2009 to focus on implementing the requirement for annual 
catch limits. This was a major change in how many fisheries were 
managed, and we want to ensure that the guidance we have in place 
reflects current thinking on the most effective way to meet the 
objectives of National Standard 1. An Advanced Notice of Proposed 
rulemaking was published in May 2012, which was followed by an almost 
six month public comment period where we asked the public for input on 
11 topics addressed in National Standard 1. We received a lot of input, 
and are in the process of working through the comments and developing 
options for moving forward, be it through additional technical 
guidelines, regulatory changes, or identifying issues for discussion as 
part of a reauthorization.
    The Magnuson-Stevens Act also includes requirements to rebuild any 
overfished fishery to the level that can support the maximum 
sustainable yield, and as of December 31, 2012, we have rebuilt 32 
stocks.\4\ Ending overfishing and rebuilding depleted fisheries brings 
significant biological, economic and social benefit, but doing so takes 
time, persistence and sacrifice, and adherence to scientific 
information. We estimate that rebuilding all U.S. fish stocks would 
generate an additional $31 billion in sales impacts (including 
multiplier effects), support an additional 500,000 jobs and increase 
dockside revenues to fishermen by $2.2 billion, a more than 50 percent 
increase over current annual dockside revenues.\5\ A prime example of 
the benefits of rebuilding is seen in the New England sea scallop 
fishery, where revenues increased five-fold as the fishery rebuilt, 
from $44 million in 1998 to $353 million in 2011, making New Bedford 
the largest port by value every year since 2000.\6\
---------------------------------------------------------------------------
    \4\ See Fish Stock Sustainability Index. Available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
MapRebuiltStocksCY_Q4_2012.pdf.
    \5\ See The NMFS Commercial Fishing & Seafood Industry Input/Output 
Model. The change in landings revenue for each species was derived 
using the calculation: (Current Price*MSY)--(Current Price*Current 
Landings). If MSY is not available, a zero value is assumed for the 
change in landings revenue. These values were then entered into the 
model, which produced the job and sales impacts estimates. The model is 
available at: https://www.st.nmfs.noaa.gov/documents/
Commercial%20Fishing%20IO%20Model.pdf.
    \6\ See Fisheries of the U.S., Vols. 2000-2011, Commercial Fishery 
Landings and Value at Major U.S. Ports (tables). Available at: http://
www.st.nmfs.noaa.gov/st1/publications.html.
---------------------------------------------------------------------------
    As the fishing industry rebounds and the money involved increases, 
so does the need for comprehensive enforcement to ensure adequate, 
fair, and effective enforcement of the management plans so that they 
can continue to function for the benefit of those who play by the 
rules.
Improvements to Science and Recreational Fishing Data
    Without high quality fishery science, we cannot be confident that 
the Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires an investment in information about 
fish stocks, their fisheries and their ecosystems, including habitat 
requirements. NMFS is committed to generating the best fishery science 
to support the goals of the Magnuson-Stevens Act. Increasingly, we are 
conducting research and analyses to understand the environmental and 
habitat factors affecting the sustainability of fish populations. 
Today, we know more about our fish stocks than ever before, and it is 
vital that our science not regress, as this would inevitably lead to 
declines in our stocks and a loss in the economic and social values 
they provide.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, investing in cooperative research and electronic 
monitoring technology, and enhancing our engagement with fishermen 
cannot be stressed enough. Partnerships with industry are a key 
component of successful fisheries management. Cooperative research 
provides a means for commercial and recreational fishermen to become 
involved in the science and data collection needed to improve 
assessments and develop and support successful fishery management 
measures. For example, the Northeast Cooperative Research program 
enhances the agency and the New England Fishery Management Council's 
capacity to respond to emerging management needs and research 
priorities associated with improving stock assessments, as well as 
supporting the industry during the transition to sector management and 
the implementation of annual catch limits. In the Gulf of Mexico, NMFS 
supports a number of electronic monitoring programs including funding a 
project to test closed circuit televisions, gear sensors, and a data 
storage system to improve the overall catch and bycatch accounting 
system for the Gulf reef fish fishery thus improving management.
    The Magnuson-Stevens Act also required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2007, NMFS established the Marine Recreational Information 
Program, a new program to improve recreational fishery data collection 
efforts, consistent with the Magnuson-Stevens Act requirement and the 
2006 recommendations of the National Research Council. The Marine 
Recreational Information Program is a national system of coordinated 
regional data collection programs designed to address specific needs 
for improved recreational fishing information. One major component of 
the Marine Recreational Information Program is the development of a 
national registry of anglers, also required by the Magnuson-Stevens 
Act, which NMFS has been using in a series of pilot studies to test 
more efficient mail and telephone surveys for the collection of data on 
recreational fishing activity. Based on the results of these studies, 
NMFS expects to be ready to implement new registry-based survey designs 
on all coasts in 2014. The Marine Recreational Information Program is 
also developing and implementing numerous other survey improvements to 
address the National Research Council's recommendations, including 
improved estimation methodologies, improved shoreside survey design, 
and improvements in for-hire fishery data collections.
Looking to the Future
Remaining Challenges
    Looking ahead, we must continue to increase the quality and 
quantity of scientific data, continue progress made on addressing 
overfishing and rebuilding stocks, and better address the difficult 
transitions that can come with management changes leading to more 
biologically and economically sustainable fishery resources.
    The most effective annual catch limits and accountability measures 
will require further improvements to our stock assessments and 
monitoring efforts. Ensuring solid, science-based determinations of 
stock status and responsive management will also require better 
linkages to ever-shifting biological, socio-economic, and ecosystem 
conditions. U.S. fisheries are extraordinarily diverse in value, 
participation, and science needs. The Magnuson-Stevens Act provides 
flexibility in adapting management plans to the life history 
differences among species and nuances of particular fisheries as well 
as to the unique regional and operational differences among fisheries 
and in the fishing communities that they support. Together with our 
partners, we continue to explore alternative approaches that will 
produce the best available information to incorporate into management. 
It is also increasingly important that we better understand ecosystem 
and habitat factors, including climate change, and incorporate them 
into our stock assessments and management decisions, as well, because 
resilient ecosystems and habitat form the foundation for robust 
fisheries and robust economies. As we end overfishing and rebuild 
stocks, the strategic alignment of habitat conservation efforts to 
support the need of fish stocks will be a key component of NOAA's 
success.
General Views on Legislation Proposed in the 112th Congress
    NOAA supports the collaborative and transparent process embodied in 
the regional fishery management councils, as authorized in the 
Magnuson-Stevens Act and strongly believes that all viable management 
tools should continue to be available as options for the Councils to 
consider when developing management programs.
    It is critical that we maintain progress towards meeting the 
mandate of the Magnuson-Stevens Act to end overfishing and, as 
necessary, rebuild stocks. Annual catch limits are an effective tool in 
improving the sustainability of fisheries around the Nation, and NOAA 
has concerns with efforts that would create exemptions or otherwise 
weaken provisions regarding annual catch limits. Uncertainty in the 
stock assessments upon which annual catch limits are based should not 
be used as a basis for exempting fisheries from annual catch limits. 
Managing fisheries using annual catch limits and accountability 
measures was a major change for some fisheries, and the initial 
implementation has identified some areas where we can improve that 
process. We will continue to work with the Councils to achieve the best 
possible alignment of science and management for each fishery to attain 
the goals of the Magnuson-Stevens Act.
    In an increasingly constrained fiscal environment, we must not 
mandate duplicative or otherwise unnecessary actions. Additional stages 
of review for certain types of fisheries data, or repeating data 
collection and stock assessment efforts when there are already sound 
peer reviewed processes in place are examples of actions that will 
divert resources to a select few fisheries at the expense of others 
with little additional benefit. Moreover, legislation should be cost-
effective, particularly during this time of constrained funding. NMFS 
welcomes the opportunity to work closely with Congress, the regional 
fishery management councils, and the recreational and commercial 
fishing industries, to use the best available science to seek 
opportunities for efficiency and improved management in order to end 
overfishing, rebuild stocks and achieve stable economic opportunities 
for our fishermen and coastal communities.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the U.S. has become a model of responsible fisheries management. 
This success is due to strong partnerships among the commercial and 
recreational fishing, conservation, and science and management 
communities. Continued collaboration is necessary to address the 
ongoing challenges of maintaining productive and sustainable fisheries.
    The upcoming conference, Managing Our Nation's Fisheries 3--co-
sponsored by the eight Regional Fishery Management Councils and NMFS--
will bring together a broad spectrum of partners and interests to 
discuss current and developing concepts addressing the sustainability 
of U.S. marine fisheries and their management.\7\ The conference was 
developed around three themes: (1) improving fishery management 
essentials; (2) advancing ecosystem-based decision making; (3) and 
providing for fishing community sustainability.
---------------------------------------------------------------------------
    \7\ The Managing Our Nations Fisheries 3 conference is scheduled to 
take place May 7-9, 2013 in Washington, DC. See 
ManagingOurNationsFisheries.org.
---------------------------------------------------------------------------
    The first theme, improving fishery management essentials, will 
examine the core principles, practices, and tools essential to the 
long-term sustainability of fishery resources. This includes challenges 
that arise in using annual catch limits, implementing stock rebuilding 
programs, and participating in international management. The topics 
related to the second theme, advancing ecosystem-based decision making, 
are designed to foster conversation around the fact that fisheries 
affect, and are affected by, an ever-changing ocean ecosystem, and that 
we therefore need to consider relationships between managed species and 
their environment when setting policy and developing management 
strategies. These topics include assessing ecosystem effects and 
integrating climate considerations, forage species management, and 
integrating habitat into fisheries management. The last theme explores 
fishing community sustainability, including recreational and 
subsistence fisheries, socio-economic trade-offs, and fishing 
communities. Discussion will focus on meeting management objectives 
while taking into account the needs of different user groups and their 
diverse social and economic objectives.
    We are looking to this venue as a critical step in bringing 
together a wide range of stakeholders. The session speakers and 
panelists represent many points of view, from commercial and 
recreational fishing to the conservation and science and management 
communities. Before the last reauthorizations, we co-sponsored two of 
these conferences, and they played an important role in bringing people 
together and creating an opportunity to present ideas and understand 
different perspectives. Ideas that emerge from this event may inform 
potential legislative changes to the Magnuson-Stevens Act, but the 
benefits are much greater than that. The communication across regions 
and councils provides an opportunity to share best practices and 
lessons learned, and may also inform changes to current policy or 
regulations that can be accomplished without statutory changes.
Conclusion
    Because of the Magnuson-Stevens Act, the U.S. has taken action to 
end overfishing in Federally-managed fisheries, rebuild stocks, and 
ensure conservation and sustainable use of our marine fisheries. 
Fisheries harvested in the U.S. are scientifically monitored, 
regionally managed, and legally enforced under 10 strict national 
standards of sustainability. But, we did not get here overnight. Our 
nation's journey toward sustainable fisheries has evolved over the 
course of 35 years.
    In 2007, Congress gave NOAA and the regional fishery management 
councils a clear mandate, new authority, and new tools to achieve the 
goal of sustainable fisheries within measurable timeframes. Notable 
among these were the requirements for annual catch limits, and 
accountability measures to prevent, respond to, and end overfishing--
real game changers in our national journey toward sustainable 
fisheries, and ones that are rapidly delivering results.
    This progress has been due to the collaborative involvement of our 
U.S. commercial and recreational fishing fleets and their commitment to 
science based management, improving gear-technologies, and application 
of best-stewardship practices.
    It is important to take time and reflect on where we have been to 
understand where we are. We need to look to the future in a holistic, 
comprehensive way that considers the needs of the fish and the 
fishermen, and the ecosystems and communities. We look forward to the 
discussions that will take place during the upcoming Managing Our 
Nations Fisheries 3 Conference, and will happily work with Congress on 
any efforts to reauthorize the Magnuson-Stevens Act.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act and future efforts of 
reauthorization. I am available to answer any questions you may have.
                                 ______
                                 
    Mr. Southerland. Mr. Rauch, thank you for your testimony. 
Just like our first panel, each Member here today is given 5 
minutes to ask you questions. And I reserve the next 5 minutes 
for questioning.
    In the cases like the South Atlantic red snapper fishery, 
which has been closed for most of the last 3 years, how will a 
new stock assessment come up with the different results, when 
there is no new fishery-dependent data, and there is no new 
survey data?
    Mr. Rauch. So, that fishery actually was opened this year--
--
    Mr. Southerland. For, I think, a weekend.
    Mr. Rauch. A limited season.
    Mr. Southerland. Well----
    Mr. Rauch. So there is some data, but not much. And that is 
one of the concerns that we do have about closures, where you 
break the time series of fishery-dependent data, data that you 
get from the fishermen themselves. It creates a concern and a 
problem, as we go forward. That is why such large-scale 
closures are often viewed as a last resort in our case.
    We do have a stock assessment coming up in 2014, which will 
deal with some of these issues. I don't know what the new 
information is going to be. I am pleased that we are able to 
offer some limited opportunities, even though it is not as much 
as what the fishermen, obviously, would like.
    Mr. Southerland. I am worried about that particular fishery 
because, like you heard in the testimony earlier on a 7 to 6 
vote with data that was vague, at best. And when you close a 
fishery for 3 years, the economic damage that is out there is 
something that, well, quite honestly, 301 requires you to take 
into consideration.
    So, with that being said, since that requires you to take 
that into consideration, do you know if that was, in fact, 
taken into consideration when basically that particular fishery 
was shut down? And has been fished--when you mentioned a 
season, I want to be very clear. It was a weekend, if you call 
that a season--maybe a sample of a season, but a season from 
Virginia to South Florida.
    So, was that requirement of 301 that you have to take into 
consideration, did you consider the economic impact that 
followed when that closure took place?
    Mr. Rauch. Yes, sir. We took into account all of the 
requirements of the Fishery Management Act as we were 
developing that, and working with the Council to deal with that 
issue. We have actually been sued on that case, and have won on 
all counts, people raising claims such as that one, that we had 
not appropriately followed the requirements of the Magnuson-
Stevens Act.
    Mr. Southerland. I am told that the Senate CR includes 
language regarding NOAA's lack of responsiveness toward 
communities in the Mid-Atlantic area, and requires a report on 
a number of issues, including how to improve relationships with 
fishermen.
    Would you like to comment on why the Senate has felt--or do 
you even know why the Senate has felt it necessary to include 
this language, and how NOAA is likely to address the Senate's 
concerns?
    Mr. Rauch. I cannot comment on the Senate's language, nor 
do I know why they felt it necessary to include that.
    But we do feel that one of our jobs, as a fishery manager, 
is outreach to the coastal communities. We control a limited 
industry, in terms of the fishing industry. Many of these 
coastal communities are not particularly diverse, and they rely 
heavily on these fishing industries. And that is, I think, the 
nature of the requirements in the Magnuson-Stevens Act reflects 
that, so that we believe it is part of our obligation to reach 
out to them, to understand their needs, to try to develop 
measures that impact them in as minimal a way as possible, 
being mindful of the other requirements of the Magnuson-Stevens 
Act.
    But I can't speak to the Senate CR language.
    Mr. Southerland. That is fair. One of the other topics that 
we addressed on the earlier panel was regarding the explosives 
that are used to remove rigs. And I am just curious about 
NOAA's opinion. If you have tens of thousands of fish that are 
being killed and floating in the open water, with that being a 
fact, clearly in 301 there was a concern regarding the 
mortality of bycatch. Bycatch is specifically mentioned in 301 
as something that NOAA and the councils must consider.
    So, if my catch is a consideration in coming up with our 
regulations and our seasons, I mean, is it fair to say that we 
should be somewhat appalled at the fact that it seems to be OK 
with the government to blow up rigs, killing tens of 
thousands--it seems to be a contradictory--and undermine the 
integrity of the process.
    Mr. Rauch. Thank you. So on the issue of rig removal, that 
issue--we have a consultative role in that situation. We do not 
authorize the removal of rigs, nor the processes in which they 
do that. That is handled by the Interior Department. However, 
we have worked with them, and expressed some of the similar 
concerns about making sure that, as they carry out their 
obligations under their statutes, that they do so in a way that 
minimizes the effect on fishing and fish habitat.
    I know that the Gulf Council is working on a potential 
amendment to identify the rigs as essential fish habitat. We 
are concerned about if they have to be explosively removed, 
that they are done so in a way that would minimize the effect 
on the fishery--bearing in mind, though, that it is the 
Interior Department's ultimate decision as to how to carry that 
out.
    Mr. Southerland. I understand. OK. I see my time has 
expired. I will move now to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Mr. Rauch, you must 
have been pleased to hear the prior panel. No one said that the 
MSA should be repealed. However, everyone says that it has 
problems, and it has to be fixed somehow.
    One of the things that I was struck by in your testimony, 
you talk about MSA being in place for 35 years, and all the 
positives that have come from it. And yet we do know that the 
United States is importing about 92 percent, 90 to 92 percent, 
of its fish coming in for consumption. So do you, by any 
chance, have an idea of what it was 35 years ago, in terms of 
the amount of fish that was being imported for consumption?
    And you, in your testimony, stated that we are doing a lot 
better now, and the whole purpose of this Act was to basically 
address overfishing, how are we doing?
    So, first question is do you know where we were 35 years 
ago, and also this idea of overfishing. And I would also like 
to know how you believe we are going to address--well, you have 
heard the fishermen saying it is not sustainable for many of 
them. They cannot make a living doing this. So I would like to 
hear your response.
    Mr. Rauch. I don't have the figures for 35 years ago. I do 
know that at that time, within U.S. waters, a significant 
portion of the catch was being caught by foreign boats in U.S. 
waters. And that has changed. There is little or no foreign 
fishing in U.S. waters any more. That doesn't change the global 
dynamic. We export an awful lot of fish. We import for 
consumption an awful lot of fish. Some of that is fish that we 
have exported out and has been processed and we import it back.
    In terms of overfishing, I think we have made great 
progress. We have put in place measures to end overfishing in 
all Federally managed fisheries. We still have some concerns in 
international fisheries. I think you are starting to see--I 
gave some economic figures about job creation and job growth. I 
think that is a reflection of rebuilding fish stocks. That is a 
reflection of stability.
    But what those figures mask is that this has come at a 
transitional cost. Many fishing communities are having 
difficulty adapting to these new requirements. There is great 
economic opportunity for rebuilt fish stocks and economic 
stability, but we have to get to that place. And what I think 
you are seeing are transitional costs that the fishermen are, 
quite rightly, indicating has been very difficult for them to 
bear.
    So, we bring a lot of tools to bear in such a situation. 
The Magnuson-Stevens Act is not as rigid as many people believe 
it is. There is room in there to account for local communities 
to design programs to better allow for new entrance and those 
kind of issues, but it requires effort on both us and the 
councils to take advantage of all those provisions.
    Ms. Hanabusa. But, Mr. Rauch, aren't the fishermen really 
one of the major players or stakeholders in this process? So if 
you are saying, for example, we have rebuilt and they have 
great opportunity, but you are almost saying, ``But somehow 
they don't see that opportunity,'' or they don't know how to 
adjust to that opportunity.
    What is NOAA going to do about that? Because it seems like 
they are the people you should be talking to. And do you feel 
any obligation to adjust the way you are approaching it so that 
they can better understand it, or they can better take 
advantage of the situation?
    Mr. Rauch. So I think fisheries are diverse around the 
country. And there are fisheries that are doing very well, and 
that are driving some of the economic numbers. And there are 
fisheries that are not doing as well, based on local issues, 
environmental issues, regulatory issues, all kinds of different 
reasons.
    So I don't think that one message fits all when you are 
talking to the fishermen, and you need to reflect that 
variability and diversity of situations. We try very hard, 
through the council process, to tailor our regulations and our 
approach and our communications directly to the fishing 
communities themselves, and to reflect that there is no 
universal, one-size-fits-all solution. What works in Alaska may 
not work in Hawaii. It may not work in the Keys. We need to be 
mindful of that. What works for an industrial commercial 
fishery may not work at all for a recreational fishery.
    So, we need to be mindful in tailoring our message to talk 
to the fishermen themselves, and to understand what is driving 
that local fishery, because it could be vastly different around 
the country.
    Ms. Hanabusa. Do you believe the law, as it now stands, 
gives NOAA enough flexibility to be able to address the needs 
of basically your regional councils of the various fishing 
regions, and addressing the fishermen in each one?
    Mr. Rauch. It gives us a lot of diversity and flexibility 
at the moment.
    Two things that we are doing to actually answer that 
question. One is we put in these annual catch limits in 2012. 
And it was our first effort to do this nationally. And we do 
not know whether or not--I mean in that process we identify 
some things that didn't go as well as we wanted to. So we are 
engaged in a process of looking at the regulations and trying 
to change them within the confines of the Act to take advantage 
of those needs.
    The other thing, as I think the Chairman mentioned at the 
outset, we are engaged with the councils in a broad process 
looking at managing our Nation's fisheries to decide that exact 
question, whether the Act currently provides the kind of 
flexibility and opportunities we need to address all the 
problems around the country.
    Ms. Hanabusa. Thank you.
    Mr. Southerland. Thank you, Ms. Hanabusa. Next is Mr. 
LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. Mr. Rauch, thank you 
for appearing. I was disturbed earlier to hear the figure for 
the observer costs when they can do a similar service for $300 
that, because it may come through a government entity, it is 
triple that price, $1,000. And so, I was wondering why is there 
such a discrepancy. And, more importantly, what can be done to 
relieve this cost and have it be more in line with what the 
industry would be able to pay, since they do have to meet a 
bottom line, unlike around here, government does not?
    Mr. Rauch. So I am not familiar with the $1,000 cost. I am 
not sure how it was derived. I am not saying it is not the 
right cost. I don't know. This is the first I had heard of 
that.
    Often times, when we talk about observer costs, we split it 
into two categories. We talk about the cost that is borne by 
the industry, or the total cost. The total cost includes the 
cost to analyze the data, the cost to the government of the 
whole data collection process. I suspect that might be some of 
what you are hearing with the $1,000, but I don't know.
    On the broader issue, though, of decreasing that cost, it 
is clear to me that the pressure for more observers is out 
there. The observers are becoming more expensive. We need to 
find a different, better way to collect data. There has been a 
lot of talk in the prior panel about the use of cameras and 
monitoring, something that we very strongly support.
    You have to realize that there are two issues with cameras. 
One is a technological issue. What can the cameras tell you 
now? On that issue, they are very good at the moment of 
identifying discard events. Did somebody throw something 
overboard? They are not yet to the point where they could 
identify individual fish. So if you are asking somebody using a 
big trawl net to say how much of any particular kinds of fish, 
a camera is not going to do that very well.
    And then there is a regulatory side of the issue. We have 
to adapt our regulatory requirements to take advantage of 
cameras. If you wanted, as one of the prior panelists said, to 
have a full retention fishery, which means the fishermen 
basically keep every fish and they land it on the dock, you can 
have someone count the fish on the dock, and all the camera 
needs to say is they do throw something overboard. That 
situation, I think, is achievable in many fisheries today. But 
the fishing councils and the fishermen do not want to go to 
that full retention fishery. It requires a cost. Because if you 
have to catch everything that you brought on board, some of 
that is not going to be marketable. And so there is a cost to 
that.
    So, the fishermen have not wanted to embrace full 
retention, so they have wanted a more complicated situation, 
where you look at the kind of fish that are caught, you make 
certain assessments about that, and you still discard some. 
That is not impossible, it is just more complicated to deal 
with, and we need to move forward on that. And hopefully we 
will be moving forward aggressively. But we have to do that to 
solve the observer problem.
    Mr. LaMalfa. They don't always ask for extra complication, 
though. That is what I observe. I don't have a coastal district 
any more, but I do have an inland one where farmers and 
ranchers, for example--but it is a similar thing--are not 
asked, told to shoulder a greater and greater burden of cost of 
monitoring, of different things they have to do, on water use, 
and I think that would apply to the way fishing is done, as 
well, that the requirement by regulators, they have to shoulder 
more and more burden to do things that they didn't ask for that 
may not necessarily be producing a result for them.
    So, we have to take into account that it is a huge--
becoming a huge burden, and is pricing some people out of the 
business. So when we talked about the possibility of electronic 
monitoring, that in the part of the Pacific fleet that--in 
designing the program, electronic monitoring was seen as an 
integral part by the fleet for doing so. And then that has kind 
of fallen out, that component is not in it any more as a 
reliable part. You touched on that a little bit, but it seems 
like, again, the people from the fleet side were expecting 
certain things, and then that doesn't happen, and so they get a 
higher cost. What is going to be--what is fair for them?
    Mr. Rauch. There were a number of provisions, in terms of 
the Pacific groundfish fishery that balanced the need for a 
changing regulatory system with some things that would provide 
economic flexibility. The monitors were one, there are certain 
other things that are all sort of packaged in what is called 
the trailing amendments to that.
    We are working through those with the council as quickly as 
we can, because it is, as the fishermen have told me--and I am 
sure they have told you--there is a gap now. This has become 
more costly because some of the cost-saving mechanisms that 
they had expected to see aren't in place yet. Some of those are 
regulatory, some of those are the camera systems. We continue 
to move with the council, with the Pacific Commission on 
cameras. We had a meeting, the Pacific Council had a meeting 2 
or 3 weeks ago to try to move out on how you can implement 
cameras more broadly within that fishery, as a cost-saving 
mechanism.
    So, I am hopeful that, as a result of that meeting, the 
Council will take up management measures that will actually get 
us down the road to replacing some of these human observers 
with cameras.
    Mr. Southerland. Time has expired. Thank you, Mr. LaMalfa.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. A couple issues, Mr. 
Rauch. One is, as you know, that Mike Thompson and I and 
Huffman and Don Young have been working on lowering the burden 
of the cost of the buy-back program with lower interest rates. 
And I am hopeful that your agency would be supportive and 
helpful in that effort.
    Mr. Rauch. Yes. The Administration has not taken a position 
on the particular bills, but I think we are, in general, very 
supportive of working with the Hill and with the industry on 
trying to find a way to make this program cost-effective, and 
to achieve the benefits that we had originally designed it to 
achieve.
    Mr. DeFazio. Great. Now, the observers you have just been 
talking a little bit about the observers. Do you know what the 
observer cost or what portion NOAA will cover this year?
    Mr. Rauch. I can get you the exact figure, or I can spend 
the time to look it up. I think that we had allocated--this 
fishery was designed that, over time, the government would 
start out funding all of the observers, and----
    Mr. DeFazio. Right. There is a theory that the catch will 
become so much more valuable that----
    Mr. Rauch. Right.
    Mr. DeFazio [continuing]. The fishermen should carry more 
of the burden. They are also paying 3 percent of their gross. 
And the fishery hasn't gotten substantially more valuable.
    So my question is, you are going to be putting additional 
burden on the fishermen this year, on the observer program, 
even though they are not necessarily seeing those kind of 
gains. It is a pretty quick turnaround to say, ``Gee, we have 
had this 2 years, now your fishery is so much more valuable now 
that you guys can pay for it.'' And I know you have budget 
problems. Is sequestration going to hit this?
    Mr. Rauch. I can't answer the question of sequestration. 
Plus, in reality, under my continuing--the resolution expires 
at the end of this month. So I have no budget after March 27th. 
And so maybe you can answer the question better than I.
    We do envision, bearing in mind the uncertainties of 
sequestration and the budget, picking up a portion of the 
observer costs. I think it is somewhere around $300-something 
for the observer day.
    Mr. DeFazio. OK.
    Mr. Rauch. So that is a substantial amount.
    Mr. DeFazio. Sure.
    Mr. Rauch. It is not the entire amount.
    Mr. DeFazio. OK. But then, on the issue of the transition 
to other means of monitoring, essentially you talked about a 
full retention fishery could, with today's technology, off-the-
shelf, relatively inexpensive cameras, be implemented at that 
point if it is full retention. And essentially, as I understand 
it, we are pretty much a full retention fishery for groundfish.
    Mr. Rauch. Some aspects of the groundfish are full 
retention, yes.
    Mr. DeFazio. Right. So----
    Mr. Rauch. And so you could move forward in those fisheries 
fairly quickly.
    Mr. DeFazio. Good. Then how do we move forward, toward 
cameras?
    Mr. Rauch. So that requires the Pacific Council to take 
action. I think the equipment is not an issue, because that is 
already funded through the Pacific Fisheries Commission. But it 
does require us to work with the councils to make sure that 
full retention, that those requirements, such as you have to 
keep the cameras on, and to figure out what happens when the 
cameras turn off, we have dealt with these kind of situations 
with other electronic equipment, with electronic log books, 
with vessel monitoring systems.
    So, it is not particularly groundbreaking, but it does 
require the fishery management council to put in the supporting 
regulations to support that. And they are working on that, as I 
indicated in the last series of questions. They had a meeting 
earlier this month to deal with that exact issue about moving 
forward and transitioning to cameras where you could have them.
    Mr. DeFazio. Yes. And, of course, your agency would save 
money, because you wouldn't have to help support the observers, 
and the fishermen would save money. So it seems to me that if 
we can give the Pacific Fisheries Management Council a sense of 
urgency here to both help the people who are fishing and to 
help an agency whose budget is strapped and about to be 
partially sequestered, it seems like we would all come out 
ahead.
    Mr. Rauch. I have had discussions with them along the same 
lines.
    Mr. DeFazio. OK, good. Well, I will add my voice to that. 
Thank you. Thank you, Mr. Chairman.
    Mr. Southerland. Thank you, Mr. DeFazio. Next is Mr. 
Pallone.
    [Pause.]
    Mr. Southerland. I apologize. We are going to move to Mr. 
Horsford next. I apologize, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman. And thank you to the 
witness for being here. I just have a couple of questions.
    First, can you talk to us about how the investments in 
stock assessments translate into greater fishing opportunities, 
more economic benefits, and reduced risk of overfishing?
    Mr. Rauch. Yes, thank you. As the prior panel indicated, 
increased investment in stock assessments decrease--give us a 
better indication of what actually is being caught. We can 
manage much closer to the target. As uncertainty is decreased, 
in certain fisheries we have been able to clearly tie that to 
economic opportunities. Like in Alaska, for every point 
reduction in uncertainty, you can set the quotas closer to the 
limit, and that means that you get a much higher economic 
benefit.
    And I agree with what most of the prior panel had said. 
There is great return on investment from increasing the 
scientific support for that. You can, with better data, better 
manage the fisheries, extract as much economic opportunity as 
is available for the fisheries, all while ensuring that you 
have met the statutory standards. And we have a number of good 
examples of where that has happened.
    Mr. Horsford. So then, would additional appropriations from 
Congress help ensure more timely and accurate stock 
assessments, then?
    Mr. Rauch. I can't speak to the appropriations. I do know 
that overall, the Fishery Service budget has decreased, in the 
last 2 years, the one area where we have seen modest increases 
has been in expanding stock assessments. And much of that has 
been directed toward the Southeast, but some of it has gone 
other places. Where we have made that investment, we will, over 
time, see returns on that investment. And I think that money is 
well spent.
    Mr. Horsford. Good. Now, fish in United States waters are a 
common property resource that belongs to all Americans, not 
just the ones with harvest quota allocations. So how does that 
fact influence management decisions under the Act? And do you 
think that the Act adequately protects the interest of all 
Americans in achieving a healthy marine environment?
    Mr. Rauch. So the Act requires a very open, transparent, 
participatory process. You have fishery management councils 
that engage the public in an open way that has representatives 
from a cross-section of the public, including the States, and 
it is not limited to just quota holders. Sometimes there are 
environmental groups, other public groups, universities, and 
the States. So I think that one protection is the participatory 
process. And we need to make sure that it is as transparent and 
open as possible.
    Within that there are a number of requirements that require 
us to look not just to the short-term economic needs of the 
industry, which are important, but also to balance a broader 
range of social and environmental issues. One of the provisions 
which was mentioned here earlier is the requirement to consider 
the effects on communities. Some of those communities do not 
hold quota share. So you might theoretically make a decision to 
benefit a community which would not be in the best interest of 
all the quota shareholders.
    There are also provisions to look at the broader habitat 
impacts and the ecosystem impacts in the Magnuson-Stevens Act. 
So there are flexibilities in the Act which allow you to 
consider the broad range of societal interest in the fishery, 
but the most significant is the council process itself, and the 
members of the council.
    Mr. Horsford. So, based on the concerns that there needs to 
be additional regulatory flexibility, can the NOAA work with 
councils and fishermen to address some of their concerns?
    Mr. Rauch. We are trying to do that. We are looking at what 
we call National Standard 1. That is our overarching guideline 
on how you adopt the annual catch limits and accountability 
measures. After the first suite of accountability measures and 
catch limits were put in place at the end of last year, we need 
to go back and look at how we did that work? Did we do it well? 
Did we not do it well?
    So, we are engaged in a regulatory process within the 
statute, within the bounds of the statute, to find out whether 
we can change our approach to deal with some of the issues that 
you heard earlier today and other issues that have been raised 
by the other fishermen.
    Mr. Horsford. Thank you, Mr. Chairman.
    Mr. Southerland. Thank you. Next is the Ranking Member, Mr. 
Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Rauch. The 2006 reauthorization of Magnuson-Stevens required 
NOAA to implement recommendations from a National Research 
Council report, and to put in place improved science and data 
programs, including a recreational angler registry program. 
Since I was a part of the Committee at the time, I know the 
idea was to have NOAA replace the faulty MRFSS system with an 
improved recreational registry system that would be more 
accurate. And the deadline written into the law to complete the 
program and implement the improved program was January 1, 2009.
    Has the NMFS entirely moved away from using the MRFSS 
system at this time? And is the recreational angler registry 
the primary source of fisheries management information at this 
time?
    Mr. Rauch. Thank you. It is correct that--as you 
indicated--that we had a 2009 deadline that we did not entirely 
meet. We have been working diligently in implementing the 
Marine Recreational Information Program, or MRIP. And it has 
been more of a transition than a flipping-the-switch kind of 
situation, where we have implemented pieces of it as we move 
forward.
    Currently, we have released revised estimates for catch for 
Atlantic and Gulf Coast fisheries from 2004 to 2011 based on 
MRIP, as opposed to MRFSS. It is a more accurate way of 
collecting the catch. We are implementing this year a new 
onsite intercept survey as part of MRIP----
    Mr. Pallone. Well, let me ask you that, because that was my 
second question. I wanted to ask whether there are adequate 
number of intercepts being made to accurately estimate 
recreational catch, as required in the 2006 reauthorization. So 
maybe you can throw that in, too.
    Mr. Rauch. Yes. So I think that is an issue of statistical 
power. Are you looking at the right places in order to make the 
assumptions that you are making? And this is one of the things 
that they have been trying very hard to address in that issue. 
I can't tell you exactly how many we have made, or how many 
intercepts that we are doing this year. But we are working on 
that. That is a part of the MRIP process. I believe that we 
plan to cover enough to give us the right kind of statistical 
significance. I can get you more information on that, though.
    Mr. Pallone. But in terms of--going back to what I 
originally said--I mean you still are using the MRFSS to some 
extent. You still consider yourself in transition from MRFSS to 
the registry at this point?
    Mr. Rauch. Yes. If you had asked me last year, we were more 
on the MRFSS end. This year we are more on the MRIP end, I 
think.
    Mr. Pallone. Now, what about the development of a weather 
corrective factor that can be applied to recreational catch and 
for estimates? Again, that was required under the 2006 
reauthorization.
    In other words, how are storms calculated into harvest 
levels and fishing efforts? I mean, obviously, this is 
important to me, given Hurricane Sandy. I am going to ask you 
to go quickly, because I am trying to get to two more things.
    Mr. Rauch. OK, I am going to have to get back to you on 
that issue, about----
    Mr. Pallone. On the weather?
    Mr. Rauch [continuing]. Calculated in there. I am not 
clear.
    Mr. Pallone. All right. If you could, I would appreciate 
it. Through you, Mr. Chairman, he can get back to me in 
writing?
    Mr. Southerland. Yes.
    Mr. Pallone. OK. The Secretary of Commerce, following 
Superstorm Sandy, made a Federal fishery disaster declaration 
for New Jersey and New York. And under Magnuson-Stevens, NOAA 
has 2 months to develop a comprehensive, economic, and socio-
economic evaluation of the affected region's fisheries.
    And I wanted to ask you if this evaluation has been done 
and what do you see as a result are the needs, and whether 
changes in Magnuson-Stevens could allow NOAA to further better 
assist the region after the disaster. Do you have that? Is that 
evaluation done? Can you share it with us?
    Mr. Rauch. Shortly after the hurricane, or the superstorm, 
we did send out teams to do an economic survey. We have 
provided the data that we collected directly to the States 
about a month-and-a-half ago. The report is not complete yet. 
That is, the accumulation of that data. But the States do have 
that data.
    Mr. Pallone. When do you think the report would be 
complete?
    Mr. Rauch. I cannot say.
    Mr. Pallone. All right.
    Mr. Rauch. Hopefully soon.
    Mr. Pallone. All right. Obviously, we would like to see 
that as soon as possible. And I guess I can't ask you what the 
follow-up would be on the report until you finalize it, right?
    Mr. Rauch. Yes.
    Mr. Pallone. All right. Well, let me ask you a last 
question about resources. In terms of funding, do you think 
that NOAA has the funds and resources necessary to do adequate 
data collection, to perform an adequate number of intercepts, 
to include weather in your model, to provide information 
sufficient for fisheries management? I am just basically asking 
about the funding of all the things I have brought up, whether 
you have enough funds to do the different things I mentioned, 
the data collection, the weather, the intercepts, and 
ultimately, respond to the storm.
    Mr. Rauch. Well, as I indicated before, I have no funds 
after March 27th. So I can't speak to what the future will 
hold, and we are still working through sequester issues. We 
have made a substantial economic commitment to the MRIP program 
and to other scientific data, as I indicated. While our overall 
budget was decreasing, the investment in stock assessments was 
increasing.
    You could always do more, and you can get a good return on 
your investment from doing more. The current Magnuson-Stevens 
Act requires an awful lot of data collection in order to 
operate well. And we have struggled with--as we are starting 
that program--with getting the right kind of data collection to 
match the regulatory needs. But, as I said, at this point I 
don't have a budget after March 27th, so I can't say what the 
future will hold on that one.
    Mr. Pallone. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Southerland. Thank you, Mr. Pallone. Just a follow-up 
question. I am curious. I asked you earlier, in reference to 
the removal of the rigs, and you had mentioned that the removal 
of the rigs was instituted by another department that did not 
fall under the oversight of NOAA. But with the thousands, tens 
of thousands of fish that are killed as a result of another 
department's actions, I am just curious. Could you share with 
us the concern of NOAA that another department has, in such a, 
I think, damaging way undermined what Magnuson-Stevens was set 
in place to do in the first place?
    Mr. Rauch. Yes. So that other department is the Interior 
Department, who authorizes rig removals and those kind of 
things. And we have been concerned over the course of time with 
the way they operate their oil and gas program in the Gulf of 
Mexico, not just with rig removals, but with the entire suite 
of activities, because it can have an effect on fish stocks, 
and also on endangered species-listed stocks and things like 
that.
    We have worked with them over time on limiting the size of 
explosives charges, on placing them in such a way to minimize 
impacts, on requiring site clearance procedures, on looking at 
no-activity zones, in terms of things, issues. So we have 
worked with them on their program. We do not consult with them 
on an individual--because we don't have the resources to do 
it--on an individual, rig-by-rig removal. We consult with them 
generically. And we have shared our concerns with them about 
the way that they operate. And they have been responsive, over 
time, to our concerns.
    Obviously, there is more work that may still need to be 
done between us and them, and the Administration has convened a 
work group led by the CEQ and the National Ocean Council to 
bring all the agencies together to try to find a path forward 
on rig removals, to balance the need for the fish enhancement 
that they can bring, versus the need for the oil companies to 
limit their liability.
    So I can't say more about it than that. But we are 
concerned, and we are working through the interagency process 
to share those concerns with them.
    Mr. Southerland. How are you going to--last year, as a 
result of the storms that we had in the Gulf, the season, the 
fishing season in the summer, was extended for 6 days, from 40 
days to 46. I am curious. When you have tens of thousands of 
fish, and there is so much that goes into an extension of a 
season--I mean it is like it requires an Act of Congress--how 
should tens of thousands of dead fish, snapper, affect the 
season, as far as the assessment towards a total allowable 
catch? I mean they are real fish. Well, wait a minute, I take 
that back. NMFS doesn't count those fish, because they are on 
artificial reefs. But if we picked them up, they would be 
counted.
    So, how do you determine how those fish affect the total 
allowable catch, because we want good data, and that seems to 
be something that you need to address.
    Mr. Rauch. So they have been doing rig removals for a long 
time in the Gulf. That mortality should be accounted for in the 
overall population. So if those fish are dying, and they are 
not contributing to overall population, then the population 
numbers are depressed as to what they should be.
    Mr. Southerland. But how could they be, if you don't count 
those fish because they are on artificial rigs?
    Mr. Rauch. Well, we are going--so on that issue, in the new 
stock assessment, which is expected in June, I believe, we are 
going to start taking into account surveys on artificial reefs 
and those issues. So we have heard the concern about the way 
that we don't trawl on artificial reefs. And some of that issue 
is going to be taken into account in this new stock assessment 
for red snapper that is coming up.
    Mr. Southerland. So one could surmise that the mere fact 
that you all have made that recognition that the stock 
assessments in the past could have been significantly flawed 
because, as we have talked about earlier, 40 percent of all the 
red snapper landed in the Gulf of Mexico or landed off of 
Alabama, which has done an extensive push to build their 
artificial reef program, accounting, thus, for the increased 
landings. So I, first of all, want to thank you for that 
acknowledgment, going forward, that you are going to count fish 
on artificial reefs. And I appreciate your concern with 
Interior, and I will be interested to hear how that goes.
    Obviously, this action out there killing tens of thousands 
of fish is one that is gaining a lot of attention.
    So are there any other questions, I think I am it. So I am 
it. Let me say this to Mr. Rauch and to the members of the 
previous panel. Thank you very much for being with us today. 
Thank you for standing here and taking the questions, and your 
responses.
    Members of the Committee may have additional questions for 
the record, and I ask that you respond to those in writing.
    If there is no further business, without objection, the 
Committee stands adjourned.
    [Whereupon, at 1:04 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    Statement Submitted for the Record by Mike Jennings, President, 
                    Charter Fishermen's Association

    My name is Captain Mike Jennings and I am the President of the 
Charter Fishermen's Association (``CFA''). CFA represents for-hire 
charter boat captains and private recreational anglers throughout the 
Gulf of Mexico. I appreciate the opportunity to testify in support of 
achieving sustainable and accountable fisheries in a way that will 
increase access to our nation's natural resources. To reach these 
goals, it is critical that the congressionally-created Regional Fishery 
Management Councils have the flexibility to explore all available 
management options. Dictates from Washington, D.C. that take management 
options off the table inhibit our ability to craft solutions that work 
for our regions and could devastate our businesses. At the same time, 
Congress should support efforts to improve data collection necessary 
for effective fisheries management and protect valuable fish habitat.
    I have been a licensed charter boat captain fishing the Gulf of 
Mexico off Texas for over 25 years. I grew up fishing Texas's inshore 
and offshore waters and I am proud to make a living by taking my 
clients fishing and giving them access to the fisheries in the Gulf of 
Mexico. In fact, the for-hire industry in the Gulf of Mexico provides 
access to millions of recreational anglers every year who cannot afford 
their own boats, live far away or who want to fish with an experienced 
captain. Last year my boats took more than 1,500 people out to fish in 
the Gulf. Our customers come from all over the country and are a large 
part of the economic machine that supports thousands of small 
businesses like mine in our coastal communities.
    The recreational fishing industry in the Gulf is suffering under 
increasingly restrictive management measures that threaten our 
businesses. Fishing seasons have gotten shorter and bag limits have 
gotten smaller. These factors make it very difficult for charter boat 
operators like me to stay in business. The service we provide to our 
customers is access to ocean fisheries, but in recent years government 
regulations have prevented us from providing this access. In some 
cases, recreational fishing seasons have shrunk to just a few weeks in 
duration. It is nearly impossible to operate a successful business of 
taking people fishing when fishing is closed for 11 months of the year.
    Fortunately, there are solutions that can simultaneously provide 
increased access to our fishery while also providing for the long-term 
conservation of those resources. We do not want to return to the days 
when unrestricted fishing depleted our fisheries. Instead, we want to 
use the flexibility that currently exists in the Magnuson-Stevens Act 
(``MSA'') to increase access while also preventing overfishing and 
ensuring that fish stocks rebound. Congress should do four things: 1) 
allow fisheries managers the flexibility to use all available 
management tools; 2) improve monitoring and data collection on our 
fisheries; 3) protect valuable fish habitat now in place throughout the 
Gulf of Mexico; 4) explore the issue of 10-year arbitrary time lines 
that are currently overly restrictive for some fisheries. Congress 
should set a science based approach that allows Fisheries managers the 
ability set species specific rebuilding periods in order to help keep 
fishing communities economically viable, without compromising the 
ultimate rebuilding goal.
ALLOW MANAGERS TO USE ALL AVAILABLE MANAGEMENT TOOLS
    What we need is continued flexibility to explore different types of 
management approaches. At least in the Gulf of Mexico, traditional 
methods of managing our fisheries--setting of fishing seasons, size and 
bag limits--simply are not working. The MSA allows local regions to 
explore other options that might work better. These options include 
sector allocations, Limited Access Privilege Programs (``LAPPs'') and 
Individual Fishing Quota (``IFQ'') programs among others. Right now 
there are several pilot projects in the Gulf under development or 
consideration that would test whether these alternative approaches 
could work better to manage our fisheries.
    There is absolutely no reason Congress should dictate to local 
regions that these options cannot be explored. Now is the time when 
stakeholders need the flexibility to be innovative and find creative 
solutions. Now is not the time for bureaucratic dictates from 
Washington, D.C. that tell us what we can and cannot do. Why on earth 
would Congress want to prevent us from even considering management 
options that might work to both conserve our fisheries and boost our 
revenues?
    We acknowledge that LAPPs may not be appropriate for all fisheries 
and all fishermen. For example, LAPPs may not work for managing fishing 
by private anglers. But the charter industry or any other group of 
stakeholders should have the option to explore LAPPs if it sees fit. 
Under the MSA, the Regional Fishery Management Councils now have the 
option to implement a LAPP where the stakeholders in a fishery want 
such a program. Here in the Gulf of Mexico any new LAPP is subject to a 
fishermen referendum and must be approved by a majority of the active 
participants in the fishery before it can be implemented. No other 
fishery management program requires that level of fishermen input.
    There have been numerous attempts--some of which have been 
successful--to strip our right to explore options for our industry in 
the Gulf of Mexico. But Congress should not decide what tools fisheries 
managers and fishermen can and cannot use in their regions. Congress 
got it right when it set up the MSA to allow local issues to be managed 
at the local level. Congress should allow those local processes to take 
place.
IMPROVE MONITORING AND DATA COLLECTION
    Fisheries management cannot be successful without good data on what 
fishermen are catching. In some commercial fisheries, such as the 
commercial IFQ programs for red snapper or grouper in the Gulf, there 
is near 100% accountability for all fish caught. By contrast, the 
recreational fisheries lack sufficient methods of monitoring and 
accounting for their catches. Fortunately, new methods of electronic 
monitoring and catch reporting--such as user-friendly software programs 
that can be used on a smart phone--are being developed which could 
revolutionize data collection in recreational fisheries and provide a 
mechanism to achieve a level of accountability for catches commensurate 
with what is achieved in the commercial sector. CFA has been actively 
involved in developing and testing these new products to improve catch 
accountability. We support electronic monitoring requirements for the 
entire for-hire sector in the Gulf of Mexico.
    In addition to supporting efforts to improve catch accountability 
in recreational fisheries, Congress should also make funds available 
for fisheries data collection and stock assessments through the RESTORE 
Act. The Deepwater Horizon oil spill had untold effects on Gulf 
fisheries, and dedicating some of the RESTORE Act funds to fisheries-
related research would help quantify the extent of those effects and 
improve our ability to respond to them through the fisheries management 
process.
    Finally, Congress should also consider methods to improve fisheries 
science in general. In recent years there has been a lack of 
stakeholder buy-in to the science that supports fishery management 
decisions. Congress can improve the science and stakeholder buy-in by 
ensuring more timely and valid stock assessments, having more direct 
involvement by fishermen in data collection and analysis, increasing 
access to fisheries where necessary data can be supplied by fishermen, 
academics or other third-parties, and ensuring that any monitoring 
required in fisheries is cost-effective and expanding cost-sharing by 
industry.
PROTECT VALUABLE FISH HABITAT IN THE GULF OF MEXICO
    One of the top priorities for recreational fishermen in the Gulf of 
Mexico today is maintaining the Rigs to Reef program. Gulf of Mexico 
offshore oil and gas production platforms were originally designed and 
built to provide our nation with energy. Today, however, these 
structures have also become critical habitat for many types of marine 
life and are also a valuable asset for recreational fishing and diving. 
The federal Rigs to Reefs program successfully allows removal of 
hazardous materials while allowing the useful habitat to remain and has 
been working great for decades. Many businesses and user groups have 
come to rely on the structures, which have improved our quality of life 
and ability to enjoy our Gulf of Mexico.
    Unfortunately, recent changes to federal policy are causing this 
beneficial habitat to be destroyed at enormous cost to our communities 
and the Gulf ecosystem. The Department of the Interior has sped up the 
process of removing non-producing rigs, regardless of their value as 
fish habitat. As a result, much habitat has been lost and continuing to 
remove more rigs will harm our businesses.
    The Gulf of Mexico Fishery Management Council also has expressed 
concern about the method and rate of oil and gas platform removal. The 
Council sent a series of letters asking the agencies responsible for 
rig removal to reconsider the use of explosives to remove rigs because 
explosives are known to kill fish dwelling near those structures. The 
Council also asked that the rate of rig removal be slowed or 
discontinued until more information is gathered regarding the effects 
of structure removal on the fishery. We strongly support the Council in 
these efforts.

                               * * * * *

    Sustainable fisheries provide healthy seafood to Americans, public 
access for sportfishing enthusiasts, and long-term economic benefits 
for fishermen and our coastal communities. Current rules that limit 
fishing with short or closed seasons are hurting anglers, fishing 
businesses, our coastal communities and the fisheries they all depend 
upon. These problems can be solved by giving fishermen management 
flexibility and not through rolling back conservation provisions and 
creating management loopholes.
    CFA members see our role as providing access to the average 
American who just simply has no other avenue or opportunity to fish in 
the Gulf of Mexico. Current management practices are stripping the 
American public of this access. Now should be the time when Congress is 
giving us more tools to manage our fisheries, not less. The CFA looks 
forward to working with the Regional Fishery Management Councils, 
Congress and the Administration towards long-term solutions, including 
any and all options that may increase fishing time, improve the 
economics of our businesses, and ensure a sustainable fishery. We need 
all the options at our disposal and we need to allow the user groups to 
work within the guidelines of the MSA at the regional level to best 
manage our fisheries.
                                 ______
                                 
    [A letter and statement submitted for the record by Lee R. 
Crockett, Director, U.S. Fisheries Campaigns, The Pew Charitble 
Trusts, follows:]

March 20, 2013

The Honorable Doc Hastings
Chairman
Natural Resources Committee
United States House of Representatives
Washington, DC 20515

The Honorable Edward J. Markey
Ranking Member
Natural Resources Committee
United States House of Representatives
Washington, DC 20515

Dear Chairman Hastings and Ranking Member Markey,

    On behalf of The Pew Charitable Trusts, I would like to thank you 
for the opportunity to submit the attached statement for the record for 
the Committee's March 13 oversight hearing on the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA). As we begin discussions 
on reauthorizing this landmark law, it is important to take note of the 
significant benefits the MSA is delivering to the nation as a result of 
the conservation requirements Congress added to the law in 1996 and 
2006.
    Thanks to these requirements, 32 fish populations have been rebuilt 
since 2001, including Atlantic sea scallops (one of America's most 
valuable fisheries) and mid-Atlantic bluefish; and other important fish 
populations, such as red snapper in the Gulf of Mexico, are on the road 
to recovery. Last year, we also achieved a significant management 
milestone by putting in place science-based annual catch limits that do 
not allow overfishing on all federally-managed fisheries. We can now 
boast one of the best fishery management systems in the world, and many 
countries are emulating the conservation requirements of the MSA as 
they seek to bring about sustainability in their fisheries.
    As we look forward to the next reauthorization, I urge you to 
protect these hard-won gains and adopt new, ecosystem-wide approaches 
that will build resilience in our oceans to withstand the impacts of 
changing ocean temperatures, acidification, and other emerging threats. 
The future of our nation's fisheries depends upon these actions.
    If you have any questions, please feel free to contact me at 202-
552-2065 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2ded1c0ddd1d9d7c6c6f2c2d7c5c6c0c7c1c6c19cddc0d59c">[email&#160;protected]</a> Thank you for your time and 
consideration.

Sincerely,

Lee R. Crockett
Director, U.S. Fisheries Campaigns

cc: Members of the Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs
                                 ______
                                 

Statement Submitted for the Record by Lee R. Crockett, Director of U.S. 
       Fisheries Campaigns, The Pew Charitable Trusts, on ``The 
   reauthorization of the Magnuson-Stevens Fishery Conservation and 
                            Management Act''

    The Pew Charitable Trusts (Pew) appreciates the opportunity to 
provide a statement for the Committee's oversight hearing on the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA). In this 
statement, we will offer a brief historical perspective on the MSA, 
illustrate how conservation reforms added to the law in 1996 and 2006 
are beginning to bear fruit, and urge you to continue supporting these 
critical reforms. Finally, we will provide you with our recommendations 
on how the MSA reauthorization can build upon these successes by 
adopting new, ecosystem-wide approaches that will build resilience in 
our oceans to withstand the impacts of changing ocean temperatures, 
acidification, and other emerging threats. Such measures are vital to 
the future of U.S. fish populations that our fisheries depend upon.
Historical Perspective
    Ocean fishing is one of our nation's oldest industries, providing 
nourishment, employment and recreation to generations of Americans. 
Unlike other natural-resource related industries such as farming or 
forestry, ocean fishing involves hunting wild animals inhabiting 
ecosystems that are vast and varied. When healthy, ocean ecosystems 
sustain a national commercial seafood industry that is currently 
estimated to support 1.23 million jobs, and a recreational fishing 
industry that is estimated to provide more than 454,000 
jobs.<SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ National Marine Fisheries Service (NMFS), 2011. Fisheries 
Economics of the United States, 2011. U.S. Department of Commerce, NOAA 
Technical Memo. NMFS-F/SPO-118, 175p. Available at: https://
www.st.nmfs.noaa.gov/st5/publication/index.html.
---------------------------------------------------------------------------
    Congress first recognized the need to manage U.S. ocean fish 
populations in 1976 when it passed the Fishery Conservation and 
Management Act, the precursor to the MSA, to phase out rampant foreign 
fishing off the U.S. coast and promote the domestic fishing industry. 
However, over the course of the next two decades, policies focusing on 
expanding fishing, as well as dramatic improvements in technologies to 
locate and catch fish, resulted in overfishing (i.e., catching fish 
faster than they can reproduce) becoming a national problem. Historic 
overfishing led to the collapse of many important fish populations 
around the country, including cod in New England, red snapper in the 
South Atlantic and Gulf of Mexico, and rockfish off the west coast. 
Today, coastal communities continue to grapple with the impacts of 
these fisheries collapses.
    In response to this problem, Congress amended the law twice (first 
in 1996 and then in 2006), changing the focus of the MSA from promoting 
fishing to conserving fish populations. The goal of these amendments 
was to halt the decline of valuable U.S. fish populations and end the 
boom and bust cycle of fishing in order to create a more stable 
industry. The 1996 amendments (known as the Sustainable Fisheries Act) 
put in place critically important measures to advance sustainability 
including specific requirements to rebuild depleted fish populations to 
healthy levels; and the 2006 amendments finally put an end to 
sanctioned overfishing by requiring managers to abide by the 
recommendations of scientists in establishing annual catch limits 
(ACLs) that do not allow overfishing.
The MSA today
    Today, with science-based catch limits and accountability measures 
established for all federally-managed fisheries, the U.S. can boast one 
of the best fishery management systems in the world. Other countries, 
including the European Union, are seeking to emulate the central tenets 
of the MSA, including science-based catch limits and commitments to 
ending overfishing and rebuilding depleted species in a set time 
period.
    Though it takes time for these measures to result in change on the 
water, we are beginning to see tangible improvements. While 40 of the 
managed fish populations were subject to overfishing in 2010, we have 
seen significant progress, with 29 populations subject to overfishing 
in 2012, according to the most recent data from the National Oceanic 
and Atmospheric Administration (NOAA). Furthermore, 32 fish stocks are 
fully rebuilt, compared to just 21 in 2010.
    NOAA Fisheries estimates that the economic benefits of rebuilding 
depleted species will be an additional $31 billion in sales nationwide, 
as well as more than a million jobs. The economic toll of allowing 
unsustainable fishing is equally stark--in a recent analysis, Ecotrust 
estimated that in 2009 alone, the cost of overfishing in New England, 
the South Atlantic and Gulf of Mexico commercial fisheries was $164.2 
million.<SUP>ii</SUP>
---------------------------------------------------------------------------
    \ii\ Ecotrust, Hidden Cost of Overfishing, 2011. http://
www.pewenvironment.org/news-room/reports/the-hidden-cost-of-
overfishing-to-commercial-fishermen-85899361965.
---------------------------------------------------------------------------
Transitioning to Long Term Sustainability
    The conservation requirements added to the MSA in 2006 represented 
a fundamental transformation in the way we manage our fisheries by 
placing science-based catch limits at the core of our management 
system. Some regions such as the North Pacific have been managing their 
fisheries under this approach for many years, and the value of their 
fisheries demonstrates the long-term pay off of this system. For 
example, Alaska's commercial seafood industry has more than doubled its 
revenue in the last decade, from $845 million in 2002 to $1.9 billion 
in 2011.<SUP>iii</SUP>
---------------------------------------------------------------------------
    \iii\ NMFS, 2011. Fisheries Economics of the United States, 2011. 
https://www.st.nmfs.noaa.gov/st5/publication/index.html.
---------------------------------------------------------------------------
    As we look at the challenges facing certain regions transitioning 
toward sustainable management, we must bear in mind the progress we are 
making as a nation in turning the corner in our decades-long effort to 
end overfishing and recover from its troubling legacy. Problems in 
regions like New England are a direct result of decades of excessive 
fishing and collateral damage to the ecosystem caused by damaging 
fishing practices and gear. Offering more ``flexibility'' to allow 
continued overfishing and further deplete stocks that are already at 
unsustainably low levels will exacerbate problems for fishermen in the 
future. We only need look at our neighbor to the north, where the 
Canadian cod industry collapsed, putting thousands of fishermen out of 
work, to see how this story could unfold.
    Another controversial issue in the transition to sustainable 
fisheries management is setting science-based annual catch limits 
(ACLs) for fish populations that lack recent stock assessments, a 
situation that is most pressing in the South Atlantic, Gulf and 
Caribbean regions. Some are concerned that managers are making 
decisions based on inadequate science, and some have advocated for 
weakening or eliminating the requirement to set annual catch limits for 
these so called ``data poor'' species.
    However, there are no fish species managed under the MSA for which 
there are no data. Information is available on basic biology, life 
history characteristics or commercial and recreational catch numbers 
that can be used to set catch limits even for fish without complete 
assessments. For these fish populations, there are tools available for 
managers to set annual catch limits, some as simple as locking in 
current catch levels until more complete scientific evidence indicates 
that the population can support more fishing. Please see the attached 
factsheet for more information on setting catch limits in the absence 
of conventional stock assessments.<SUP>iv</SUP>
---------------------------------------------------------------------------
    \iv\ http://www.pewenvironment.org/uploadedFiles/PEG/Publications/
Fact_Sheet/FF-CatchLimits.pdf.
---------------------------------------------------------------------------
    The lack of complete assessments should not allow managers to 
sidestep the legal requirement to establish catch limits that prevent 
overfishing. In essence, this would allow unchecked fishing unless or 
until a full scientific stock assessment is available to establish 
limits. Failing to establish science-based ACLs has created disastrous 
and demonstrably negative consequences in many parts of the country. 
For example, managers allowed overfishing of Gulf of Mexico red snapper 
for decades, reducing the breeding population to less than 5 percent of 
what scientists considered a healthy level by 1988.<SUP>v</SUP> In 
2007, fisheries managers finally heeded the advice of their science 
advisors on sustainable catch limits and lowered allowable red snapper 
take from 9 million to about 6 million pounds and then again to 5 
million pounds in 2008. These significant cuts may have been avoided 
had managers listened to the science and addressed red snapper 
overfishing years earlier. As a result of establishing science-based 
ACLs, Gulf of Mexico red snapper is now recovering and catch limits are 
gradually increasing.
---------------------------------------------------------------------------
    \v\ Goodyear, C.P. 1988. ``Recent trends in red snapper fishery of 
the Gulf of Mexico,'' NMFS. SEFSC. Miami FL. CRD 87/88-16. Memo. Rpt. 
98p, see pages 12 and 24.
---------------------------------------------------------------------------
Addressing New and Emerging Threats
    The 1996 and 2006 amendments to the MSA have resulted in remarkable 
progress in ending overfishing and increasing the value of U.S. fish 
populations through rebuilding. However, as our understanding of the 
ocean and its inhabitants increases, we are recognizing that it is not 
only critical to protect economically important populations of fish, 
but also interrelated species and surrounding habitat. Ending 
overfishing is just the beginning of sustainable fisheries 
management.<SUP>vi</SUP> As we grapple with emerging threats related to 
changing ocean temperatures, acidification and other stressors, we must 
now make the shift to ecosystem-based fishery management to ensure that 
our fisheries can withstand these new challenges.
---------------------------------------------------------------------------
    \vi\ Prelude to Sustainability: Ending Overfishing in U.S. 
Fisheries. Our Living Oceans 6th edition, pps 57-66.
---------------------------------------------------------------------------
    Changing environmental conditions are already affecting our oceans 
and fisheries. The Gulf of Maine experienced the warmest summer on 
record in 2012, and some scientists believe that this may be have 
contributed to the poor condition of groundfish stocks there. 
Increasing acidity in the ocean is becoming an issue for shellfish in 
the Pacific Northwest, and its impacts on the broader food web are not 
yet fully understood. In addition to impacts on ocean health, changes 
in fish population sizes and distribution have a direct impact on the 
U.S. commercial and recreational fishing industry, which generates 
billions in revenue and provides jobs for millions of people.
    The MSA has tools in place to begin this process by protecting 
habitat and reducing the incidental catch of non-target species, or 
bycatch. As you begin to consider possible reforms to the MSA, we urge 
you to strengthen these existing tools and examine new tools that can 
be used to protect the prey base of commercially and recreationally-
important species. Finally, we must move toward an ecosystem basis for 
management so that fisheries management decisions are taken after 
considering the needs of the larger ecosystem. These reforms will 
restore and maintain healthy and resilient marine ecosystems that are 
critical to our nation's fisheries.
Attachment
    [NOTE: The fact sheet has been retained in the Committee's official 
files. It is available at: http://www.pewenvironment.org/uploadedFiles/
PEG/Publications/Fact_Sheet/FF-CatchLimits.pdf.]
                                 ______
                                 

  Statement Submitted for the Record by Glen Brooks, Vice President, 
           Gulf Fishermen's Association, Clearwater, Florida

    My name is Glen Brooks and I have been a commercial fisherman in 
the Gulf of Mexico for over 30 years. On behalf of the board of 
directors for the Gulf Fishermen's Association, I would like to thank 
you for the opportunity to submit testimony related to Magnuson-Stevens 
Act reauthorization.
    The Gulf Fishermen's Association is the leading offshore commercial 
fishing organization in the southeastern U.S., with several hundred 
members. Our fishermen range from lifetimes of fishing experience to 
new entries to the fishery. We are dedicated to providing fresh 
domestic seafood to America's citizens year-round in sustainable 
fisheries. This is important because more than 97% of Americans do not 
have the means to catch their own fish in federal waters. Instead they 
rely on us. In addition to providing the best seafood in the world to 
American citizens, the economic contribution of the commercial fishing 
industry in the Gulf of Mexico is 128,000 jobs & $17 billion in sales.
    Until 2006, our Gulf fisheries were managed with traditional 
systems of seasonal closures, endorsements, income qualifications, gear 
restrictions, and other indirect means of controlling how many fish 
were caught. In 2005, as the Gulf Council tried to restore our fishery 
with conventional management, our season was cut short and restaurants 
had to take grouper off the menu. Fishermen sat at the dock for one-
third of the year because managers hoped that would help rebuild the 
stocks, yet overfishing still happened. Fish prices were among the 
lowest in the United States, leaving more than 70 percent of fishermen 
with incomes below poverty level. Quality was poor because of gluts 
caused by fishermen catching all they could during the open season. 
Imports increased to fill the void caused by the closed season.
    The fishery was unmanageable, depleted, and without a future. Most 
fishermen were going out of business and very few could pay taxes or 
maintain their vessels. Things got so bad that in 2005 some in the 
industry developed a plan to reduce the fleet from 1,100 down to 400 
boats. It was eventually abandoned, and fishermen looked for a better 
solution.
    The catch share system was the fairest solution that didn't force 
fishermen out. We worked with federal managers and the regional Gulf of 
Mexico Fishery Management Council to establish our own program. At the 
local level--not through federal mandate or expanded regulations--we 
established individual fishing quotas (IFQs) that would enable us to 
spread out our fishing season and rebuild our fishery at the same time. 
In 2009, 81 percent of qualified fishermen voted in favor of an active 
fishery management program that was focused on rebuilding our grouper 
stocks. In 2010 the Grouper catch share program took effect as a 
companion to the red snapper catch share program.
    Now, for the first time in history we have year-round sustainable 
fishing jobs and no closed season. The fishery is more valuable because 
we provide fresh grouper throughout the year. The product is the best 
it has ever been. Fresh fish has become a reality again in our region 
and restaurants are putting fresh Gulf Grouper back on the menu.
    The fishery dependent science produced is among the best in the 
world and fishermen help pay for this through the cost recovery program 
as the fish are landed. The enforcement system and regulatory 
compliance by fishermen are the Gold Standard for fisheries in the 
Eastern United States, and fishermen help pay for that with their 
Vessel Monitoring Systems.
    This is a tremendous accomplishment for our country and the future 
is brighter if we support the rebuilding plans in place. American 
fisheries Management is among the best in the world. No agency of the 
federal government has more stakeholder interaction than the fisheries 
management system created by the Magnuson-Stevens Act. The Gulf 
Fisherman's Association feels that our management system is not broken 
and does not need an overhaul by Congress.
    Gulf fishermen have lived through overfishing; we know what it 
causes and how hard it is to reverse. We are very grateful for the 
courage and foresight that our nation has had to end overfishing and 
rebuild our fisheries. Already we are seeing signs of improvement in 
our fisheries in the Gulf. For the first time in our lifetimes, 
management plans are in place to increase catch limits as the fishery 
improves rather than decrease them as the fishery declines.
    We want to thank Congress for the role it has played and America 
for the commitment it has made to healthy fisheries. The Magnuson-
Stevens Act is working. We urge the present Congress be patient and let 
it continue to work to achieve a sustainable fishery now, and in the 
future.
Sincerely,

Gulf Fisherman's Association Board of Directors:
Glen Brooks: President, Cortez, FL: 941-920-7302
Dean Pruitt: Vice President, Clearwater, FL: 727-512-2609
Jim Clements: Board Member, Carrabelle, FL: 850-544-5703
Brad Kenyon: Board Member, Tarpon Springs, FL: 727-639-0643
Jason Delacruz: Board Member, Seminole, FL: 727-639-6565
John Schmidt: Board Member, Palm Harbor, FL: 727-403-6281
Will Ward: Board Member, St. Petersburg, FL: 727-638-8316
                                 ______
                                 

Statement Submitted for the Record by The Honorable William R. Keating, 
  a Representative in Congress from the Commonwealth of Massachusetts

    Thank you to Chairman Hastings, Ranking Member Markey, and Members 
of the House Natural Resources Committee for holding the first hearing 
on the reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) today. I know a number of my colleagues on the 
Committee serve coastal districts and understand the complexities of 
fisheries management thoroughly. I would also like to thank both panels 
of speakers today. We have much to gain from their perspectives on how 
implementation of the MSA has affected fishing communities nationwide 
and it is my hope that Members of the Committee will keep these 
testimonies and eye-witness accounts in mind as reauthorization 
progresses.
    I have the distinct honor of representing Southeastern 
Massachusetts, including the Islands of Cape Cod and Martha's Vineyard, 
where the fishing industry has been an integral part of the history for 
centuries. The South Coast was once the home of the epic whaling 
industry and the lore of whaling trips lives on its streets and piers, 
as well as in those of Martha's Vineyard and Nantucket across Buzzards 
Bay. Today, the industry remains a vital economic lifeline for the 
region. The Port of New Bedford is the top fishing port in the country, 
with landings valued at approximately $400 million each year. New 
England's largest fleet of commercial fishermen has access to a variety 
of fish stocks and sea scallops in Nantucket Shoals, Georges Bank and 
the Great South Channel. In fact, nearly 50 million pounds of sea 
scallops pass over New Bedford's docks, which are also home to over 30 
processors and distributors of all sizes. On Cape Cod, over 100 
commercial fishing businesses catch over 12 million pounds of seafood 
worth $17 million each year, from cod and haddock, monkfish and 
dogfish, skates, clams, striped bass, and tuna. Massachusetts' 
lobstermen have landed over 13 million pounds at docks along the 
Commonwealth's coast, including nearly 8 million pounds from near shore 
state waters, accounting for over $50 million in revenue.
    However, one size does not fit all when it comes to fishery 
management policies. It is important that each fishery is assessed 
using the most sound, comprehensive, and accurate data available--and 
that is exactly what I have committed to achieving in Congress. We have 
learned that management is best left to regional stakeholders who 
understand the ebbs and flows of the industry and can identify the 
areas that need reform while the role of Congress should be to 
prioritize funding to improve on science and collaborative research. 
It's important to ensure that interpretation of the law is met with 
congressional oversight to ensure that the law is being implemented in 
the way Congress intended. In some cases managers have refused to take 
advantage of the flexibility already provided in the law and in other 
cases they can abuse this flexibility. We must focus on the challenges 
at hand and promote the maximization of harvests of healthy species, 
the reduction of bycatch, and the improved management of areas closed 
to fishing.
    The issues currently plaguing the industry are not only complex, 
but repetitive. In September 2012, the Northeast Multispecies 
(groundfish) Fishery was issued a disaster declaration by the 
Department of Commerce after the National Oceanic and Atmospheric 
Administration (NOAA) allowed for a one-year interim measure before 
implementing drastic cuts in quota for Gulf of Maine and Georges Bank 
cod and yellowtail flounder. New England's fishermen are now facing 
such severe restrictions in allowable catch for the 2013 fishing 
season--which begins in just over six weeks--that many of them are 
facing the reality of losing their livelihoods and only source of 
income. It is my belief that many of the challenges of the fishing 
industry have been due to infrequent and inadequate data collection 
that then dictates catch quantities. In the face of ongoing challenges 
outside of our control--from increasing water temperatures, ocean 
acidification, and regime changes--it is imperative that Congress 
implement fair and effective fisheries management policies that support 
the existing successes of this implementation while helping to preserve 
those that are struggling.
    On December 1, 2011, this Committee hosted a hearing on several 
bills introduced in the 112th Congress to reform the Magnuson-Stevens 
Act and better fisheries management. I joined my colleagues from both 
sides of the aisle in testifying on behalf of my legislation, H.R. 
1013, the Strengthen Fisheries Management in New England Act, which 
would have rerouted funds collected through penalties imposed by NOAA 
to the improvement of New England fisheries. In April 2012, we sent a 
letter to the Committee urging them to take up legislation to reform 
federal fisheries law in the immediate future. It was to our 
disappointment that a second hearing was not scheduled and that none of 
our legislation was considered. I am committed to working with my 
colleagues and Members of the Committee to ensure that the proposals 
included in these bills are thoroughly considered as reauthorization of 
Magnuson-Stevens progresses.
    The New England Fishery Management Council is charged under the 
Magnuson-Stevens Act to manage fisheries in the federal waters of New 
England. Each year it identifies research and monitoring priorities, 
most of which lack adequate funding. In order to make sound management 
decisions, the Council must have the increased capacity to address 
these knowledge gaps. In today's age of austerity, it is essential that 
we maximize our reallocation of existing resources for best results. 
With the onset of sequestration and fiscal uncertainty, I hope that 
Members can work together to assist NOAA Fisheries in their ability to 
continue to provide at-sea monitoring coverage through the 2013 fishing 
year. Currently, the Agency has announced its intent to cover this cost 
as they have in previous years, provided that the number of trips not 
exceed the number from the 2012 fishing year. I am very concerned that 
the Agency's ability to meet this assurance comes at a cost: the very 
research that we are striving to improve.
    Furthermore, NOAA has also committed to participating in an end-to-
end review of the flawed stock assessment process led by the University 
of Massachusetts Dartmouth's School of Marine Sciences and Technology 
(SMAST). SMAST will be collaborating with NOAA Fisheries and the 
industry in holding workshops on three focus areas: incorporating 
environmental change in assessments and management, fishery monitoring 
and survey selectivity, and overfishing reference points and 
uncertainty buffers. This is a unique opportunity for industry 
engagement and I look forward to helping facilitate the review and 
provide my full support to this process.
    Finally, there is an urgent need for fishing communities--from 
legislators and regulatory officials to healthcare providers and 
families--to fully understand the socioeconomic impact of fishery 
regulations and management on all industry stakeholders. In 
Massachusetts, we are increasingly bearing witness to heart wrenching 
scenes of frustration and grief as members of the fishing community 
find themselves out of work without an alternative source of income. I 
implore the Committee to listen to the suggestions of the industry and 
incorporate mechanisms to measure both the social and economic 
consequences of job loss, uncertainty, and hardship within fishing 
communities.
    Thank you once again to Chairman Hastings, Ranking Member Markey, 
and Members of the Committee. With challenges comes great opportunity, 
and I look forward to continuing to engaging with the Committee and 
participating in the robust conversation that will surely follow 
throughout the next year as we work toward constructive reform and 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
                                 ______
                                 

       Statement Submitted for the Record by Elizabeth Mitchell, 
         Association for Professional Observers, Eugene, Oregon

    Mr. Chairman and Members of the Committee:
    My name is Elizabeth Mitchell and I am president of the Association 
for Professional Observers (APO). The APO is a non-profit association 
of biologists who advocate strong data collection programs for our 
national fisheries and a support network for the biologists who collect 
the data. In addition, I have over 25 years of experience working as a 
fisheries observer, primarily in the North Pacific Groundfish Observer 
Program (NPGOP). The underlying principle behind all of the APO's 
activities is the belief that collection of high quality, unbiased data 
is essential to sustainable management of resources and that well 
prepared professional biologists are necessary to articulate this 
course of action.
    I had the opportunity to listen to the archived version of this 
hearing after it was held. I wanted to add written testimony to those 
panelists who presented. Since all but one panelist were exclusively 
from members of the fishing industry, and some of the discussion 
involved fisheries observers, I felt it was important to provide a 
fisheries observer's perspective regarding several issues raised at 
this hearing.
What Does a Fisheries Observer Do?
    Some of the discussion at the hearing was on the topic of replacing 
observers with electronic monitoring (EM) and ensuring that the next 
reauthorization pushes this forward aggressively. When changing 
technologies, we should proceed with caution to ensure that EM will 
provide us with the necessary information to effectively manage our 
marine resources. I thought I would provide an outline of just some of 
the observer duties but I would encourage a detailed outline specific 
to regions and fisheries of what information fisheries managers 
require, and a comparison of what observers now provide with what EM is 
capable of doing. We cannot sacrifice for the sake of convenience data 
and specimen collection that is necessary to manage our nation's public 
fisheries resources in a sustainable way.
    Observers gather unbiased, objective data on daily fishing effort, 
including, but not limited to:
        <bullet>  Total catch quantification by species, weight and 
        number
        <bullet>  Identification of all organisms using scientific 
        taxonomic keys
        <bullet>  Record incidental catch of protected species
        <bullet>  Record interactions of protected species with fishing 
        gear
        <bullet>  Conduct rehabilitation of injured protected species
        <bullet>  Make observations of seabird and marine mammal 
        bycatch reduction mitigation measures
        <bullet>  Conduct randomized samples of total catch to 
        determine species composition of both target fish and bycatch
        <bullet>  Determine disposition of catch by weight
        <bullet>  Conduct a variety of randomized biological data 
        collections and tag recoveries for basic research on age 
        distribution, prey species and genetics studies
        <bullet>  Monitor vessel compliance to U.S. fishery regulations 
        as well as other regulations such as MARPOL (the International 
        Convention for the Prevention of Pollution from Ships
        <bullet>  Conduct safety checks of vessels prior to boarding
    Observer-collected data is used for in-season management of fish 
stocks and quotas and are essential for fishery management councils to 
write fishery management plans (FMP), which must comply with the 
Magnusun Stevens Act (MSA). Among other requirements, the MSA requires 
the use of the best scientific data available and efficient use of 
marine fisheries resources.
Access to Observer Data and Information, Including Electronic 
        Monitoring
    One of the sections of the last reauthorization of the MSA in 2007 
caused a lot of consternation for users of observer data and 
information. The confidentiality provisions added in the 2007 
reauthorization placed a blanket of secrecy over all information that 
observers collect, and specifically added electronic monitoring (EM) in 
the definition of observer information, assuming future trends toward 
the replacement of observers with EM. As mentioned above, observer data 
is essential for a whole suite of analyses to ensure sustainable 
management of our public marine living resources. The confidentiality 
provisions of this Act remained in limbo for five years, as National 
Oceanic and Atmospheric Administration (NOAA) grappled with its 
implementation. Discussions, working groups, workshops and task teams 
languished behind closed doors, despite a MSA mandate to be inclusive 
of stakeholder input.
    In 2012, NMFS issued a proposed rule that appeared to go beyond the 
requirements of the MSA and in many ways conflicted with the Act's 
mandates, including being ``responsive to the needs of interested and 
affected States and citizens'' and drawing ``upon Federal, State, and 
academic capabilities in carrying out research, administration, 
management and enforcement''. It included not only protection of 
identity of the fisherman, but also the protection of the fishermen's 
business information. This included everything that is needed to study 
fishery impacts on the marine environment. The rule neglected to inform 
the public how the data would be aggregated for public disclosure and a 
future decision on this would have been made behind closed doors 
without public input. It placed ownership of the data in the hands of 
the fishing industry, which is a direct conflict of interest, since 
this could enable the fishermen to release the data or not, according 
to their own exclusive benefit.
    Transparency is the cornerstone of a democratic society and 
observer data has long been considered to be the cornerstone of 
fisheries management. Observers risk their lives to collect this data 
for public good, not just for those we're monitoring. The ocean belongs 
to us all. The fisheries are a public resource, an inheritance given to 
us for simply being born. Since not all of us have the capacity to fish 
for ourselves, we entrust our government to take care of these 
resources on our behalf and those of future generations. We request 
your consideration in re-examining the confidentiality provisions of 
the MSA to ensure adequate public access to observer data and 
information, including electronic monitoring information. Without 
access to observer data and information, other provisions of the MSA 
would be impossible to carry out, including the ability to monitor the 
effectiveness and efficiency of our monitoring programs.
The Committee Must Treat its Citizens with Respect
    U.S. citizens have a right to expect respect and consideration from 
our Congressional representatives. I was appalled by the comments of 
Congressman Don Young about observers. He said: ``I argue that 
observers are probably the worst thing that can happen to the 
sustainable yield rationalization. The observer is human. He can be 
corrupted. He can be put into the trawl net to solve some problems. He 
can be a drunk.''
    Observers are recognized worldwide to be an essential component to 
fisheries managers so that they may make the difficult objective 
decisions in order to sustainably and fairly manage public marine 
resources. Observers believe in this role and are extensively trained 
for it, so to hear a U.S. Congressman marginalize observers at a 
``public'' hearing, where only fishermen are invited, is contemptible.
    I understand his point--that humans sometimes come with negative 
variables. So do cameras, with much more ease and likely with less 
consequence, not to mention less oversight. So too are fishermen and 
politicians corruptible. In Mr. Young's home state, small boat 
fishermen are the recipients of the first time observer coverage this 
year that he was referencing. It was one of these fishermen who served 
in powerful political positions in Alaska who influenced fisheries 
policies in Alaska and the nation. He was then vetted to become the 
head of the National Marine Fisheries Service (NMFS) until it was 
discovered that he had been fishing illegally for five years.
    Jesting in front of a bunch of fishermen that killing observers 
would solve the problem of having them on board is beyond contemptible 
given the reality of our already risky and vulnerable situation. 
Harassment, assault and interference with our duties is a regular and 
serious problem for observers. Rationalization actually exacerbates 
this, so his statement about rationalization is the other way around--
rationalization is the worst thing to happen to observers. Observers' 
data is no longer pooled with other observers sample data in the fleet. 
Instead it is used to monitor the individual vessel's quota. When the 
observer's data is directly impacting a vessel's quota on which he/she 
is monitoring, observers are often faced with additional pressures from 
fishermen to ``match'' their data with the vessel's quota accounting. 
It's not uncommon for fishermen to make attempts to subtlety (or 
outright) influence the observers' sampling protocols. Additionally, 
fishermen in Alaska tripled many observers' already heavy workload with 
rationalization--demanding that NMFS implement complex randomized and 
larger sample schemes of an impossibly small poplulation--the 
individual vessel. What the fishermen want is actual accounting against 
their quota, not a sample. However, we just don't have that technology 
yet. That's the cadillac version. So rather than insult observers and 
feed the resentment, we need to pull together to accept them as an 
essential componant of fishing sustainably. It is reprehensible for a 
politician to joke in front of fishermen about killing us. With an 
expected rise in harassment and interference that accompanies a new 
program, we'll know who to partially blame.
EM is not Proven to be Cost Effective
    Another panelist at this hearing, Bob Dooley, stated that observer 
costs (in the NPGOP) went up from $300/day to over $1000/day ``once the 
government got involved''. However this is misleading because the 300/
day figure only includes cost to industry and the 1000/day includes 
costs to industry and for NMFS program management. Because contractors 
consider observer charges for service fees proprietary information, 
this makes it impossible to accurately analyze ways to save costs to 
industry or the government--only total cost after the service is 
completed. Since cost effectiveness is a driving force for many, 
transparency about these costs should be of the first order.
    In addition, costs of enforcement of EM regulations is not included 
in cost analyses. Nor are non-compliance fee schedules. Non-compliance 
fee schedules should be a part of any cost analysis. Fines sometimes 
become the ``cost of doing business'' for some industries, so depending 
on the cost of non-compliance fines, these may not be effective in 
deterring EM violations.
    Thank you.
                                 ______
                                 

       Statement of The Honorable Austin Scott, a Representative 
                 in Congress from the State of Georgia

    First, I would like to thank Chairman Hastings for bringing this 
important issue to the committee's attention. The Magnuson-Stevens 
Fishery Conservation and Management Act plays a major role in the 
recreational and commercial fishing by Georgia citizens. This is no 
more apparent than with the management of Red Snapper in the Gulf of 
Mexico and the South Atlantic. Over the last several years, the 
Administration has decided to severely limit the access to Red Snapper 
stating the erratic fluctuation of population. However, previous and 
current regulations of red snapper have lead to a steady and of late 
explosive growth in the Red Snapper population. This growth has been 
ignored by NOAA and National Marine Fishery Service in implementing new 
catch seasons and limits.
    There is only one answer for the contradiction in data and NOAA/
NMFS actions. The quality and quantity of science and data used by 
NOAA/NMFS is fatally flawed. NOAA has chosen to actively pursue a path 
of severe and unwarranted closures while failing to address the severe 
deficiencies in its science and data collection. Many of my 
constituents fail to understand how generally actions by NOAA, much 
less acts of closures and restrictions, can be conducted without 
accurate, timely data collection and sound science.
    Further, NOAA has failed to conduct timely economic studies or 
assessments to determine the economic impact on communities who rely on 
fishing as a source of revenue. The basis of economic studies when 
conducted by NOAA are based on inadequate samples of fishing operations 
and could be argued, due to the sample size, that no economic study was 
actually conducted. If NOAA continues to implement severe policies 
based on flawed incomplete, poorly implemented science, an adversarial 
relationship will continue to grow between fisheries and NOAA. If not 
corrected, this will undoubtedly spill over into the other species and 
over 4,000 square miles of water that is regulated. This is no more 
evident than with the actions taken by states in the past few years who 
have extended their seasons past NOAA set dates.
    With the current economic climate, many communities need all the 
help that can acquire to provide their citizens with sustainable and 
fair economic stimulus. I charge NOAA/NMFS to discontinue its current 
practices and accept their responsibility to regulate the fishing 
industry with sound and adequate science, and in a manner that is first 
and foremost beneficial to coastal communities but also mandated by 
Congress.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
